APPENDIX

A-1

Case: 18-2367 Document:
08/13/2020
Page: 1 Page 3 of 47(3 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2713

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0259p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

MELVIN WOFFORD,
Petitioner-Appellee,

┐
│
│

>

v.
JEFFREY WOODS, Warden,
Respondent-Appellant.

│
│
│
│
│
┘

No. 18-2367

Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
No. 2:16-cv-13083—Laurie J. Michelson, District Judge.
Argued: October 17, 2019
Decided and Filed: August 13, 2020
Before: BOGGS, BATCHELDER, and DONALD, Circuit Judges.
_________________
COUNSEL
ARGUED: David Porter, OFFICE OF THE MICHIGAN ATTORNEY GENERAL, Lansing,
Michigan, for Appellant. Colleen P. Fitzharris, FEDERAL COMMUNITY DEFENDER,
Detroit, Michigan, for Appellee. ON BRIEF: David Porter, OFFICE OF THE MICHIGAN
ATTORNEY GENERAL, Lansing, Michigan, for Appellant. Colleen P. Fitzharris, FEDERAL
COMMUNITY DEFENDER, Detroit, Michigan, for Appellee.
_________________
OPINION
_________________
BOGGS, Circuit Judge. The right to “trial by an impartial jury” guaranteed by the Sixth
Amendment contains certain substantive requirements. Ramos v. Louisiana, 590 U.S. ___, 140

APP_001

Case: 18-2367 Document:
08/13/2020
Page: 2 Page 4 of 47(4 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2714
No. 18-2367

Wofford v. Woods

Page 2

S. Ct. 1390, 1395 (2020). One of these is the rule, established since the Middle Ages, that the
trial judge cannot remove a juror based on that juror’s opinion of the merits of the case. Yet at
the same time, trial judges have long-established power, consistent with the Constitution, to
remove jurors for misconduct. This case concerns what happens when a trial judge removes a
juror for misconduct when that juror is also a holdout against conviction.
Wofford was found guilty of murder in a Michigan court following the removal and
replacement of a juror. While that juror was holding out against conviction at the time, the judge
removed her because of her misconduct: she had violated his instructions not to discuss the case
with anyone other than her fellow jurors by hiring a lawyer to address the court about the
tensions in the jury room.

The Michigan Court of Appeals (MCOA) affirmed Wofford’s

conviction under a state precedent on juror removal. A federal district court then granted
Wofford’s petition for a writ of habeas corpus. The district court held that the MCOA’s decision
was not entitled to deference under the Anti-Terrorism and Effective Death Penalty Act
(AEDPA), 28 U.S.C. § 2254, because the Michigan court had overlooked Wofford’s Sixth
Amendment claims. Second, it held that the removal of the juror violated Wofford’s Sixth
Amendment rights.
In assessing this appeal, we first review the factual determinations that the federal district
court made in reviewing the factual findings of the MCOA. This review shows that, while the
juror was a holdout, she was not removed for this reason, but instead because of her misconduct.
Then, we turn to review whether the district court was legally correct in granting a writ of
habeas corpus on these facts. The recent Supreme Court decision in Ramos provides guidance
on the Sixth Amendment right at the center of this case: the right not to have a juror removed due
to the juror’s opinions on the merits of the case is contained in the Sixth Amendment’s guarantee
of a “trial by an impartial jury.” Cf. 140 S. Ct. at 1395. We review first the history and limits of
this right and then the different ways in which Michigan courts and certain federal courts have
attempted to protect it. This history makes it clear that Michigan did not overlook Wofford’s
Sixth Amendment claims.

APP_002

Case: 18-2367 Document:
08/13/2020
Page: 3 Page 5 of 47(5 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2715
No. 18-2367

Wofford v. Woods

Page 3

This is a case of first impression in this circuit. Many of our sister circuits, on direct
appeal, and some states have applied a prophylactic rule, holding that where there is a
“reasonable possibility” that the removal decision stems from the juror’s views on the merits of
the case, such removal is impermissible and is grounds for reversal of a conviction and a new
trial. See, e.g., United States v. Symington, 195 F.3d 1080, 1087 (9th Cir. 1999). But the
Supreme Court has held that the state courts are not bound by the federal appellate courts’
decisions on constitutional questions. See Johnson v. Williams, 568 U.S. 289, 305 (2013). Here,
the MCOA was therefore free to require a showing of an actual constitutional violation.
Implicitly but clearly, it did so. As a result, we reverse.
I. Factual and Procedural History
A. The Murder
In June 1993, Thomas Gilmore was strangled to death outside of his employer’s offices
late at night. Gilmore, a surveyor, worked for a company located in a building that also
contained a roofing company.

Police found evidence suggesting that a person or persons

familiar with the interior layout of the roofing company had broken into it, stolen a circular saw,
and attempted to force open an inner office where more valuable equipment and cash were kept.
The point of entry appeared to be a previously broken window that was covered with sheet metal
held up by duct tape and screws. Police found two hairs stuck to the duct tape that held the sheet
metal in place and, on a wall and work bench, two droplets of blood that they suspected came
from the burglar after he cut himself on some of the broken glass while entering.
The police theorized, and prosecutors would later argue, that Gilmore had an encounter
with the person(s) involved, either while taking a break outside from his late-night work (as he
sometimes would) or after he was lured outside. Gilmore had been beaten severely and then
strangled with a rag or piece of clothing. Gilmore’s assailant used the handle of a hammer, taken
from the roofing company, either in Gilmore’s beating or to assist in his strangulation, or both.
As evidence suggested a period of time between the beating and the killing, police posited that
the burglar realized that Gilmore would recognize him and thus killed Gilmore to ensure his
silence. Yet for over two decades, the case lay cold. Then, due to advances in DNA technology,

APP_003

Case: 18-2367 Document:
08/13/2020
Page: 4 Page 6 of 47(6 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2716
No. 18-2367

Wofford v. Woods

Page 4

the state was able to match the hair and the blood to Melvin Wofford, who was an employee of
the roofing company at the time of the murder.
B. The Trial
Wofford was tried for murder in a Michigan state court in August 2013. The prosecution
not only relied on the physical evidence and deductions outlined above but also introduced
evidence that Wofford had needed money for a drug habit and that the roofers’ pay had recently
been delayed by the company. A former coworker testified that Wofford had been out drinking
with him on the night of the murder but mysteriously disappeared at about 3 A.M., only to
reappear the next morning sleeping in the coworker’s living room. Moreover, witnesses said that
Wofford did not return to work the day after the murder or the day following, and may have
never returned again. As some of the evidence at the scene of the crime did not point to
Wofford, the prosecution offered a theory in the alternative that he had had an accomplice.
The defense relied primarily on raising points of reasonable doubt.

The initial

investigation of the burglary had been sloppy, as it was at that time a low-priority crime;
Gilmore’s body was not discovered, hidden in the bushes outside, for another 24 hours after the
break-in was reported. By the time the body was discovered, the crime scene was contaminated.
The defense argued that it was natural for some of Wofford’s blood to be in a place where he
worked with sharp tools and construction equipment, and that he could easily have shed some of
his “long blond hairs” while working, which subsequently were carried by the air and got stuck
in tape. The prosecution countered with testimony indicating that the blood droplets were fresh
and invited the jury to observe that nothing else, not even dust, was attached to the duct tape,
which implied that it had been freshly torn from the metal that covered the window when the
hairs stuck to it. The defense further argued that only a used circular saw worth $30 had been
stolen, and the burglary would thus have been a misdemeanor; therefore, concealing his identity
would be a poor motive for the burglar to commit murder. Because Gilmore had been so badly
beaten, the defense inferred that he must have fought back. Yet Wofford’s coworker testified
that he was in the same clothes the next morning as the night before, which did not appear
bloody or torn, and witnesses who saw Wofford in the days after the murder did not recall seeing
bruises on his hands or face. Nor was his blood identified among the samples taken from

APP_004

Case: 18-2367 Document:
08/13/2020
Page: 5 Page 7 of 47(7 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2717
No. 18-2367

Wofford v. Woods

Page 5

Gilmore’s body. Finally, the defense pointed to two sets of alternative suspects: another tenant
of the building with a history of violence, to whose son Gilmore owed money, and two men who
had been convicted of a burglary and murder in a nearby town at around the same time.
When the judge swore the jury at the beginning of the case, he instructed them that:
You must not discuss the case with anyone, including your family or friends. You
must not even discuss it with the other jurors until the time comes for you to
decide the case. When it is time for you to decide the case I will send you to the
jury room for that purpose. Then you should discuss the case among yourselves
but only in the jury room and only when all the jurors are there. When the trial is
over you may, if you wish, discuss this case with anyone.
Trial lasted for nine days spread over three weeks. At the end of each day, the judge reminded
the jurors not to talk to anyone else about the case.1 Instructing the jury at the end of the trial,
the judge told them, “you must decide this case based only on the evidence admitted during the
trial.” He reminded the jury that “all the cautionary instructions I’ve given you . . . would
continue to apply, so keep an open mind, not discuss [sic] the case with anyone else[,] have no
dealings with anybody.” The jury began deliberating on the afternoon of Friday, August 23.
On Monday, August 26, after the jury had been deliberating for about seven total hours,
the jury foreperson sent a note to the judge, reading, “We are eleven to one with no chance of the
one moving their view.” The judge consulted with the lawyers for both sides, gave the jury a
deadlock instruction, and sent them back to continue deliberating. Just an hour after he sent
them back in, his clerk received a note from another juror (not the foreperson): “Excuse me,
judge, one of our jury’s [sic] doubts are unreasonable, what do we do?” The judge did not
respond directly. Instead, realizing that the jury may not have been given a standard instruction,
he summoned the jury and read them the following:
1E.g.:

[Y]ou must not discuss this case with anyone or let anyone discuss it with you or in your presence.
You must resist your human impulses and human nature and not discuss the case with family,
friends or strangers. If someone tries to discuss the case with you please tell him or her to stop. If
they continue, leave and report the incident to me when you return to the court.
You must not talk to the defendant, the lawyers or the witnesses about anything at all,
even if it has nothing to do with the case. Remember, the only information you receive about this
case is when you’re in the court, when you’re acting as the jury, when the defendant, the lawyers
and I are all here.

APP_005

Case: 18-2367 Document:
08/13/2020
Page: 6 Page 8 of 47(8 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2718
No. 18-2367

Wofford v. Woods

Page 6

If you want to communicate with me while you’re in the jury room please have
your foreperson write a note and give it to the court clerk. It is not proper for you
to talk directly with the Judge, lawyers, court officers or other people involved in
the case. As you discuss the case you must not let anyone, even me, know how
your voting stands. Therefore, until you return with a unanimous verdict do not
reveal this to anyone outside the jury room.
Neither of these notes revealed the gender of the juror referred to. Nothing further of note
happened that day.
The next morning (Tuesday) was quiet. Then, in the mid-afternoon, the jury sent three
notes to the judge within the space of half an hour. The first read:
We the jury have a member who is not cooperating and refuses to deliberate or
prove to us her vote. She just wants a hung jury. She also stated she had looked
up the phrase to see what it meant before deliberation even started.
Please advise us on what to do in this case.
Thank you!
The second said:
We Have a Jury member who SERIOUSLY doesn’t understand what Reasonable
Doubt is!! We have a hung jury and we need instructions!!!
Help!!!
The third note, meanwhile, asked a question about the law of aiding and abetting.2 At this point,
the court heard from both counsel. The prosecution suggested that the juror referenced in the
second note should be removed for cause, because by doing outside legal research she had
violated her oath. Alternatively, he argued, the jury should be given the deadlock instruction
again.
At this point, the defense attorney made a mistake. Operating without a transcript, he
mistakenly ‘recalled’ that one of the previous day’s notes had referred to the holdout juror by a
masculine pronoun (it had not, speaking only of “one of our jury’s [sic] doubts”). Thus, he
concluded that the use of “she” in the first note that day meant that the composition of the jury’s
2“Can you explain to us why, if someone commits robbery, why are they [sic] considered guilty of murder,
example get-away driver.”

APP_006

Case: 18-2367 Document:
08/13/2020
Page: 7 Page 9 of 47(9 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2719
No. 18-2367

Wofford v. Woods

Page 7

vote had changed since the original note. Therefore, he equivocated as to whether the court
should declare a mistrial or reread a deadlock instruction. The misperception thus created would
continue to plague the proceedings.
The judge decided to give a series of instructions to the jury: an aiding-and-abetting
instruction, a reasonable-doubt instruction, an instruction not to seek outside information and to
follow the law, and a second deadlock instruction. The defense made no objection. Thus ended
the third full day of deliberations. On Wednesday—on the afternoon of which the judge was
unavailable—nothing more came out of the jury room (aside from a request to see an item of
evidence).
Just before noon on Thursday, an attorney presented himself in court and said that he had
been hired by one of the jurors, Juror M. He explained that his client had contacted him the
evening before:
She said that she needed my help and that she was being harassed and verbally
abused on a jury that she was sitting on. And we didn’t discuss any of the facts of
the case or discuss anything about a vote or anything like that, I just advised her
that she should notify the Court through a note to the bailiff . . . . And then, you
know, later on I talked to her . . . I said look, if you’re uncomfortable . . . it was
obvious she was uncomfortable . . . I said, you give me permission, I can notify
the Court, and after several discussions last night she instructed me to notify the
Court.
....
I didn’t know any of the facts. I don’t—other than what was advised to me while
we were in the hallway by Mr. Lynch [defense counsel], so I know nothing about
the case other than what Mr. Lynch had told me, and of course, none of that
had—had been or has been discussed with [Juror M].
The court asked both counsel why he should not dismiss the juror for cause, as contacting the
lawyer was “a flagrant violation of the Court’s instructions, cautionary instructions, which were
not to discuss the case at all with anyone outside of the jury room . . . .” “Let’s say she said and
it’s eleven to one or gone in detail, I think that would be certainly cause to excuse her from the
jury without a blink of an eye.” Even assuming that Juror M had said nothing about the
substance of the case, her discussion of “the climate of the jury room” may well “constitute[]
cause to excuse her.”

APP_007

Case: 18-2367 Document:
33-2filedFiled:
08/13/2020
Page: 8Page 10 of 47
(10 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 35
08/13/20
PageID.2720
No. 18-2367

Wofford v. Woods

Page 8

The defense at this point requested that the judge declare a mistrial on the grounds that
replacing the juror would mean “there’s going to be issues whether it’s a coercive verdict.” 3 The
prosecutor argued that the juror had “violated the [c]ourt’s order” and that the defense request for
a mistrial was “based on just speculation” as to where things stood with the jury. On the other
hand, the prosecutor also said that it would accept a mistrial as proper, as long as it were for
‘manifest necessity,’ so as to allow for retrial: “our position is, at this point, that a mistrial is
proper, so we join in that.” Just then, the confusion over whether there had been one holdout or
two raised its head again. The judge reasoned that:
[I]f I agree . . . that we don’t know what the jury is doing, but also agree that
there’s been a violation -- juror misconduct in contacting a lawyer, why isn’t the
proper remedy to excuse her for cause? I have two alternates that are out there.
Why -- why not bring -- if somebody got hit by a bus this morning I would bring
in the alternate juror. I wouldn’t -- I don’t know what the difference is. Why
should I declare a mistrial?
. . . [W]e don’t even know that the person that has written the [note] is
the holdout, we don’t even know there is a holdout. For all we know it’s
six/six. . . . Or eight/two or eight/four or whatever it is. We don’t know anything
except for the very first note what the -- what it was. And as we noted before, the
gender’s changed. The first note was one gender, the second note was another
gender. So for all we -- we have -- this is just pure rank speculation at this point.
So why isn’t the --. . . so my my question is, the Court’s thinking is, I’ve got a
juror that’s violated the instructions, she -- obviously she felt compelled to do it.
She may -- who knows what she’ll feel compelled to do with-- in the future if I
keep her on the jury. Why don’t I strike her for cause, bring in the alternate?
Defense counsel conceded, “I agree that the pronouns change . . . .” At the same time, he argued,
one person seemed to have become the target of the last two notes. It was “fair to say” the
atmosphere in the jury room had become one of “frustration” and “animosity[.]” Thus the
defense maintained that a mistrial should be declared, because otherwise the replacement juror
would feel coerced.

3This

concern is firmly grounded in Michigan state law on juror removal. See, e.g., People v. Dry Land
Marina, Inc., 437 N.W.2d 391, 394 (Mich. Ct. App. 1989) (flagging constitutional concerns implicit in juror
removal and then observing that “the most substantial danger of a violation of the [state rules of procedure on point]
is that the alternate joining a panel which has engaged in deliberations may be coerced and unduly influenced by
those jury members who have already formed an opinion.”) (citing United States v. Phillips, 664 F.2d 971, 992–93
(5th Cir. 1981)).

APP_008

Case: 18-2367 Document:
33-2filedFiled:
08/13/2020
Page: 9Page 11 of 47
(11 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 35
08/13/20
PageID.2721
No. 18-2367

Wofford v. Woods

Page 9

The judge consulted MCR 6.411, which empowered him to retain the alternate jurors
during deliberation and use them, if necessary, to replace jurors, provided that the jury was
instructed to begin deliberations anew. He then ruled:
I reject the speculation that -- that there is sufficient cause at this point to warrant
a mistrial. That is based on a speculation and conjecture about what’s going on in
the jury room. What we do know is that there have been some notes, and we’ve
discussed those ad nauseam, that one juror has retained counsel and has -- that
counsel has made a statement on the Record. I find that that is a flagrant violation
of this Court’s jury instructions, that that constitutes good cause to excuse that
juror for cause, and I so by order that she be excused. How that affects the
complexion of the jury deliberations is unknown and is not the province of any
individual to pierce into.
Once the alternate was seated, the judge ordered the jury to “begin your deliberations anew.”
The reconstituted jury returned a guilty verdict within one and a half hours. Wofford received a
mandatory sentence of life without parole.
C. The Appeal

Wofford appealed to the Michigan Court of Appeals, where he raised two issues:
a challenge to the removal of Juror M, which he framed as a “den[ial]” of “his Sixth Amendment
right to have his jury decide his fate” and a sufficiency-of-the-evidence claim that is not before
us.4 As to the first ground, Wofford’s court-appointed counsel opened his briefing with a
reference to a federal Sixth-Amendment case:
The case of United States v Thomas, 116 F.3d 606, 621 (CA 2, 1997), provides
helpful guidance: “To remove a juror because he is unpersuaded by the
Government’s case is to deny the defendant his right to a unanimous verdict.”
Also, “If the record raises any possibility that the juror’s views on the merits of
the case, rather than a purposeful intent to disregard the court’s instructions,
underlay the request that he be discharged, the juror must not be dismissed.” Id.
at 622, n. 11 (internal citations omitted).

4This was rejected. Wofford raised it again, and it was again rejected, in his habeas proceedings. He was
denied a certificate of appealability on that ground.

APP_009

Case: 18-2367 Document:
08/13/2020
Page: 10Page 12 of 47
(12 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2722
No. 18-2367

Wofford v. Woods

Page 10

Wofford then discussed a defendant’s right to have his case heard by the original jury selected,
referring to several Michigan precedents,5 as well as two United States Supreme Court doublejeopardy cases.6 Wofford, his counsel concluded, had been “deprived of his right to have his
case fairly tried and determined by his jury.”
The MCOA rejected this argument. It assessed Wofford’s claims relating to the juror
removal in light of People v. Tate, 624 N.W.2d 524, 529 (Mich. Ct. App. 2001), from which it
quoted the following rule:
[W]hile a defendant has a fundamental interest in retaining the composition of the
jury as originally chosen, he has an equally fundamental right to have a fair and
impartial jury made up of persons able and willing to cooperate, a right that is
protected by removing a juror unable or unwilling to cooperate. Removal of a
juror under Michigan law is therefore at the discretion of the trial court, weighing
a defendant’s fundamental right to a fair and impartial jury with his right to retain
the jury originally chosen to decide his fate.
People v. Wofford, No. 318642, 2015 WL 1214463, at *2 (Mich. Ct. App. Mar. 17, 2015)
(brackets in original) (quoting Tate, 624 N.W.2d at 529 (cleaned up)). Analyzing Wofford’s
case under this rubric, the MCOA made several factual findings. First, that “[c]ontrary to
defendant’s assertion on appeal, the trial court did not remove [Juror M] because she was a lone
hold-out who was standing in the way of conviction.” 2015 WL 1214463 at *2. As the MCOA
saw it:
Early on in the deliberations, the jury informed the court that they were 11 to 1.
However, the jury did not reveal which way the majority was leaning or the
identity of the hold-out. Several days of continued deliberation then ensued. As
the trial court found, there was no evidence at the time of [Juror M’s] removal
what way the jury was leaning, or the potential division.
Ibid. (emphasis added). Second, the MCOA found that: “[T]he record clearly demonstrates that
the trial court removed this juror because she flagrantly violated the court’s instructions by
discussing the deliberations with a non-juror.” Ibid. Observing that “neither party contests”
5People

v. van Camp, 97 N.W.2d 726, 732–33 (Mich. 1959); People v. Tate, 624 N.W.2d 524, 560 (Mich.
Ct. App. 2001); Dry Land Marina, Inc., 437 N.W.2d at 392; People v. Gardner, 195 N.W.2d 62, 65–66 (Mich. Ct.
App. 1972); People v. Henley, 182 N.W.2d 19, 25–26 (Mich. Ct. App. 1970).
6United

States v. Jorn, 400 U.S. 470, 479 (1971); Wade v. Hunter, 336 U.S. 684, 689 (1949).

APP_010

Case: 18-2367 Document:
08/13/2020
Page: 11Page 13 of 47
(13 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2723
No. 18-2367

Wofford v. Woods

Page 11

Juror M’s “blatant disregard for the court’s instructions, nor that it implicated her ability to
follow jury instructions[,]” the MCOA concluded that the trial judge had correctly “protected
[Wofford’s] right to a fair and impartial jury ‘by removing a juror unable or unwilling to
cooperate.’” Ibid. (quoting Tate, 624 N.W.2d at 529).
Finally, the MCOA observed that Wofford had argued that “the trial court still should
have granted a mistrial because of the danger that the alternate juror would be influenced when
faced with 11 jurors who were convinced of his guilt.” Id. at *3. To this, it responded:
Yet . . . there is no evidence regarding what way the jury was leaning at the time
of [Juror M’s] removal. Thus, to conclude that there was only one hold-out, or
that it was [Juror M], is mere speculation. Significantly, the trial court properly
instructed the newly configured jury that it must deliberate anew, and disregard its
prior deliberations. See MCR 6.411; Tate, 244 Mich.App at 567 (“the jury in
such situations should be instructed to begin deliberations anew.”). . . . “Because
it is . . . pure speculation that the alternate juror was coerced, we conclude that
defendant was not prejudiced by the substitution of the alternate juror.” People v.
Mahone, 294 Mich.App 208, 218; 816 NW2d 436 (2011).
Id. at *3 (third ellipsis in original). The MCOA thus held that Wofford’s rights had not been
violated, and the Supreme Court of Michigan denied him leave to appeal. People v. Wofford,
869 N.W.2d 598 (Mich. 2015).
D. The Habeas Petition
Wofford then filed a petition for a writ of habeas corpus in the United States District
Court for the Eastern District of Michigan. The district court applied AEDPA deference when
reviewing three factual findings: that there was “no evidence” of “what way the jury was
leaning” when Juror M was removed; that the trial court did not remove Juror M because of her
views; and that the judge removed Juror M for “flagrantly violating the court’s instructions.”
The district court found the first to be rebutted by clear and convincing evidence: Once the
confusion over the gender in the notes is removed, it is clear that “all along the way, there was
but one holdout,” namely Juror M. The court said that the post-removal guilty verdict confirmed
this, especially as it was obtained within ninety minutes. Despite expressing “skeptic[ism,]” the
court held that the other two factual findings could not be rebutted by clear and convincing
evidence.

APP_011

Case: 18-2367 Document:
08/13/2020
Page: 12Page 14 of 47
(14 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2724
No. 18-2367

Wofford v. Woods

Page 12

Then the district court turned to the legal analysis. It held that AEDPA’s deferential
standard of review did not apply to the MCOA’s legal analysis because that court had “never
addressed ‘the merits’ of Wofford’s claim that his Sixth Amendment right to a unanimous jury
was violated.” It evaluated whether the MCOA had addressed the merits of Wofford’s Sixth
Amendment claims by comparison to United States v. Brown,7 United States v. Thomas,8 and
United States v. Symington9—a trio of cases from the D.C., Second, and Ninth Circuits—that
held, in various formulations, that “if the record evidence discloses any reasonable possibility
that the impetus for a juror’s dismissal stems from the juror’s views on the merits of the case, the
court must not dismiss the juror.” Symington, 195 F.3d at 1087 (emphasis in original).10 The
district court held that Wofford had raised, and thus preserved, his Sixth Amendment claim—
which it characterized as a “Sixth Amendment right to a unanimous verdict”—by citing Thomas,
and further held that the Michigan courts had inadvertently overlooked this Sixth Amendment
claim. The district court found it particularly significant that the MCOA never mentioned
Thomas, nor cited “Brown, Symington, or a like case.”
Freed from AEDPA deference, the district court proceeded to apply the test from
Symington, finding that the record disclosed a reasonable possibility that the impetus for Juror
M’s dismissal stemmed from the merits of the case and that “Wofford was thus deprived of his
Sixth Amendment right to a unanimous verdict.” The writ of habeas corpus was granted, and the
state was ordered to re-try Wofford or release him within 90 days.11
This appeal timely followed—which would normally be the end of the factual narrative.
But something unusual happened two months later. In January 2019, the district court issued a
further order addressing the state’s motion for a stay pending appeal and Wofford’s motion to be
released on bond. It granted the former and denied the latter. In doing so, the court substantially
7823

F.2d 591 (D.C. Cir. 1987).

8116

F.3d 606 (2d Cir. 1997).

9195

F.3d 1080 (9th Cir. 1999).

10The

Symington test is modified slightly from the original formulation in Brown and that in Thomas, but
not in a way that is meaningful for us today. See infra, n.28.
11The district court, having granted Wofford’s petition on these grounds, declined to review alternate
arguments he had made.

APP_012

Case: 18-2367 Document:
08/13/2020
Page: 13Page 15 of 47
(15 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2725
No. 18-2367

Wofford v. Woods

Page 13

revised the basis for its initial opinion. The state had argued in its brief on the motion that the
district court’s initial ruling was in error, as the Sixth Amendment right to a unanimous jury had
not been incorporated into the Fourteenth Amendment so as to apply to the state. (This was true
both at the time the district court ruled on the habeas petition and also when the motion for stay
was briefed and decided.) The district court explained that even if the Warden was right, he was
missing “the bigger point”:
The Court’s holding rests on the test of Symington. . . . And that very same test is
used to decide whether a criminal defendant’s right “against improper interference
with jury deliberations” has been violated. See Williams v. Cavazos, 646 F.3d
626, 646 & n.17 (9th Cir. 2011), rev’d on other grounds sub nom. Johnson v.
Williams, 568 U.S. 289 (2013). And that right has been incorporated against the
states[.]
For this proposition, the district court then quoted the following excerpt from Williams v.
Cavazos:
The Sixth Amendment protection required by Brown and foreshadowed by
Symington is against improper interference with jury deliberations. Freedom to
deliberate without coercion is a necessary component of “the interposition
between the accused and his accuser of the common-sense judgment of a group of
laymen,” which is “the essential feature of a jury.” Williams, 399 U.S. at 100, 90
S. Ct. 1893. This component of the Sixth Amendment is thus incorporated with
respect to the states through the Due Process Clause of the Fourteenth
Amendment. In Weaver v. Thompson, 197 F.3d 359 (9th Cir. 1999), for example,
we held that improper coercion had broken a jury deadlock to produce the ten-totwo vote needed to convict under Oregon law, and granted habeas as a result.
Similarly, the deadlock-breaking dismissal of a holdout juror on an improper basis
is an unconstitutional form of interference with deliberations.
Williams, 646 F.3d at 647 n.17. Therefore, the court concluded that “while the Warden might be
correct that the Court misstated the Sixth Amendment right at issue, the Warden’s argument does
not undermine this court’s essential reasoning.” (Emphasis added.)
This order, in attempting to fix one problem, created two others. The first is obvious:
the district court, having come very near to acknowledging a fundamental flaw in the earlier
ruling, attempted to recast it not through a rehearing or reconsideration, but rather through a
separate order. The second is that, as we shall see, the Ninth Circuit opinion in Williams is

APP_013

Case: 18-2367 Document:
08/13/2020
Page: 14Page 16 of 47
(16 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2726
No. 18-2367

Wofford v. Woods

Page 14

highly doubtful law. It was not “rev[erse]d on other grounds,” but rather on the exact same
grounds as in this case.
II. Standard of Review
Appellate review of a district court’s decision not to apply AEDPA to a petition for a writ
of habeas corpus involves the application of multiple standards nested within one another like
Russian dolls. We review the district court’s decisions of law de novo and of fact for clear error.
Wheeler v. Simpson, 852 F.3d 509, 514 (6th Cir. 2017); Scott v. Houk, 760 F.3d 497, 503 (6th
Cir. 2014). But federal courts in turn have a statutorily prescribed standard by which it is to
assess the decisions of the state courts. Federal courts are not to grant a writ of habeas corpus to
state prisoners “with respect to any claim that was adjudicated on the merits in State court
proceedings” unless that state court ruling:
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d). State court adjudications are “contrary to…clearly established federal law,
as determined by the Supreme Court of the United States,” § 2554(d)(1), only “‘if the state court
arrives at a conclusion opposite to that reached by [the Supreme] Court on a question of law[,]’
or ‘if the state court confronts facts that are materially indistinguishable from a relevant Supreme
Court precedent and arrives at [an opposite result].’” Wheeler, 852 F.3d at 514 (alterations in
original) (quoting Williams v. Taylor, 529 U.S. 362, 405 (2000)). As the Supreme Court has
emphasized again and again, “circuit precedent does not constitute ‘clearly established federal
law as determined by the Supreme Court of the United States.’” Kernan v. Cuero, 138 S. Ct. 4,
9 (2017) (emphasis added) (citation omitted) (quoting 28 U.S.C. § 2254(d)(1)) (noting that “we
have repeatedly pointed [this] out”); see, e.g., Lopez v. Smith, 574 U.S. 1, 2 (2014). In other
words, a petitioner for a writ of habeas corpus in a case subject to AEDPA must be able to point
to a Supreme Court precedent on point, not just favorable circuit law, or his petition “cannot
succeed.” Scott, 760 F.3d at 506.

APP_014

Case: 18-2367 Document:
08/13/2020
Page: 15Page 17 of 47
(17 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2727
No. 18-2367

Wofford v. Woods

Page 15

Furthermore, with respect to using section (d)(2) to assess factual determinations made
by a state court, AEDPA prescribes that: “[A] determination of a factual issue made by a State
court shall be presumed to be correct. The applicant shall have the burden of rebutting the
presumption of correctness by clear and convincing evidence.”

28 U.S.C. § 2254(e)(1).

A district court’s failure to apply these standards is error.
Thus, the hurdle for a district court to overturn the rulings of a state court is very high.
To be sure, “[t]he standard is demanding but not insatiable,” Miller-El v. Dretke, 545 U.S. 231,
240 (2005), and “[d]eference does not by definition preclude relief.” Ibid. (quoting Miller-El v.
Cockrell, 537 U.S. 322, 340 (2003)). But AEDPA nevertheless “sets forth a heavy burden for a
petitioner to overcome.” Tibbets v. Bradshaw, 633 F.3d 436, 442 (6th Cir 2011). Lower federal
courts are not supposed to sit as courts of general review on state courts within their district or
circuit, and thus Congress has forbidden such review. Campbell v. Bradshaw, 674 F.3d 578, 586
(6th Cir. 2012) (“Section 2254(d) reflects the view that habeas corpus is a guard against extreme
malfunctions in the state criminal justice systems, not a substitute for ordinary error correction
through appeal.” (quoting Harrington v. Richter, 562 U.S. 86, 102–03 (2011)) (cleaned up)).
Thus, to put it all together, we examine de novo whether the district court correctly ruled,
on the law, as to whether the state court arrived at a conclusion on federal law opposite to that
reached by the Supreme Court or unreasonably reached a different conclusion from the Supreme
Court when confronted by a materially indistinguishable fact pattern. And we review for clear
error the district court’s finding of facts, but the defendant must have shown the district court, by
clear and convincing evidence, that the state court’s determination of facts was unreasonable.
All that being said, AEDPA’s demanding system of deference does not apply to the
district court in one circumstance: if the state court has, through “sheer inadvertence” overlooked
a plaintiff’s federal claim. Johnson, 568 U.S. at 302–03. This must be shown “very clearly” by
the evidence, id. at 303, because usually we presume that a state court—whether it has addressed
only some of the issues presented on appeal or even none at all—has adjudicated all claims
brought on the merits. See id. at 298–303; Richter, 562 U.S. at 98–100. In the rare circumstance
where the state court has inadvertently overlooked a claim, the district court can review that
claim de novo, i.e., freed from the constraints of AEDPA deference. Johnson, 568 U.S. at 303.

APP_015

Case: 18-2367 Document:
08/13/2020
Page: 16Page 18 of 47
(18 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2728
No. 18-2367

Wofford v. Woods

Page 16

We would then apply the usual standards of appellate review—de novo on the law and clear error
on the facts—to the district court’s rulings. Scott, 760 F.3d at 504 (citation omitted).
III. Factual Analysis Under AEDPA
We turn first to review the district court’s determinations of fact under AEDPA; once we
have established what the facts are, we will proceed to the law. The district court reviewed three
factual determinations made by the Michigan courts for whether the defendant had shown them
to be wrong by clear and convincing evidence. They were: (1) that, according to the MCOA,
there was “‘no evidence’ of ‘what way the jury was leaning’ or ‘the potential division’ at the
time Juror M was removed” (quoting Wofford, 2015 WL 1214463, at *2); (2) that “the trial court
did not remove [Juror M] because she was a lone hold-out who was standing in the way of
conviction” (quoting Wofford, 2015 WL 1214463, at *2); and (3) that “the trial court removed
this juror because she flagrantly violated the court’s instructions.”12

(Quoting Wofford,

2015 WL 1214463, at *2.) The district court found the first to be rebutted by “clear and
convincing evidence,” but it upheld the other two under the same standard.

28 U.S.C.

§ 2254(e)(1). The district court was correct to do so as to all three factual findings.
A. The Record Shows There Was One Holdout All Along
The secrecy of deliberations is one of the most vital components of the jury system, and
courts strive mightily to maintain it. But just because we are forbidden to look into the black box
does not mean we should deliberately ignore signals coming out of it. The MCOA, whose
decision—rather than that of the trial court—was reviewed by the district court in this case,
repeatedly asserted that there was “no evidence” of “what way the jury was leaning” or the
“potential division” when Juror M was removed. Wofford, 2015 WL 1214463 at *2–3.
As we have seen, there was persistent confusion in the courtroom over whether one juror
or two had held out, as a result of the defense attorney’s misremembering the first note as
12In

fact, for this third claim, the full quote selected by the district court from the MCOA decision is “the
record clearly demonstrates that the trial court removed this juror because she flagrantly violated the court’s
instructions.” This seems actually to suggest two distinct factual issues: that the trial court removed the juror
because she flagrantly violated the court’s instructions, and that the record clearly demonstrates this. However, the
district court analyzes only the former. That seems to be far more important, so we do the same.

APP_016

Case: 18-2367 Document:
08/13/2020
Page: 17Page 19 of 47
(19 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2729
No. 18-2367

Wofford v. Woods

Page 17

containing a male pronoun. This goes to the subjective understanding of the judge at the time he
made his removal decision, which matters for other reasons. See infra, p. 20. But the MCOA
was speaking to what is now shown by the evidence, not what was then in the judge’s mind.
And the evidence shows a clear picture.
Fairly early in the deliberations—at most, 7 hours in—a deadlock set in. The jury was
split 11–1 “with no chance of the one moving their [sic] view.” The next day, two notes
mentioned a hung jury. It seems very unlikely that the jurors would have continued to consider
the situation a deadlock had the composition of the vote switched from Monday to Tuesday.
Furthermore, as the federal district court observes, both of the notes reference a single juror, and
one of them makes it clear that this was a female juror. Two days later, the situation had become
so acrimonious that Juror M hired an attorney to speak with the judge—in the process, revealing
her identity and thus her gender, female. It seems improbable that this amount of pressure built
up if the holdout juror had not been the same person the whole time.
Were we to imagine otherwise, that would mean at least ten people had changed their
minds at least once. Putting aside the matter of comparative statistical likelihood, surely this
would have shown a room full of jurors who were reconsidering their previously-held positions
and changing their views—which seems entirely inconsistent with the atmosphere articulated in
the notes, that of each side digging in and frustration mounting. Finally, of course, there is the
fact that once Juror M was removed, the jury returned a guilty verdict within an hour and a
half.13 Together, these facts demonstrate to us “clearly and convincingly” that, as the district
court concluded, “all along the way, there was but one holdout: Juror M.” Put another way, we
cannot conclude that the district court was wrong to find that the defendant had rebutted the
presumption in favor of the factual finding of the MCOA on this point.

13This

is not to imply that an hour and a half was too short for proper, ab initio reconsideration, or that the
time elapsed indicates coercion. Compare United States v. Lamb, 529 F.2d 1153, 1156 (9th Cir. 1975) (en banc)
(citing the 29-minute length of the second deliberation as evidence that coercion had occurred) with People v.
Cleveland, 21 P.3d 1225, 1230 (Cal. 2001) (jury returned “less than two hours” after alternate was seated; no
coercion found); see also Dry Land, 437 N.W.2d at 330–31 (length of second deliberation can indicate jury started
fresh and there was no coercion). Indeed, as the jury considered itself helplessly deadlocked within seven hours the
first time around, an hour and a half does not seem an unreasonable amount of time to deliberate in the absence of a
holdout. Rather, the point is that had Juror M not been the holdout juror, resolving the six-day impasse would likely
have taken far more than an hour and a half, if it were resolved at all.

APP_017

Case: 18-2367 Document:
08/13/2020
Page: 18Page 20 of 47
(20 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2730
No. 18-2367

Wofford v. Woods

Page 18

As we have noted, judges are enjoined strongly to respect the secrecy of jury
deliberations. What seems to have happened here was that both at the trial and appellate level,
over-scrupulousness as to this commandment led perhaps to obliviousness as to what was going
on. At trial level, this was compounded by, but also in large part excused by, the confusion over
the gendered pronoun.

On appeal, looking at the evidence without such confusion, the

conclusion should have been plain. We therefore uphold the district court’s finding the that the
factual determination of the MCOA on this point was rebutted by “clear and convincing
evidence.” 28 U.S.C. § 2254(e)(1).
B. The Trial Court’s Reasons for Removing Juror M
The district court expressed skepticism of, but ultimately let stand, the MCOA’s
determinations that “the trial court did not remove [Juror M] because she was a lone hold-out
who was standing in the way of conviction” and that “the record clearly demonstrates that the
trial court removed this juror because she flagrantly violated the court’s instructions.” Wofford,
2015 WL 1214463, at *2. It examined both together, which makes sense, as each is the flip side
of the other. To work through it logically, though, we should look at the latter determination
first. If the trial court did not have at least a good independent reason to remove Juror M, the
entire analysis would become different—all that would be left would be Juror M’s holdout
status, which would be an impermissible basis for removal. If the trial court did have a good,
independent reason to remove Juror M, on the other hand, the inquiry then becomes whether this
was pretextual or the actual reason for removal.
First, the trial court did have a good independent reason to remove Juror M. As we have
seen, at the beginning of the trial, at the close of every day, and the end of the trial, the judge
warned jurors not to talk to anyone about the trial. Juror M contacted an attorney about the
deliberations in the case. The trial judge found “that that” was “a flagrant violation of this Court’s
jury instructions.”14 (Emphasis added.) Wofford tries to make hay out of the fact that the jury
14The

record makes it clear that the judge was referring to the hiring of counsel specifically: “[O]ne juror
has retained counsel and has -- that counsel has made a statement on the Record. I find that that is a flagrant
violation of this Court's jury instructions, that that constitutes good cause to excuse that juror for cause, and I so by
order that she be excused.” This makes it clear that this violation of the judge’s instructions—and not other
violations that might appear from the record, such as the use of a dictionary to perform legal research as alleged in

APP_018

Case: 18-2367 Document:
08/13/2020
Page: 19Page 21 of 47
(21 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2731
No. 18-2367

Wofford v. Woods

Page 19

instruction given on the Monday said only not to “talk directly with the Judge, lawyers,
court officers or other people involved in the case.” But even if we read “lawyers” as “lawyers
. . . involved in the case,” the omission of outside lawyers here is hardly surprising—as one of
the defense counsel noted on the day the juror’s attorney showed up, he had “[n]ever had this
happen in 21 years.” And the omission of a catch-all phrase such as “and no one else” makes
sense given the context of that instruction, which arose after a juror handed a note to the judge’s
clerk. It also should have been read in the light of the judge’s constant daily reminders not to
talk to anyone else about the case. Thus, even if this instruction did not explicitly say “outside
lawyers,” it was entirely reasonable for the trial judge to conclude that the juror’s actions
violated the letter of his many former instructions not to talk to anyone about the case, as well as
the spirit of his formal jury instruction. It is a basic starting point of Michigan law (as well as all
other authorities cited in the legal discussion below) that it is for the trial judge, acting within
sound discretion, to make decisions regarding juror dismissal. See, e.g., Tate, 624 N.W.2d at
529; Symington, 195 F.3d at 1085 (noting also that “as a general matter, the district court [is] in
the best position to evaluate the jury’s ability to deliberate.”) (cleaned up). We cannot say that
this interpretation of his instructions, or the decision to dismiss, was outside of the bounds of the
reasonable.
The district court pronounced itself “skeptical” of the MCOA’s findings of fact on this
front because:
[I]t was obvious to all that from the time of the very first note, there was a single
holdout. Consider too that the judge said, “I’m not sure one way or the other at
this point whether or not [Juror M’s] violation constitutes cause to excuse her,”
then, without any new insight from counsel on that particular issue, found that
Juror M’s conversation with an attorney “flagrant[ly]” violated his instructions.
(R. 9, PageID.2128.) And if Juror M flagrantly violated the court’s instructions
by contacting an attorney, why were the notes from the jury indicating where they
stood not also a “flagrant” violation of his instructions? Yet the foreperson was
not removed.
Again, it is within the sound discretion of the trial judge to weigh questions such as which
violations are severe enough that dismissal is required, as opposed to which can be handled by
one note, or the intent to nullify or refusal to deliberate indicated in others, was the basis of the judge’s dismissal
decision.

APP_019

Case: 18-2367 Document:
08/13/2020
Page: 20Page 22 of 47
(22 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2732
No. 18-2367

Wofford v. Woods

Page 20

other, less drastic means. It should also be self-evident that a judge can change his mind by
taking some time to think about things, as well as—or instead of—listening to counsel. As to the
first objection—that it was obvious from the start that there was a single holdout—the district
court itself answers this a paragraph later: “[T]he trial judge’s statements that a mistrial would
be based on ‘speculation and conjecture about what’s going on in the jury room’ and that Juror
M had flagrantly violated his instructions suggest that, in the judge’s mind, Juror M was not the
holdout and that, in his mind, the problem with Juror M was that she violated his instructions.”
That brings us in turn to whether the court’s finding of, or reliance on, the violation of the
court’s instructions was pretextual. The record reveals nothing to indicate that the judge bore an
animus against Juror M, or that he was trying to influence the verdict, or that he was in any way
behaving other than as a judge trying to apply the law and, as it requires, not rush a mistrial after
a long and important criminal case.

The mistake about the gender of the juror, while

unfortunate, made it subjectively less likely (as the district court noted) that the judge was
targeting Juror M in particular for her views. To be sure, we are—as was the district court—
working from a cold record. But there is nothing here, beyond the bare facts—that there was a
holdout, the notes from the jury, the appearance of counsel, and the judge’s decision to remove
that juror—to suggest that his removal decision was actuated by the juror’s views on the case.
Moreover, in order to disturb the MCOA’s findings on this front, we would have to find
both that the district court was clearly in error in upholding them and that the defendant can rebut
the MCOA by clear and convincing evidence. There is certainly not enough evidence to do so.
Thus, the findings stand: we hold that the judge did not remove Juror M because of her holdout
status, and that he did remove her for violation of the court’s instructions. As we shall see, that
is of considerable significance when considering whether an actual constitutional violation
occurred. For now, however, we turn to the analysis of the sources of law that we will use to
evaluate these facts, and then to the application of AEDPA.
IV. Legal Analysis
We begin by establishing the existence and limits of the constitutional right that underlies
Wofford’s claim, before turning to the doctrines that Michigan and federal courts have crafted to

APP_020

Case: 18-2367 Document:
08/13/2020
Page: 21Page 23 of 47
(23 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2733
No. 18-2367

Wofford v. Woods

Page 21

protect that right. Then we examine how AEDPA affects our review of how the MCOA and the
district court applied these doctrines.
A. Juror Removal and the Role of the Trial Judge
Since oral argument in this case, the Supreme Court has issued a decision that brings
much-needed clarity to where the right in question before us is found in the Constitution. In
Ramos v. Louisiana, 590 U.S. ___, 140 S. Ct. 1390 (2020), the Court confronted the question of
whether the Sixth Amendment requires a unanimous jury verdict to convict in criminal cases and
whether this right was incorporated into the Fourteenth Amendment so as to apply to the states.
Id. at 1394, 1399. The Court found that it did and that it was incorporated. Id. at 1397, 1408.
Such a right was located, the Court held, in the Sixth Amendment’s guarantee that “[i]n all
criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury.” Id. at 1395 (quoting U.S. CONST. amend. VI.). “The text and structure of the
Constitution clearly suggests that the term ‘trial by an impartial jury’ carried with it some
meaning about the content and requirements of a jury trial.” Ibid. The Court surveyed a wide
array of sources, from the early roots of the common law in medieval England to the time of the
Founding and to the modern age, and found that “[o]ne of these” substantive “requirements was
unanimity.” Ibid.; see id. at 1395–97 & nn.9–24.
Though the two are conceptually related, the constitutional right at issue in this case is
not precisely the same as a unanimous-jury right. Wofford illustrates this well by arguing that if
the state required a 10–2 vote (albeit this is now forbidden) and the jury were split 9–3, a judge
could still not impermissibly remove and replace one of the three dissenting jurors so as to secure
a guilty verdict. Thus, Ramos does not exactly resolve the issue before us. But it does provide
significant guidance. The constitutional question at the heart of our case is whether and under
what circumstances a judge can remove a juror either for the juror’s substantive views or for
misconduct or in a situation where there is both possible substantive disagreement and
misconduct. Insofar as there are constitutional protections against certain impermissible jurorremoval decisions (and, as we shall see, there are), they are part of the “requirements” that the
Ramos Court recognized as inherent in the right to “trial by an impartial jury” secured by the
Sixth Amendment.

APP_021

Case: 18-2367 Document:
08/13/2020
Page: 22Page 24 of 47
(24 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2734
No. 18-2367

Wofford v. Woods

Page 22

An examination of sources similar to those relied on by Ramos—in some instances, the
same sources—illustrates the content and limits of this right. This not only allows us to identify
the right asserted in this case with greater precision than was possible in the precedents that
predate Ramos, but also shows the historical and logical reasons that Fifth-Amendment and
Rules-of-Criminal-Procedure issues so often appear entangled with Sixth-Amendment issues in
juror-removal cases. Once this is clearly seen, a misperception that afflicted the court below—
that a case discussing these sources of law is not focusing on the Sixth Amendment right—
becomes easier to understand and dispel. That will be explored in the subsequent sections. First,
however, we turn to the core constitutional right in question today.
The jury trial had a long, convoluted development during the early Middle Ages, but it
does not appear at any time that judges would routinely remove jurors due to their decisions. 15
In 1367, it was established that they could not do so. At an assize in that year, a jury split 11–1,
and the judges trying the case “took a verdict from these and imprisoned the twelfth.” Thayer,
88. As Thayer explains:
On moving for judgment, when counsel urged that it had formerly been adjudged
in trespass that a verdict of eleven might be good, “and this we will show you by
record,” — Thorpe, C.J., said: “It is fundamental (la ley fuit fondue) that every
inquest shall be by twelve . . . and no fewer. . . . Though you bring us a dozen
records, it shall not help you at all; those who gave judgment on such a verdict
were greatly blamed.” Moubrey, J.: “As the verdict was by eleven and judgment
cannot be rendered, sue out a new inquest and let the man imprisoned be
discharged.”
Ibid. (ellipses in original) (citing Anonymous Case, 41 Lib. Assisarum 11 (1367), and
2 MATTHEW HALE, PLEAS OF THE CROWN 297 (1736)); see also Forsyth, 241. The Ramos Court
cites this case from 1367 for the development of the principle of unanimity. See 140 S. Ct. at
1395 & n.11. But for our purposes, what matters is that the 1367 case held that a judge could not
15See

generally WILLIAM FORSYTH, HISTORY OF TRIAL BY JURY 199–208 (1852); 2 SIR FREDERICK
POLLOCK & FREDERIC WILLIAM MAITLAND, THE HISTORY OF ENGLISH LAW BEFORE THE TIME OF EDWARD I 627–
705 (2d ed. 1898); JAMES BRADLEY THAYER, PRELIMINARY TREATISE ON EVIDENCE AT THE COMMON LAW 47–136
(1898). In its early years, when the jury was split, judges would often add jurors until one side or the other obtained
twelve votes. Thayer, 63; Forsyth, 238. Forsyth therefore speculates that the need for twelve unanimous jurors
“was simply . . . the amount of evidence which the law deemed to be conclusive of a matter in dispute.” Forsyth,
239. After a while, the need for unanimity and twelve jurors remained, but judges could no longer add to the body;
they do not seem often to have subtracted.

APP_022

Case: 18-2367 Document:
08/13/2020
Page: 23Page 25 of 47
(25 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2735
No. 18-2367

Wofford v. Woods

Page 23

remove a juror due to a disagreement on the merits of the case. As a modern history confirms,
verdicts were taken from eleven jurors before 1367, with six instances of jurors being imprisoned
for being the holdout juror before that year, but thereafter the practice was regarded as illegal.
David J. Seipp, Jurors, Evidences and the Tempest of 1499, in THE DEAREST BIRTH RIGHT
THE

OF

PEOPLE OF ENGLAND: THE JURY IN THE HISTORY OF THE COMMON LAW 88 (John W. Cairns

& Grant McLeod eds., 2002). See also Thayer, 88–89 n.4.
For several centuries, judges retained other ways of punishing those jurors who were
thought to have given verdicts contrary to the evidence and/or the law. Primary among these
was the fining or imprisonment of jurors for their verdict, until this practice was abolished in
Bushel’s Case, 124 Eng. Rep. 1006 (C.P. 1670). That is, while after 1367 the juror could not be
removed from the jury, until 1670 he could still be imprisoned or fined after the fact. Courts also
had tools that were not punishments as such but would nowadays be regarded as coercive. It was
accepted practice that judges would cut off the jurors from food and drink until they returned a
unanimous verdict. Thayer, 155 & n.2; 2 Hale, 297. Judges could also cart the jury around from
town to town as the judges rode circuit, until the jury came to a decision. 2 Hale, 297; Forsyth,
241. Such methods usually produced unanimity of result, if not of conscience. 16 American
courts abandoned these coercive practices by or around the time of the Founding.17
Judges instead came to rely, starting in the seventeenth century, on their authority to
declare a mistrial as a way of dealing with jury misconduct. See Hinton v. United States,
979 A.2d 663, 672 & nn.17 & 20 (D.C. 2009); Thayer, 169. But while this method, unlike a fine
or a trip to jail, did not harm the jurors, it fell hard on someone else: the defendant. This was a
particular concern in criminal trials, where there was a well-founded concern that certain judges
would “‘withdraw[] a juror’ and declar[e] a mistrial in order to thwart an acquittal.” Hinton,

16British

judges may have had powers that went beyond these. A study of the records of criminal trials at
the Old Bailey c.1675–1735 revealed that judges during this period would in at least some cases reject the jury’s
verdict and direct it to reconsider. John H. Langbein, The Criminal Trial Before the Lawyers, 45 U. CHI. L. REV.
263, 291–95 (1978) (calling such instances “the outer extreme” and “extremely rare”). Such authority appears not to
have been accepted in colonial America, however. See Douglas G. Smith, The Historical and Constitutional
Contexts of Jury Reform, 25 HOFSTRA L. REV. 377, 439–41 (1996).
17See Commonwealth v. Bowden, 9 Mass. 494, 495 (1813); Janet E. Findlater, Retrial After a Hung
Jury: The Double Jeopardy Problem, 129 U. PA. L. REV. 701, 737 n.25 (1981) (collecting cases).

APP_023

Case: 18-2367 Document:
08/13/2020
Page: 24Page 26 of 47
(26 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2736
No. 18-2367

Wofford v. Woods

Page 24

979 A.2d at 673. “In reaction to such abuses, common law judges eventually settled on a
generally applicable rule of practice: no juror could be withdrawn, and no jury could be
discharged, unless it was necessary to do so.” Ibid. (collecting sources from 1698 onward).
In England, assessing the “necessity” involved was left to the trial court’s discretion—
which still left potential for abuse. In America, things were different:
In early American jurisprudence, more plainly than in coeval British decisions,
the rule against unnecessary mistrials was a right the defendant could assert.
In part, that was because “state courts . . . blend[ed] the rule against needless
discharges of juries into the guarantee against double jeopardy contained in the
Federal and State Constitutions,” despite the contrary analysis of roughly
contemporary English jurists, who traced the rule to the maxim that once
constituted, a jury could not be discharged until it had returned a verdict.
Id. at 674 (footnotes and citations omitted). That said, the judge’s authority to remove a juror for
good reason was long established: Already, in Hale, we read that “[t]he justices at common law
may upon a just cause remove a juror after he is sworn.” 2 Hale, 296. Among circumstances
that constituted good cause were not only death, illness, family emergency, or the discovery that
a juror was also a witness or grand juror,18 but also certain types of juror misconduct.19
Thus, by the time of the Founding, it had been long-settled that a judge could not remove
a juror due to his substantive opinions on a case or punish the juror in any other way for that

18See

Commonwealth v. Fells, 36 Va. 613, 617–19 (1838).

19Misconduct

is a term with many meanings in this context. One common type of misconduct seems to
have been leaving the jury without permission. Commonwealth v. Cook, 6 Serg. & Rawle 577, 585, 1822 WL 1855,
at *5 (Pa. 1822) (“Sir M. Hale mentions a case (2 Hale 295) where, after the jury were sworn, and departed from the
bar, one of them went out of town; the other eleven were discharged, and the one who went out of town was fined
for his misbehavior, and the prisoner tried by another jury.”). The same source speaks of a juror discharged for
getting drunk and being unable to perform his duty. Id. at 585–86. And the concurrence in that case extrapolates
more widely: Mistrial has been allowed “where it is on account of the misbehavior of a juror[.]” Id. at 591
(Duncan, J., concurring). See also People v. Olcott, 2 Johns. Cas. 301, 306, 1801 WL 657 (N.Y. Sup. Ct. 1801)
(Kent, J.) (listing disappearance and drunkenness as grounds for discharge).
In light of the facts of the instant case, the concern of the courts in this era to prevent jurors from consulting
outside information or violating court rules is also worth noting. See 2 Hale, 306–09. See also Olcott, 2 Johns. Cas.
at 310 (“[A] verdict, obtained unfairly, by secret and artful, or bold and direct influence over the jury, by the parties,
their friends, or bystanders, would, if admitted to be recorded, be a disgrace to the administration of justice. The
power of discharging a jury, in these and other instances which might be enumerated, is a very salutary power, and
calculated to preserve that mode of trial in its purity and vigour.”) (emphasis added).

APP_024

Case: 18-2367 Document:
08/13/2020
Page: 25Page 27 of 47
(27 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2737
No. 18-2367

Wofford v. Woods

Page 25

opinion.20 At the same time, the ability of the judge to remove jurors for certain causes had
become well-settled, and among these causes was juror misconduct. An understanding of both
principles had come to inhere in the concept of “trial by jury.” They were, in short, among the
substantive “requirements” “carried with” the public meaning of “the term ‘trial by an impartial
jury’” in the Sixth Amendment at the time its ratification. Ramos, 140 S. Ct. at 1395. Together,
they set and delimit the scope of the substantive right at issue today.
One further source of law on juror removal needs to be mentioned. Redoing a trial after a
juror had been removed had always been recognized as onerous and, as trials became more
complex, it became a bigger burden.

See Hinton, 979 A.2d at 675.

(This was true

notwithstanding the practice of retaining the eleven remaining jurors and selecting a new one
from the general public. Ibid.) Thus, starting in the late nineteenth century, states—and, in
1932, the federal government—passed laws providing for alternate jurors. See id. at 675–76
& n.40. This in turn gave rise to court rules governing when and how the court could remove an
original juror and substitute an alternate, particularly Federal Rule of Criminal Procedure 24(c)
(which governs substitution before the jury begins to deliberate) and Federal Rule of Criminal
Procedure 23(b) (which governs removal after deliberation has begun). These have been held
constitutional. See, e.g., United States v. Phillips, 664 F.2d 971, 992–93 (5th Cir. 1981) (Rule
24(c)); United States v. Acker, 52 F.3d 509, 515 (4th Cir. 1995) (Rule 23(b)).21
Due to the nature of case-by-case jurisprudence, not all of the strands of doctrine
implicated by the removal of a juror were developed at once. Thus, the question of how the
declaration of a mistrial did or did not implicate the right against double jeopardy was developed

20This

is confirmed not only by the long pre-Founding history, but also by the same influential nineteenth
century treatises to which the Supreme Court referred in Ramos. Cf. 140 S. Ct. at 1396 n.18 and accompanying text.
Thus we read in Cooley that “The jury . . . . must be left free to act. The final decision upon the facts is to rest with
them, and any interference by the court to coerce them into a verdict against their will is irregular and
unconstitutional.” THOMAS COOLEY, CONSTITUTIONAL LIMITATIONS 320 (1868); see also id. at 320 n.1; 321 & n.1.
It is hard to imagine a more “irregular” “interference by the court to coerce . . . a verdict” than the removal of
holdout juror due to her opinion.
21Noting

that Federal Rule of Criminal Procedure 23(b) is “a restatement of prior existing practice, the
constitutionality of which was approved in Patton v. United States, 281 U.S. 276, 50 S. Ct. 253, 74 L.Ed. 854
(1930).” (citing the Advisory Committee note to that rule).

APP_025

Case: 18-2367 Document:
08/13/2020
Page: 26Page 28 of 47
(28 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2738
No. 18-2367

Wofford v. Woods

Page 26

quite early, with a landmark Supreme Court case in 1824.22 Ramos, on the other hand, was
decided only this year. This is not to say that the substantive rights conveyed by the Sixth
Amendment’s jury-trial guarantee were not recognized until this year; to the contrary, they were
widely accepted. But they often floated free of a doctrinal framework. Thus, for example, the
Second Circuit, in an influential opinion, would write simply: “That a juror may not be removed
because he or she disagrees with the other jurors as to the merits of a case requires no citation.”
United States v. Hernandez, 862 F.2d 17, 23 (2d Cir. 1988) (providing no citation). See, e.g.,
Thomas, 116 F.3d at 622 n.11 (citing the same). Not all analysis of the problems created by juror
removal was so breezy: Usually, courts interpreted rules (particularly Federal Rules of Criminal
Procedure 23(b) and 24(c) or their state equivalents) or crafted judge-made doctrines in light of
the background constitutional concerns implicated by the Fifth and Sixth Amendments, the
principles of which were understood better than their source was articulated. We review several
of these cases as pertinent below, starting with the Michigan state-court precedents that the
MCOA relied on in deciding Wofford’s case.
B. Michigan Law on Juror Removal
As a result of the history we have just surveyed, it has not been clear where to ground the
analysis of a trial court’s decision to remove and replace a juror. There are several ways to look
at the problem. It can be thought of as a legal question about double jeopardy: Are you trying
the same person before two different juries? Or an appeals court can ask when or whether the
judge should have declared a mistrial, which implicates double-jeopardy jurisprudence but also
the inherent power of appellate courts to oversee the discretionary judgments of trial courts. But
removal and replacement can also be regarded as matter of administering the federal or state
rules of criminal procedure. Or it can be treated as a question of Sixth Amendment jury rights,
variously

cast

as

a

fair-and-impartial-jury,

unanimous-jury,

or

trial-by-jury

right.

22United

States v. Perez, 9 Wheat. 579, 579–80 (1824). In 1978, the Supreme Court characterized Perez as
the start of a line of cases through which “it became firmly established by the end of the 19th century that a
defendant could be put in jeopardy even in a prosecution that did not culminate in a conviction or an acquittal, and
this concept has been long established as an integral part of double jeopardy jurisprudence.” Crist v. Bretz, 437 U.S.
28, 33–34 (1978).

APP_026

Case: 18-2367 Document:
08/13/2020
Page: 27Page 29 of 47
(29 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2739
No. 18-2367

Wofford v. Woods

Page 27

Cases addressing the issue, unsurprisingly, elide into one another and often are imprecise as to
which right they are invoking.
In assessing Wofford’s complaint, the Michigan Court of Appeals relied on People v.
Tate, a Michigan appellate case. 624 N.W.2d 524. In Tate, the defendant argued that a juror’s
removal had to be shown to be for “just cause.” The MCOA ruled that this was not so; rather that
the basis for such a removal rested in the discretion of the trial judge, “weighing a defendant’s
fundamental right to a fair and impartial jury with his right to retain the jury originally chosen to
decide his fate.” Id. at 529. In reaching this conclusion, the Michigan court drew heavily on
People v. Dry Land Marina, Inc., 437 N.W.2d 391, 394 (Mich. Ct. App. 1989). See Tate,
624 N.W.2d at 529. These cases share in the overall trend of being clear on the rules for jury
removal but mixing the doctrines from which they are derived.
Dry Land begins by analyzing strictly the removal of the juror, before reaching the
replacement of the juror. It does so with reference to double-jeopardy precedents.

See

437 N.W.2d at 392 (citing Jorn, 400 U.S. 470, and Gardner, 194 N.W.2d 62). Mindful of the
federal precedents on mistrial going back to Perez, the court held that Michigan courts must use
“less drastic alternatives” to declaring a mistrial if possible. Id. at 393. One of these less drastic
alternatives is the empanelment of an alternate juror, a practice the Dry Land court approved.
Ibid. But at the time, the Michigan rule under which the trial judge had empaneled the alternate
authorized such replacement only in instances where the jury had not yet begun deliberating, as
did the parallel federal rule. Id. at 393–94. As the judge had ordered the replacement after
deliberations had begun, he had clearly exceeded the bounds of that rule. Id. at 394. The
question therefore became whether the judge’s decision violated the defendant’s constitutional
rights. Ibid. And this was a Sixth Amendment question.
In assessing this question, the Dry Land court relied on a series of federal cases in which
federal courts confronted similar questions about whether admitted contraventions of Federal
Rule of Criminal Procedure 24 also constituted Sixth Amendment violations.23 See 437 N.W.2d
23At

the time, Federal Rule of Criminal Procedure 24(c), just as the Michigan state rule in question in Dry
Land, did not allow for substitution of an alternate after the jury had begun to deliberate. This has since been
changed.

APP_027

Case: 18-2367 Document:
08/13/2020
Page: 28Page 30 of 47
(30 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2740
No. 18-2367

Wofford v. Woods

Page 28

at 394. This required them, just as the Dry Land court was required, to determine the minimum
requirements of that amendment. See United States v. Hillard, 701 F.2d 1052, 1056–57, 61
(2d Cir. 1983); United States v. Kaminski, 692 F.2d 505, 518 (8th Cir. 1982); United States v.
Kopituk, 690 F.2d 1289, 1308–09 (11th Cir. 1982); Phillips, 664 F.2d at 991–93
& n.14; Henderson v. Lane, 613 F.2d 175, 177–79 (7th Cir. 1980).24 Indeed, several provide
clear examples of a court’s acknowledging the multiple sources of rights involved in
juror-removal questions. As Kopituk summarized, the “challenges . . . raised” in these cases
were “that substitution of an alternate juror after the jury has commenced its deliberations
violates the clear provisions of Fed.R.Crim.P. 24(c), the right to trial by a fair and impartial jury
guaranteed by the Sixth Amendment, and the prohibition against being placed in double jeopardy
incorporated within the Fifth Amendment.” 690 F.2d at 1308–09 (emphasis added) (discussing
Phillips, 664 F.2d at 971).
Dry Land and several of the federal cases just discussed do consider the danger that the
power to remove a juror can be abused. They do so by distinguishing the Ninth Circuit case of
United States v. Lamb, 529 F.2d 1153 (9th Cir. 1975) (en banc).25 The facts of Lamb seemed to
show not merely a misapplication of Rule 24(c), but also judicial manipulation of the jury’s
voting process: the jury found the defendant guilty, but the judge refused to accept this verdict,
as being in some unspecified way “inconsistent with his instructions.” Id. at 1154–55. He then
removed and replaced a juror, after which the jury returned a new verdict in twenty-nine
minutes. Id. at 1155. The Lamb court therefore prescribed a prophylactic rule requiring retrial
whenever an alternate was seated once deliberation had begun. This prophylactic rule was
grounded, in part, on the fear that otherwise, “[a] lone juror who could not in good conscience
vote for conviction could be under great pressure to feign illness or other incapacity so as to
place the burden of decision on an alternate juror.” Id. at 1156. But Phillips, Hillard, Kopituk,
and the other cases cited above rejected this prophylactic rule, deciding instead to adopt a rule
requiring a showing of actual prejudice.
24All

but one of these cases explicitly discusses the Sixth Amendment. United States v. Kaminski speaks
generally of constitutional rights, though it also cites Phillips for its rule. See 692 F.2d at 518.
25See Dry Land, 437 N.W.2d at 394; Hillard, 701 F.2d at 1059; Kopituk, 690 F.2d at 1310 & n.16; Phillips,
664 F.2d at 995; Henderson, 613 F.2d at 178.

APP_028

Case: 18-2367 Document:
08/13/2020
Page: 29Page 31 of 47
(31 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2741
No. 18-2367

Wofford v. Woods

Page 29

Dry Land, citing those cases, adopted the same rule.26 437 N.W.2d at 394. The MCOA
concluded that:
The language of F.R.Crim.P. 24(c) [and MCR 6.102(A) ] is not constitutionally
mandated. Therefore, there is no violation of a defendant’s right to trial by a fair
and impartial jury when an alternate juror is recalled and substituted for a
deliberating juror excused by the trial court. United States v. Phillips, 664 F.2d
971, 992–993 (C.A. 5, 1981) cert. den. sub. [sic] nom. United States v.
Meinster, 457 U.S. 1136, 102 S. Ct. 2965, 73 L.Ed.2d 1354 (1982).
Dry Land, 437 N.W.2d at 394 (brackets in original). Thus, after Dry Land, the Michigan jury
doctrine combined both Fifth and Sixth Amendment considerations, vested removal authority in
the trial judge’s discretion, and required a showing of an actual constitutional violation in the
event a convicted defendant challenged the replacement of a juror. The Tate court relied heavily
on this doctrine, which it boiled down into the aforementioned rule that the trial judge was to
“weigh[] a defendant’s fundamental right to a fair and impartial jury with his right to retain the
jury originally chosen to decide his fate.” 624 N.W.2d at 529. In turn, the Wofford court quoted
and relied on Tate’s rule.
C. Federal Law on Juror Removal (and a Word on Jury Nullification)
As the district court in this case noted, several federal courts have imposed a prophylactic
rule to deal with removal situations like that before us. In 1987, the District of Columbia Circuit
addressed an appeal from a federal criminal trial in which a juror had been removed. Brown,
823 F.2d at 592. The juror had told the judge, first via note and then in court, that he was unable
to perform his duties because “I can’t go along with the [RICO] act.” Id. at 594. But upon
further questioning, he also stated that “[i]t’s the way [the law is] written and the way the
evidence has been presented.”

Ibid.

The juror was removed, and the judge directed the

remaining eleven jurors to deliberate as a jury of eleven under Federal Rule of Criminal

26Perhaps

ironically, the extreme nature of the trial judge’s conduct in Lamb seems to have persuaded these
other courts that a prophylactic rule was not necessary. See, e.g., Henderson, 613 F.2d at 178 (“In Lamb, the forced
unanimity resulting from the substitution was apparent.”); Dry Land, 437 F.2d at 394 (“[T]he facts in the Lamb case
involve a particularly egregious violation of the rule.”).

APP_029

Case: 18-2367 Document:
08/13/2020
Page: 30Page 32 of 47
(32 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2742
No. 18-2367

Wofford v. Woods

Page 30

Procedure 23(b). Id. at 595.27 The jury convicted, and Brown appealed. As this was a federal
criminal case, the Sixth Amendment was recognized as conferring a right to a unanimous jury,
though that was not yet incorporated against the states.

Ibid. (citing Apodaca v. Oregon,

406 U.S. 404 (1972)). The court of appeals thus analyzed the removal as a potential violation of
that right. 823 F.2d at 595. It found it “scarcely debatable” that “a court may not dismiss a juror
during deliberations if the discharge stems from doubts the juror harbors about the sufficiency of
the government’s evidence.” Id. at 596. “If a court could discharge a juror on the basis of such a
request, then the right to a unanimous verdict would be illusory” because that “would enable the
government to obtain a conviction even though a member of the jury . . . thought that the
government had failed to prove its case.” Ibid. On the other hand, it acknowledged that Federal
Rule of Criminal Procedure 23(b) empowered a trial judge to remove a juror after the jury had
begun deliberating “if . . . necessary” and “for just cause.” Id. at 597. Courts, acting consistent
with the Constitution, could use this rule to discharge jurors for misconduct. See ibid. (citing
United States v. Gambino, 788 F.2d 938, 946–49 (3d Cir. 1986), for the removal of a juror “who
had viewed relevant materials not in evidence[.]”).
The court noted, however, that “the reasons underlying a request . . . will often be
unclear.” Id. at 596. Such situations therefore pose a problem. Moreover, the panel reasoned, it
would damage the secrecy of jury deliberations for the judge to make searching inquiries of the
juror(s) in such a situation. Ibid. Therefore, it crafted a prophylactic rule: “If the record
evidence discloses any possibility that the request to discharge stems from the juror’s view of the
sufficiency of the government’s evidence, the court must deny the request.” Ibid. “Any other
holding,” the court held, “would fail to protect adequately a defendant’s right to be convicted
only by a unanimous jury.” Ibid.
Approximately a decade later, the Second Circuit and the Ninth Circuit confronted
similar situations to that in Brown. Thomas, 116 F.3d at 606; Symington, 195 F.3d at 1082. In
each of these cases, a juror, who turned out to be the holdout juror, was removed during a federal
criminal trial. Thomas, 116 F.3d at 612; Symington, 195 F.3d at 1084. Again, there was
27Juries of less than twelve were upheld in William v. Florida, 399 U.S. 78 (1970). Williams may no
longer be completely sound after Ramos. See Ramos, 140 S. Ct. at 1436 (Alito, J., dissenting).

APP_030

Case: 18-2367 Document:
08/13/2020
Page: 31Page 33 of 47
(33 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2743
No. 18-2367

Wofford v. Woods

Page 31

evidence that pointed toward legitimate reasons for dismissal (in Thomas, both an inability to
deliberate and a desire to nullify; in Symington, problems deliberating that may have been
age-related), but there was also evidence that the juror had doubts about the prosecution’s case.
Thomas, 116 F.3d at 609–12; Symington, 195 F.3d at 1083–84. The district court in Thomas had
dismissed the juror under Federal Rule of Criminal Procedure 23(b), and the remaining jury of
eleven had convicted. Thomas, 116 F.3d at 612. In Symington’s trial, an alternate was seated,
with the same result. Symington, 195 F.3d at 1084. Both appellate courts framed their rulings as
interpretations of the Sixth Amendment and Federal Rule of Criminal Procedure 23(b). See
Thomas, 116 F.3d at 622; Symington, 195 F.3d at 1085, 1087. In each case, the circuit court
adopted a version of Brown’s prophylactic rule.28 Thomas, 116 F.3d at 621–22; Symington,
195 F.3d at 1087.
The Third and Eleventh Circuits have adopted a variation of the Brown-ThomasSymington rule. United States v. Kemp, 500 F.3d 257, 304 (3rd Cir. 2007); United States v.
Abbell, 271 F.3d 1286, 1302 (11th Cir. 2001). So too have as have at least three states. State v.
Elmore, 123 P.3d 72, 77–78 (Wash. 2005); People v. Gallano, 821 N.E.2d 1214, 1223–24
(Ill. App. Ct. 2004); Garcia v. People, 997 P.2d 1, 7 (Colo. 2000).
Moreover, as the Brown-Thomas-Symington rule became settled, courts have refined it.
Most notably, the D.C. Circuit has recently clarified that even under Brown, “if the court forms
an independent, good-cause justification for removing the juror that bears no ‘causal link’ to the
juror’s ‘holdout status,’ the court may excuse the juror even if the juror ‘independently had

28The

Brown court formulated its test as: “If the record evidence discloses any possibility that the request
to discharge stems from the juror’s view of the sufficiency of the government’s evidence, the court must deny the
request[.]” 823 F.3d at 596. The Thomas court enunciated its version as: “If the record raises any possibility that
the juror’s views on the merits of the case, rather than a purposeful intent to disregard the court’s instructions,
underlay the request that he be discharged, the juror must not be dismissed.” 116 F.3d at 622 n.11 (emphasis in
original). The Symington court said, “if the record evidence discloses any reasonable possibility that the impetus for
a juror’s dismissal stems from the juror’s views on the merits of the case, the court must not dismiss the juror.”
195 F.3d at 1087. Moreover, the Symington court was concerned that these formulae differed, and specifically that
were the word ‘reasonable’ not inserted, any shred of possible doubt would do. See id. at 1087 n.5. For our
purposes (and in our review of the case law), however, they all impose a prophylactic rule against juror dismissal if
there is evidence suggesting that the juror’s dismissal is due to her views of the merits of the case. See also United
States v. Kemp, 500 F.3d 257, 304 (3rd Cir. 2007) (“While there is a slight difference in the standards as expressed
by the D.C. and Second Circuits as compared to the Ninth and Eleventh Circuits, we believe that the difference is
one of clarification and not disagreement.”).

APP_031

Case: 18-2367 Document:
08/13/2020
Page: 32Page 34 of 47
(34 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2744
No. 18-2367

Wofford v. Woods

Page 32

doubts about the sufficiency of the evidence.’” United States v. McGill, 815 F.3d 846, 869 (D.C.
Cir. 2016) (citing United States v. Ginyard, 444 F.3d 648, 652 (D.C. Cir. 2006)). See also
United States v. Edwards, 303 F.3d 606, 633 (5th Cir. 2002).
As this review of the federal cases has shown, there is a lurking specter in the background
of this issue: jury nullification. The question has periodically arisen whether the jury had the
power to construe the law as well as the facts. In nineteenth-century America, this view was
embraced particularly by Jacksonian populists, and, notwithstanding its repudiation by the
Supreme Court in Sparf and Hansen v. United States, 156 U.S. 51, 102 (1895), it has continued
intermittently to be a subject of controversy up to our own time. See Thomas, 116 F.3d at 614–
16 (collecting sources).
Nullification is particularly controversial in this country because it has played a role in
America at its worst and its best. On the one hand, nullification has been associated with some
of America’s most important moments of civil disobedience. “The case of John Peter Zenger,
the publisher of the New York Weekly Journal acquitted of criminal libel in 1735, and the
nineteenth-century acquittals in prosecutions under the fugitive slave laws, are perhaps our
country’s most renowned examples of ‘benevolent’ nullification.” Thomas, 116 F.3d at 614;
see also United States v. Dougherty, 473 F.2d 1113, 1130 (D.C. Cir.1972).

Moreover, in

less-famous trials, the practice of nullification is thought to “introduce[] a slack into the
enforcement of law, tempering its rigor by the mollifying influence of current ethical
conventions.” Thomas, 116 F.3d at 615, quoting U.S. ex rel. McCann v. Adams, 126 F.2d 774,
776 (2d Cir. 1942) (Hand, J.), rev’d on other grounds, 317 U.S. 269 (1942).
On the other hand, juror nullification also played a role in ugly events. During the Jim
Crow and Civil Rights eras, nullification was “used to sanction murder and lynching.” Thomas,
116 F.3d at 616 (collecting sources). Moving from the ugly to merely the bad, we find cases in
which nullification is used to protect “the defendant’s shooting of his wife’s paramour, or
purchase during Prohibition of alcoholic beverages.” Dougherty, 473 F.2d at 1130.
The settled conclusion of American courts has been that nullification is a power but not a
right. See, e.g., Thomas, 116 F.3d at 615. That is to say, jurors can vote to acquit in defiance of

APP_032

Case: 18-2367 Document:
08/13/2020
Page: 33Page 35 of 47
(35 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2745
No. 18-2367

Wofford v. Woods

Page 33

the law, and courts in general cannot stop them—but courts will not encourage this, provide jury
instructions acknowledging it, or allow lawyers to argue overtly for it. See, e.g., United States v.
Krzyske, 836 F.2d 1013, 1021 (6th Cir. 1988); Thomas, 116 F.3d at 617. But see Krzyske, 836
F.2d at 1021–22 (Merritt, J., dissenting); cf. United States v. Gabrion, 648 F.3d 307, 324 (6th
Cir. 2011) (Merritt, J.), reh’g en banc granted, opinion vacated (Nov. 17, 2011) on reh’g en
banc, 719 F.3d 511 (6th Cir. 2013). Therefore, when courts have crafted doctrines to protect
against jurors’ being removed for their views on the case, they are not doing so to protect jury
nullification. Rather, they are acting to protect the right of the accused to “trial by an impartial
jury,” from which jury the judge cannot remove jurors for their views on the case, as well as to
protect related concerns such as jury secrecy. Jury nullification is a byproduct of those rights,
but it is not coterminous with them. As a result, even courts that craft expansive prophylactic
rules to protect against improper juror removal have acknowledged that overt nullification can be
a proper reason for removal. As the Thomas court put it:
We categorically reject the idea that, in a society committed to the rule of law,
jury nullification is desirable or that courts may permit it to occur when it is
within their authority to prevent. Accordingly, we conclude that a juror who
intends to nullify the applicable law is no less subject to dismissal than is a juror
who disregards the court’s instructions due to an event or relationship that renders
him biased or otherwise unable to render a fair and impartial verdict.
Thomas, 116 F.3d at 614.
D. The Williams and Johnson Precedents
State-court decisions requiring an actual constitutional violation to overturn a conviction
because of juror removal, federal decisions imposing a prophylactic rule, and AEDPA all came
together in the case of Tara Williams, which eventually reached the Supreme Court in Johnson v.
Williams, 568 U.S. 289 (2013). Because of the significant number of parallels between that case
and ours, we discuss it in some detail. Williams was the getaway driver in a liquor-store robbery
in which her coconspirators shot and killed a teller. She was tried in a California state court for
murder. In response to two jury notes (delivered simultaneously) indicating that one juror “has
expressed an intention to disregard the law . . . and . . . has expressed concern relative to the
severity of the charge,” the judge interviewed each juror individually on the record. Williams v.

APP_033

Case: 18-2367 Document:
08/13/2020
Page: 34Page 36 of 47
(36 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2746
No. 18-2367

Wofford v. Woods

Page 34

Cavazos, 646 F.3d 626, 631–32 (9th Cir. 2011), rev’d sub nom. Johnson v. Williams, 568 U.S.
289 (2013). In the face of more equivocal evidence than that which is before us today (including
a split among the other jurors as to whether the juror in question was following the law and
deliberating properly), the judge concluded that the juror should be dismissed as biased, citing
evidence that suggested the juror disagreed with the law and had been dishonest. Id. at 634. An
alternate was seated and Williams was convicted. Id. at 634–35.
Williams appealed on both state statutory and Sixth Amendment grounds. The California
Court of Appeal upheld Williams’s conviction on direct review, citing People v. Cleveland,
21 P.3d 1225 (Cal. Ct. App. 2001). People v. Taylor, No. B137365, 2002 WL 66140, at *8 (Cal.
Ct. App. Jan. 18, 2002).29 Cleveland is California’s precedent on the removal and replacement
of a juror where there is some doubt whether the removal was due to misconduct or the juror’s
views on the case. In an opinion that canvassed at great length both state precedents and the
Brown-Thomas-Symington trio (but did not explicitly mention the Sixth Amendment), the
California court in Cleveland had opted against the rule from Brown. California instead adopted
a rule instructing the judge to “conduct ‘whatever inquiry is reasonably necessary’” in such
situations and “to discharge the juror if it appears as a ‘demonstrable reality’ that the juror is
unable or unwilling to deliberate.” 21 P.3d at 1237. Put another way, Cleveland did not apply
the prophylactic rule that if the record reveals a possibility that a juror’s dismissal stems from
doubts about the evidence, his discharge is forbidden; rather, it held that in the absence of
evidence of an actual constitutional violation and, provided that the judge had otherwise
exercised sound discretion in his decision-making, the judge’s dismissal of the juror would stand.
Applying the rule from Cleveland to the case before it, the California Court of Appeal affirmed
Williams’s conviction. Taylor, 2002 WL 66140, at *8.
Williams petitioned the federal courts for a writ of habeas corpus. The Ninth Circuit held
that the California Court of Appeal had not “adjudicated Williams’s Sixth Amendment claim on
the merits” because “the court simply failed to decide the claim without explanation.” Williams,
646 F.3d at 636. It wrote that “the court engaged in an extended discussion of Williams’s
statutory claim, but made no mention whatsoever of her more fundamental constitutional claim.”
29Taylor

was the name of Williams’s accomplice. Their state appeals were taken together.

APP_034

Case: 18-2367 Document:
08/13/2020
Page: 35Page 37 of 47
(37 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2747
No. 18-2367

Wofford v. Woods

Page 35

Id. at 639 (emphasis in original). Therefore, the Ninth Circuit reviewed the case de novo. Id. at
641. “Because AEDPA’s deferential standard of review [did] not apply, Williams [was] not
limited to presenting violations of federal law that were ‘clearly established . . . as determined by
the Supreme Court of the United States.’” Id. at 642 n.14. Reviewing Brown, Symington, and
Thomas, the Ninth Circuit drew its rule from those cases, which it formulated as, “whether, after
an appropriately limited inquiry, it can be said that there is no reasonable possibility that the
juror’s discharge stems from his views of the merits . . . .” Id. at 644. “If the answer . . . [was]
no, the removal of the juror violates the Sixth Amendment.” Ibid. Applying this test, the Ninth
Circuit found that the trial judge’s removal of the juror had been unconstitutional. Id.at 646.
The Supreme Court did not agree. The Court began its analysis by noting its previous
decision in Richter, in which it had held that when a federal claim has been presented to a state
court and denied without explanation, a federal court should apply a (rebuttable) presumption
“that the state court adjudicated the claim on the merits.” Johnson, 568 U.S. at 298. “We see no
reason why the Richter presumption should not also apply when a state-court opinion addresses
some but not all of a defendant’s claims.” Ibid.30 This holding is, of course, important to our
case.
Even more significant to us, however, is the Court’s extended discussion of the way in
which the Ninth Circuit’s decision had failed to appreciate the import of the California Court of
Appeal’s discussion of the California Supreme Court precedent, Cleveland. Cleveland, the
Supreme Court noted, had discussed but “expressly declined to follow” Brown, Thomas, and
Symington. 568 U.S. at 304. The discussion of these cases, the Supreme Court observed,
showed something more:
Cleveland did not expressly purport to decide a federal constitutional question,
but its discussion of Symington, Thomas, and Brown shows that the California
Supreme Court understood itself to be deciding a question with federal
30The

majority and concurrence then proceeded to dispute under what conditions this presumption should
be rebuttable, with the majority deciding that it should be rebuttable, particularly in the circumstance “where the
evidence leads very clearly to the conclusion that a federal claim was inadvertently overlooked in state court.”
Johnson, 568 U.S. at 303. Compare ibid. (majority) with id. at 307 (Scalia, J., concurring) (arguing that the
presumption should be rebuttable only when the text of the order or local practice makes it clear that the court “did
not purport to decide the federal question”) (emphasis in original). It is the “inadvertently overlooked” exception
upon which the district judge in our case relied.

APP_035

Case: 18-2367 Document:
08/13/2020
Page: 36Page 38 of 47
(38 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2748
No. 18-2367

Wofford v. Woods

Page 36

constitutional dimensions. Indeed, it is difficult to imagine the California
Supreme Court announcing an interpretation of Cal.Penal Code Ann. § 1089 that
it believed to be less protective than the Sixth Amendment, as any such
interpretation would provide no guidance to state trial judges bound to follow
both state and federal law.
....
Regardless of whether a California court would consider Williams’ § 1089
and Sixth Amendment claims to be perfectly coextensive, the fact that these
claims are so similar makes it unlikely that the California Court of Appeal
decided one while overlooking the other. Indeed, it is difficult to imagine any
panel of appellate judges reading Cleveland and passing on the propriety of
dismissing a holdout juror under § 1089 without realizing that such situations also
bear on the federal constitutional right to a fair trial. The California Court of
Appeal’s quotation of our definition of “impartiality” from [United States v.
Wood, 299 U.S. 123, 145–146, (1936)], points to the same conclusion, confirming
that the state court was well aware that the questioning and dismissal of [the juror]
implicated both state and federal law.
568 U.S. at 305–06 (citations omitted). Wood was a Sixth Amendment case, and the Supreme
Court credited the California Court of Appeal’s citation of it as showing awareness of the
constitutional issue, even though the California court did not mention the issue explicitly.
For these reasons, the Supreme Court held that that “the Ninth Circuit erred by finding
that the California Court of Appeal overlooked Williams’ Sixth Amendment claim.” Id. at 304.
Moreover, the Court took pains to emphasize that it was error for the Ninth Circuit to have held
California to the standard set forth in the Brown line of cases:
The Ninth Circuit’s conclusion to the contrary rested on the fact
that Cleveland refused to follow Symington, Brown, and Thomas. 646 F.3d at
640. But the views of the federal courts of appeals do not bind the California
Supreme Court when it decides a federal constitutional question, and disagreeing
with the lower federal courts is not the same as ignoring federal law. The Ninth
Circuit’s apparent assumption that the California Supreme Court could not refuse
to follow federal court of appeals precedent without disregarding the Federal
Constitution would undo § 2254(d)’s “contrary to” provision, which requires
deference unless a state court fails to follow Supreme Court precedent. 28 U.S.C.
§ 2254(d)(1).
Id. at 305 (first emphasis added; second in original).

APP_036

Case: 18-2367 Document:
08/13/2020
Page: 37Page 39 of 47
(39 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2749
No. 18-2367

Wofford v. Woods

Page 37

The parallels to our case seem painfully obvious. Though the district court and Wofford
in our case have raised various grounds on which to differentiate the Williams cases from ours
(see infra, pp. 37–41), the facts remain: (1) at trial, in both cases, a holdout juror was removed
for cause that was related to, but distinct from, the juror’s holdout status; (2) on direct appeal, the
California Court of Appeal, like the MCOA, confronted a case in which defendant raised both
state and federal claims on brief in a mixed fashion; (3) in each case the state appeals court’s
decision cited only state precedent; (4) on habeas, the Ninth Circuit, like our district court, held
that a state appeals court had overlooked the Sixth Amendment claim because the state court had
only discussed a state precedent; (5) both the Ninth Circuit and our district court then did not
apply AEDPA deference; (6) reviewing de novo, each court then held the state to the BrownThomas-Symington rule and granted habeas.
But an eight-Justice majority of the Supreme Court (with the ninth Justice writing an
even more emphatic concurrence) reversed the Ninth Circuit. The Supreme Court held that it
was error to presume that the California courts had ignored the constitutional question in Taylor
and in Cleveland. Tracing references in these state-court decisions to federal cases on the Sixth
Amendment, the Supreme Court found it particularly unlikely that the California courts had
ignored that amendment in their reasoning. Moreover, the Supreme Court stated that it was error
to hold the state to the Brown-Thomas-Symington rule on habeas review when the state’s own
courts had not adopted that rule.
Given the significant similarities between Williams’s case and Wofford’s, we should do
as the Supreme Court did and reverse—absent some other argument distinguishing the two. To
such arguments we now turn.
E. Purported Distinguishing of Wofford from Williams and Johnson Fails
The district court and Wofford have both attempted to distinguish our case from Johnson
on various grounds. Ultimately, none are convincing.
As we have seen, after Richter and Johnson, only one narrow path remained for those
who would argue that a claim has been properly presented to the state court (so as to be
preserved for habeas review and not forfeited under AEDPA), but not deemed to have been

APP_037

Case: 18-2367 Document:
08/13/2020
Page: 38Page 40 of 47
(40 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2750
No. 18-2367

Wofford v. Woods

Page 38

reviewed on the merits and decided by the state courts, even sub silentio: arguing that a claim
had been presented, but fundamentally misunderstood. This does happen,31 and indeed the
difference between the claim as presented and the claim as examined by the state courts can be
fairly narrow and still overcome the post-Johnson AEDPA barriers to de novo review.32
The district court held that this is Wofford’s situation. First, the district court held—
correctly—that Wofford had raised a Sixth Amendment challenge and had cited Thomas, thus
presenting the issue to the MCOA and preserving it for federal habeas review. See Scott,
760 F.3d at 503–04. Then, the district court held that the MCOA had overlooked Wofford’s
Sixth Amendment claim. This was shown, the district court reasoned, by the fact that the
MCOA had failed to cite Thomas, Brown, Symington, or “a like case[,]” and that, as to the
Michigan cases that the MCOA did cite, “none of those decisions involved the test set out in
Brown, Thomas, and Symington.”
In attempting to differentiate Johnson, the district court examined the MCOA’s
engagement with Tate, 624 N.W.2d 524. The district court emphasized certain language from
Tate cited in the MCOA’s Wofford opinion: “While a defendant has a fundamental interest in
retaining the composition of the jury as originally chosen, he has an equally fundamental right to
have a fair and impartial jury made up of persons able and willing to cooperate, a right that is
protected by removing a juror unable or unwilling to cooperate.” Tate, 624 N.W.2d at 529
(emphasis added by district court). The district court observed that the emphasized language
“stems from a line of federal cases holding that once a jury is empaneled, . . . by declaring a

31See,

e.g. Campbell v. Bradshaw, 674 F.3d 578, 585–87 (6th Cir. 2012); Jells v. Mitchell, 538 F.3d 478,
486–89 (6th Cir. 2008); English v. Romanowski, 602 F.3d 714, 725–26 (6th Cir. 2010); see also, e.g., Bauder v.
Dept. of Corrections, 619 F.3d 1272, 1274–75 (11th Cir. 2010). But see Smith v. Cook, 956 F.3d 377, 387–88 (6th
Cir. 2020) (casting doubt on the “continued vitality” of Campbell and Jells after Johnson, in light of the latter’s
“healthy presumption of merits adjudication.”).
32In

Campbell, for example, we held that the Ohio Supreme Court had misconstrued the petitioner’s
argument that the trial court had prevented him from arguing voluntary intoxication as a mitigating factor, treating it
instead as an argument that the trial court had failed to give a jury instruction on voluntary intoxication. We thus
applied de novo review. 674 F.3d at 596. Similarly, English v. Romanowski, a Strickland-AEDPA case, concerned
a defense attorney who had promised the jury a key witness, only to refuse to put her on the stand during trial due to
concerns about her credibility and character. 602 F.3d at 723–24. We held that the Michigan courts had mistaken a
claim about failure to investigate a witness properly before trial for a (separate) claim about whether to call her.
We reviewed de novo. Id. at 728.

APP_038

Case: 18-2367 Document:
08/13/2020
Page: 39Page 41 of 47
(41 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2751
No. 18-2367

Wofford v. Woods

Page 39

mistrial too soon, a trial court may infringe the defendant’s Fifth Amendment right to end his
jeopardy[].” But, the district court held, “[t]he Fifth Amendment right to avoid prolonged
(or double) jeopardy is not the same as the Sixth Amendment right to a unanimous verdict.”
On this ground, the district court sought explicitly to distinguish Johnson:
Thus, this case is unlike Johnson v. Williams, where the Supreme Court reversed
the Ninth Circuit’s de novo application of Symington. See 568 U.S. 289, 305
(2013) (finding § 2254(d) applied where state court cited Cleveland, and, in turn,
Cleveland discussed Brown, Thomas, and Symington).
Thus, the district court’s logic runs, because the Michigan courts cited a state-court line of
reasoning on juror removal that derived from a Fifth Amendment lineage, that indicates that they
were not cognizant of the Sixth Amendment aspect of his claims. Expressio unius est exclusio
alterius, in other words. In this analysis, Johnson was different because the California courts
cited Brown, Symington, or Thomas, thus showing awareness of the Sixth Amendment claim.
Because the MCOA in this analysis overlooked Wofford’s Sixth Amendment claim, their
decision is not subject to AEDPA deference—thereby distinguishing Johnson. As a bonus,
moreover, the very thing that distinguishes Johnson allows the district court to do what Johnson
would not allow: apply the Brown-Thomas-Symington rule against the state on de novo review
of the habeas petition.
But this analysis is not convincing. First, the district court’s analysis of the MCOA’s
silence as to Brown, Thomas, Symington, or the rule they embody is troubling. As we have just
seen, the district court used this silence as a basis both for holding that the MCOA had
overlooked Wofford’s Sixth Amendment claim and also for distinguishing Wofford’s case from
Johnson. But of course, Johnson says that the state courts do not have to follow those cases.
568 U.S. at 305. It would be perverse to demand that, in order to show that it had considered
Wofford’s Sixth Amendment claim and thus should receive AEDPA deference, the MCOA had
to name-check three cases that it is not required to apply. The same goes for the rule those cases
embody. Similarly, if the district court’s implication is that “§ 2254(d) applied” in Johnson
“where state court cited Cleveland” because “in turn, Cleveland discussed Brown, Thomas, and
Symington,” that is incorrect. The Supreme Court held very nearly the opposite: the California

APP_039

Case: 18-2367 Document:
08/13/2020
Page: 40Page 42 of 47
(42 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2752
No. 18-2367

Wofford v. Woods

Page 40

court were within their rights to rely on Cleveland and not Brown, Thomas, and Symington,
whether cited or not.
The bigger problem is that the court’s expressio unius analysis rests on a purported
division between the Fifth- and Sixth-Amendment precedent that is not supported by Michigan’s
case law. Wofford cited Tate. Tate rests on Dry Land. But as we have seen, Dry Land, in
addition to discussing cases about the Fifth Amendment’s Double Jeopardy Clause, cites a series
of federal cases about juror removal during deliberation, all of which are rooted in (and all but
one of which discuss) the Sixth Amendment: Hillard, Kopituk, Phillips, Henderson, and
Kaminski. See supra pp. 27–29. Indeed, Dry Land discusses Phillips and Hillard at some
length. Id. at 328–31. As if to confirm its focus, in the same string of citations, Dry Land cites a
treatise, Anno: Constitutionality and construction of statute or court rule relating to alternate or
additional jurors or substitution of jurors during trial, 84 ALR2d 1288, that discusses the Sixth
Amendment implications of juror removal. It is not surprising, moreover, that Dry Land (and,
through it, Tate and Wofford) dealt with both Fifth and Sixth Amendment concerns, since, as we
have seen, double-jeopardy, mistrial, and trial-by-jury rights are all logically and historically
implicated when a juror is dismissed and replaced with an alternate. Thus, it is unconvincing to
hold that the Michigan courts, in drawing on this line of cases, were not engaging with, or were
unaware of, the Sixth Amendment aspect of this problem.
Just as the Supreme Court found it “difficult to imagine the California Supreme Court
[in Cleveland] announc[ed] an interpretation of Cal.Penal Code Ann. § 1089 that it believed to
be less protective than the Sixth Amendment,” we find it difficult to imagine that the MCOA did
not consider the Sixth Amendment’s protection when they wrote Dry Land and Tate. Johnson,
568 U.S. at 305. And just as the Supreme Court also found it “difficult to imagine any panel of
appellate judges [in Taylor] reading Cleveland and passing on the propriety of dismissing a
holdout juror under § 1089 without realizing that such situations also bear on the federal
constitutional right to a fair trial,” so too, we find it difficult to imagine that the MCOA, in
deciding Wofford, passed on the propriety of dismissing Juror M under Tate without realizing
that the situation also bore on Wofford’s Sixth Amendment jury right. Johnson, 568 U.S. at 305.

APP_040

Case: 18-2367 Document:
08/13/2020
Page: 41Page 43 of 47
(43 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2753
No. 18-2367

Wofford v. Woods

Page 41

Our conviction in reaching both of these conclusions comes not just from presumption; rather, it
is reinforced significantly by Dry Land’s discussion of Sixth Amendment precedents.
Incidentally, the history recited above also means that even on the district court’s own
logic, the attempted distinctions would fail. The connection that shows consideration of the
Sixth Amendment in Williams’s case looks like this: the California Court of Appeal, in
assessing Williams’s appeal, relied on Cleveland, which discussed Brown, Symington, and
Thomas, which turned (in part) on the Sixth Amendment. In our case, the MCOA, in assessing
Wofford’s appeal, relied on Tate, which discussed Dry Land, which discussed Phillips (and four
related cases), which turned (in part) on the Sixth Amendment. Graphically:
•

CA Court of Appeal→Cleveland→Brown/Symington/Thomas→Sixth Amendment

•

MI Court of Appeals→Tate→Dry Land→Phillips→Sixth Amendment

Whatever else the case may turn on, the constitutional analysis cannot turn on that extra level of
citation. Attempts to differentiate Johnson v. Williams, in other words, have only strengthened
the conviction that it should apply.33
F. Michigan Chose to Require Actual Prejudice – As It Is Allowed To
The courts in the Brown-Thomas-Symington cases, just as every other court, agree that it
would be constitutional to remove a juror who is misbehaving, ill, or otherwise unable to
33Wofford

raises two other arguments as to why the MCOA should not be presumed to have examined the
federal claim. First: “The court stated that the standard of review was abuse of discretion. It did not apply de novo
review as is required for constitutional claims.” But in Michigan, the abuse-of-discretion inquiry requires the judge
to “weigh[] a defendant’s fundamental right to a fair and impartial jury with his right to retain the jury originally
chosen to decide his fate”—i.e., it incorporates the constitutional analysis within the idea of what discretion is
“sound.” Tate, 624 N.W.2d at 529. Cf. United States v. McGill, 815 F.3d 846, 867 (D.C. Cir. 2016) (“[W]e review
a district court’s decision to excuse a juror only for an abuse of discretion. . . . [T]he Sixth Amendment constrains
the district court’s discretion to remove a juror.” Although—or perhaps, noteworthily—McGill is a case in a circuit
where Brown is good law, this basic framework seems consistent.).
Second, Wofford argues that the MCOA “identified the issue as one of ‘due process,’ indicating that the
court was at the very least viewing the claim through the lens of the Fifth Amendment, not the Sixth Amendment.”
(Quoting Wofford, 2015 WL 1214463, at *1). But of course, Sixth Amendment rights are incorporated against the
states via the Due Process clause of the Fourteenth Amendment. See Ramos, 140 S. Ct. at 1397; Duncan v.
Louisiana, 391 U.S. 145, 149 (1968). Thus this statement—which in any event comes only in the MCOA’s standard
of review—does not support Wofford’s argument. Indeed, as the Fourteenth Amendment’s Due Process Clause is
the vehicle by which the Bill of Rights is incorporated against the states, such a reference marginally increases the
impression that the MCOA would be considering the full panoply of such rights as they applied to Wofford’s case.

APP_041

Case: 18-2367 Document:
08/13/2020
Page: 42Page 44 of 47
(44 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2754
No. 18-2367

Wofford v. Woods

Page 42

deliberate. See Brown, 823 F.2d at 597; Thomas, 116 F.3d at 613–14. Symington, 195 F.3d at
1085. What sets the Brown line apart from the Phillips-Dry Land line or Cleveland is that Brown
is prophylactic. Reasoning that it will not always be easy to tell when a dismissal is justified
versus when it stems from a juror’s opinion on the case—especially without penetrating the
secrecy of the jury room—each version of the Brown test requires that the dismissal be denied
(or, in the appellate posture after conviction, that a new trial be ordered) in any case where there
is a reasonable possibility that the juror’s removal was related to the merits.

See Brown,

823 F.3d at 596.
Cleveland is not prophylactic. It requires an actual constitutional violation to order a new
trial. 21 P.3d at 1236. Dry Land also rejects a prophylactic approach, preferring to require
actual prejudice when examining juror removal. And Johnson stands for the idea that which
approach to take is a choice for the state to make.34
The background of Michigan law indicates that the Michigan courts are aware of Sixth
Amendment concerns and know how to address them. See People v. Cooks, 521 N.W.2d 275,
278 (Mich. 1994) (recognizing a unanimous jury right under state law); People v. van Camp,
97 N.W.2d 726, 733 (Mich. 1959) (holding that the state juror-removal statute does not violate a
defendant’s right to a unanimous jury) (cited in Dry Land, 437 N.W.2d at 325–26); and People v.
Tyburski, 518 N.W.2d 441, 447 (Mich. 1994) (recognizing incorporation of the Sixth
Amendment “fair and impartial jury” right against the states (citing Duncan v. Louisiana,
391 U.S. 145 (1968)). To accept Wofford’s theory for why AEDPA should not apply, we would
have to hold that the MCOA ignored and sub silentio contravened all of these precedents in
assessing his case. The better reading is that it considered the problem and saw no constitutional
violation. We are commanded to presume that the Michigan court made this choice fully
considering the Thomas argument and deciding the constitutional issues thus posed on the merits.
But even more so, in referencing—and sticking with—the Tate-Dry Land line of precedents
here, it seems quite plausible that the Michigan court was making a conscious choice.
34The

Sixth Circuit has not adopted—or rejected—the Brown-Thomas-Symington rule for federal criminal
cases in this circuit. We do not decide whether to do so today. Rather, we simply observe that, per Johnson, the
choice of whether to do so or to adopt a rule requiring an actual constitutional violation (or some other rule above
this floor) is one for the individual states to make.

APP_042

Case: 18-2367 Document:
08/13/2020
Page: 43Page 45 of 47
(45 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2755
No. 18-2367

Wofford v. Woods

Page 43

Admittedly, the MCOA considered the problem in light of the rules as distilled into one
case, not with the explication displayed here today. But we are not here to grade Michigan’s
homework, only to assess whether there was an egregious constitutional violation. Johnson and
Richter are reminders that the federal courts cannot “impose mandatory opinion-writing
standards on state courts.” Johnson, 568 U.S. at 300; see also Richter, 562 U.S. at 99.
The conclusion from the foregoing is clear: in light of Johnson, the district court should
have afforded AEDPA deference to the Michigan Wofford ruling, if not under Johnson’s
presumption, then because of the manifest similarities between Wofford and Johnson. (Indeed,
the district court’s repeated citations to the overturned Williams v. Cavazos decision are
troubling: saying “rev’d on other grounds sub nom. Johnson v. Williams” does not make it so.)
The district court should, moreover, have recognized that, as a close look at Tate shows, the
Michigan courts were drawing on a line of state precedent that considered the Sixth Amendment.
Wofford is, in short, unable to show the requisite “evidence [that] leads very clearly” to the
conclusion that his Sixth Amendment claim was overlooked. Johnson, 568 U.S. at 303. AEDPA
thus applies.
V. Legal Analysis Under AEDPA, Applied
Wofford needs a prophylactic rule, because without one he must lose: the Michigan
courts found—and we have upheld the finding—that Juror M was removed from the jury for
cause.

See supra, pp. 18–20.

The MCOA ruled that “flagrantly violat[ing] the court’s

instructions by discussing the deliberations with a non-juror” provided good cause for dismissal
under Michigan law. Wofford, 2015 WL 1214463 at *2. Indeed, Wofford did not argue before
the MCOA, and does not argue before us, that the trial court lacked a just cause for Juror M’s
dismissal. Ibid. And the MCOA held that her dismissal was because of this conduct, not
because of her opinion on the case. Id. at *2–3. We have upheld that factual finding as well.
See supra, pp. 18–20. There was, in other words, no actual constitutional violation here—only
some factors that might make a prophylactically minded court concerned about one. Michigan
chose not to go in that direction.

APP_043

Case: 18-2367 Document:
08/13/2020
Page: 44Page 46 of 47
(46 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 33-2
35 filedFiled:
08/13/20
PageID.2756
No. 18-2367

Wofford v. Woods

Page 44

Since AEDPA applies, we cannot use Brown-Thomas-Symington as the benchmark to
evaluate the decisions of the Michigan courts. Johnson, 568 U.S. at 305. The Williams cases are
yet again instructive: on remand from the Supreme Court, reconsidering the case under AEDPA,
the Ninth Circuit found that there was no Supreme Court case directly on point and thus denied
the petition for a writ of habeas corpus. Williams v. Johnson, 840 F.3d 1006, 1009–11 (9th Cir.
2016); see also id. at 1009 (“Williams has not cited any Supreme Court case imposing (or even
hinting at) the Symington rule. Nor are we aware of such a case.”). Similarly, Wofford has not
cited a Supreme Court case here that would support the application of the Brown-ThomasSymington rule or of any other analogous rule. Therefore, Wofford’s arguments should fail: his
“argument cannot succeed because he does not cite any precedent from the United States
Supreme Court[,]” Scott, 760 F.3d at 506, to which the Michigan court’s ruling was contrary.
28 U.S.C. § 2254(d). Thus, reviewing this part of the district court’s decision de novo, we
reverse the grant of a writ of habeas corpus to Wofford.
VI. Conclusion
For the foregoing reasons, we uphold the factual findings of the district court, but
REVERSE its legal conclusion, and REMAND the case for further proceedings consistent with
this opinion.

APP_044

Case: 18-2367 Document:
33-3filedFiled:
08/13/2020
Page: 1Page 47 of 47
(47 of 47)
Case 2:16-cv-13083-LJM-RSW
ECF No. 35
08/13/20
PageID.2757

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-2367

MELVIN WOFFORD,

FILED

Petitioner - Appellee,

Aug 13, 2020
DEBORAH S. HUNT, Clerk

v.
JEFFREY WOODS, Warden,
Respondent - Appellant.

Before: BOGGS, BATCHELDER, and DONALD, Circuit Judges.

JUDGMENT
On Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
THIS CAUSE was heard on the record from the district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED that the district court’s grant of a writ of
habeas corpus is REVERSED, and the case is REMANDED for further proceedings consistent with the
opinion of this court.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APP_045

A-2

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2369

Page 1 of 21

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
MELVIN WOFFORD,
Petitioner,

Case No. 16-cv-13083
Honorable Laurie J. Michelson

v.
JEFFREY WOODS, Warden,
Respondent.
OPINION AND ORDER
CONDITIONALLY GRANTING PETITION FOR A WRIT OF HABEAS CORPUS
The Constitution guarantees a criminal defendant a unanimous verdict. That means when
there is reason to think that 11 jurors are convinced of the defendant’s guilt but one is steadfastly
not, the judge should either instruct the jury to continue deliberations or declare the jury hung.
What the judge cannot do is remove a competent juror who is simply unpersuaded by the
prosecution’s case.
Yet that is what happened at Petitioner Melvin Wofford’s trial. Over the course of several
days, the jury provided the judge with notes indicating that they were hopelessly deadlocked. One
said, “We are eleven to one with no chance of the one moving their view.” Another pleaded, “We
have a hung jury and we need instructions!!! Help!!!” The judge twice instructed the jury to try to
reach an agreement. Still no verdict came. Eventually, things got so bad in the jury room that the
holdout retained an attorney to tell the judge that the other jurors were harassing and verbally
abusing her (the judge had previously indicated that all notes had to come from the foreperson,
which apparently, she was not). Despite that the jury had been stuck for days—and despite that the
prosecution had agreed to a mistrial—the judge refused to declare one. Instead, he found that the

APP_046

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2370

Page 2 of 21

holdout juror’s contact with an attorney “flagrantly” violated his instructions and thus she would
be removed for cause. Once an alternate was seated, the reconstituted jury convicted Wofford in
about 90 minutes. Wofford received a mandatory sentence of life in prison without the possibility
of parole.
Wofford appealed, arguing that “remov[ing] a juror because he is unpersuaded by the
Government’s case is to deny the defendant his right to a unanimous verdict.” Yet the Michigan
Court of Appeals did not address Wofford’s claim that his Sixth Amendment right to a unanimous
verdict had been violated. Wofford then asked the Michigan Supreme Court to take his appeal,
again quoting the same language. The Michigan Supreme Court denied leave to appeal without
reaching the merits.
Wofford now seeks a writ of habeas corpus from this Court. Because the state appellate
courts did not address the claim Wofford presented, this federal court examines that claim in the
first instance. Having done so, the Court finds that Wofford’s Sixth Amendment right to a
unanimous verdict was violated when the holdout juror was removed. So the Court will
CONDITIONALLY GRANT Wofford a writ of habeas corpus.
I.
A.
In June 1993, Thomas Gilmore was assaulted and strangled to death at his place of work.
Gilmore’s business was at a converted school building that also housed other businesses, including
a roofing company. Wofford worked for the roofing company. Although authorities investigated
Gilmore’s murder, DNA testing was not available in 1993 and the case ran cold. In 2009,
Wofford’s DNA was entered into a database and it matched DNA from the crime scene. Additional

2
APP_047

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2371

Page 3 of 21

samples from Wofford were tested to confirm the matches and, in 2012, Wofford was charged
with first-degree premeditated murder and first-degree felony murder.
Wofford was tried in August 2013—two decades after Gilmore’s death. Evidence
suggested that the point of entry into the converted school building was a window partly covered
by sheet metal. The sheet metal was secured in part by duct tape. Two hairs were found stuck to
the duct tape and the jury was told that testing matched the hairs to Wofford. The jury was also
told that the DNA testing matched two drops of blood found on a work-bench and a tool-room
wall to Wofford. The prosecution also provided the jury with a motive: Wofford needed money,
broke into the converted school building to steal, Gilmore spotted Wofford, and Wofford, afraid
of being outed, killed Gilmore. On the other hand, the jury learned that a bloody palm print at the
scene was not Wofford’s. And they heard that shoeprints did not match the shoes Wofford was
wearing when he was interviewed by police shortly after the murder. The jury was also read
Wofford’s grand-jury testimony where he denied killing Gilmore.
B.
Wofford’s jury—or at least one juror—struggled to find that the evidence recounted above
(and the other evidence presented at trial) proved beyond a reasonable doubt that Wofford
murdered Gilmore. Here is what happened.
1.
By the afternoon of Monday, August 26, 2013, the jury had been deliberating for about
seven hours. (R. 9, PageID.2086.) At that point, the judge received a note. (R. 9, PageID.2086.)
The note read, “We are eleven to one with no chance of the one moving their view.” (R. 9,
PageID.2084.) The prosecution wanted the jurors to continue their deliberations. (R. 9,

3
APP_048

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2372

Page 4 of 21

PageID.2084, 2087.) After some discussion, Wofford’s lawyers asked the judge to give the jurors
a “deadlock instruction.” (R. 9, PageID.2086.)
The judge agreed with the defense and read the jurors Michigan’s deadlock instruction. In
part, the judge told the jurors, “I’m going to ask you to please return to the jury room and resume
your deliberations in the hope that after further discussion you will be able to reach a verdict. . . .
As you deliberate, you should carefully and seriously consider the views of your fellow jurors.
Talk things over in a spirit of fairness and frankness.” (R. 9, PageID.2089.) The judge continued,
“By reasoning the matter out jurors can often reach agreement. When you continue your
deliberations do not hesitate to re-think your own views and change your opinion if you decide it
was wrong. However, none of you should give up your honest beliefs about the weight or effect
of the evidence only because of what your fellow jurors think or only for the sake of reaching
agreement.” (R. 9, PageID.2089.)
Just one hour later, the judge’s clerk received another note from a juror. The note—which
apparently did not come from the foreperson—read, “Excuse me, Judge, one of our jury’s [sic]
doubts are unreasonable, what do we do?” (R. 9, PageID.2091.) The judge did not directly answer
the question. Instead, he told the entire jury that questions needed to come from the foreperson.
(R. 9, PageID.2094.) And, apparently because the instruction had not been previously given (R. 9,
PageID.2093), the judge further told the jury: “It is not proper for you to talk directly with the
Judge, lawyers, court officers or other people involved in the case. As you discuss the case you
must not let anyone, even me, know how your voting stands. Therefore, until you return with a
unanimous verdict do not reveal this to anyone outside of the jury room.” (R. 9, PageID.2094–
2095.)

4
APP_049

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2373

Page 5 of 21

2.
By the afternoon of the next day, August 27, 2013, the judge had received three more notes.
One was about the law of aiding and abetting. Another stated, “We the jury have a member who
is not cooperating and refuses to deliberate or prove to us her vote. She just wants a hung jury. She
also stated she had looked up the phrase to see what it meant before deliberation even started.
Please advise us on what to do in this case.” (R. 9, PageID.2367.) And the third note stated, “We
have a Jury member who SERIOUSLY doesn’t understand what REASONABLE DOUBT is!!
We have a hung jury and we need instructions!!! Help!!!” (R. 9, PageID.2368.)
Wofford’s counsel did not provide the court with an unequivocal position on how the court
should move forward in light of the two notes about deliberations. Recalling the second note from
the day before (the one not provided by the foreperson), defense counsel argued, “that note said
that one of the jurors is not being reasonable in his doubt[,] our doubts, I believe was it, but they
used the word ‘his.’” (R. 9, PageID.2101.) Although the prior note did not disclose gender (see R.
9, PageID.2091), defense counsel continued based on the mistaken premise: “now [today’s note
is] referencing a female, which is different than I think—I think we’re dealing with something
different than yesterday based on that.” (R. 9, PageID.2101.) Wofford’s counsel continued, “Part
of me wants to say mistrial.” (R. 9, PageID.2102.) But then counsel added, “if it were eleven to
one to acquit I might be—I don’t know what I would be saying[.]” (R. 9, PageID.2102.)
Although defense counsel equivocated on mistrial versus more deliberations, counsel was
unequivocal that substituting an alternate juror would risk a coerced verdict: “let’s say you bring
in an alternate tomorrow, human nature, we both know—we all know, jurors are going to say, the
other eleven, hey, this one wouldn’t cooperate, this one thought this—we had all agreed this way,
and we kicked that person off because they didn’t.” (R. 9, PageID.2102.) Counsel asked, “Do you

5
APP_050

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2374

Page 6 of 21

really think you’re going to get a fair and honest decision from that new juror that’s brought in at
that point and then put under the pressure of eleven people telling him whatever way they were
going? I don’t think that you would.” (R. 9, PageID.2102.)
In the end, the judge decided to read the jury the aiding-and-abetting instruction, the
reasonable-doubt instruction, an instruction about not seeking “outside” information, and “a
secondary deadlock instruction,” which, according to the judge, “mimic[ked] the mistrial
standard.” (R. 9, PageID.2105.)
The secondary deadlock instruction was quite similar to the first. Like before, the judge
told the jury: “When you continue your deliberations do not hesitate to re-think your own opinions
and change your opinion if you decide it was wrong. However, none of you should give up your
honest beliefs about the weight or effect of the evidence only because of what your fellow jurors
think or only for the sake of reaching a verdict excuse me, reaching agreement.” (R. 9,
PageID.2111.) But, unlike the first deadlock instruction, the judge added, “It is my duty under the
law to [e]nsure that you have engaged in full fledged deliberations while maintaining the integrity
of the judicial system. Therefore, I need to determine whether there’s any possibility, pursuant to
the instructions I have just gave you, that you cannot ultimately reach and agree on a verdict.”
(R. 9, PageID.2111.)
3.
On the fourth day of jury deliberations, August 28, 2013, there were no notes from the jury
regarding deadlock. (The jury did ask to see a shovel. (R. 9, PageID.2118.)) But this may have
been due to the fact that the judge had told the jury that notes could only come from the foreperson
and because the judge was not available to answer questions during the afternoon. (See R. 9,
PageID.2111.)

6
APP_051

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2375

Page 7 of 21

4.
Just before noon the next day, August 29, 2013, an attorney appeared in the courtroom on
behalf of one of the jurors. The attorney explained that a juror (which this Court will call “Juror
M”) had contacted him the prior afternoon. (R. 9, PageID.2116.) According to Juror M’s counsel,
“She said that she needed my help and that she was being harassed and verbally abused on a jury
that she was sitting on. And we didn’t discuss any of the facts of the case or discuss anything about
a vote or anything like that[.]” (R. 9, PageID.2116.) Apparently unaware that the judge had
previously told the jury that questions had to come from the foreperson, the attorney explained, “I
just advised her that she should notify the Court through a note to the bailiff, or whoever was
watching the jury, clerk[.]” (R. 9, PageID.2116.) The lawyer continued, “And then, you know,
later on I talked to her . . . I said look, if you’re uncomfortable . . . it was obvious she was
uncomfortable . . . . I said, you give me permission, I can notify the Court, and after several
discussions last night she instructed me to notify the Court.” (R. 9, PageID.2117.) Juror M’s
counsel further explained, “I didn’t know any of the facts. I don’t—other than what was advised
to me while we were in the hallway by [defense counsel], so I know nothing about the case other
than what [defense counsel] had told me, and of course, none of that had—had been or has been
discussed with [the juror].” (R. 9, PageID.2117.)
The prosecution, defense, and the judge then discussed what should be done. The
prosecution’s initial position was that “deliberations should continue.” (R. 9, PageID.2118.)
Wofford’s counsel argued, “The concern would be, we know from Monday afternoon that they
were eleven to one, whatever way. . . . We’ve read the deadlock instruction twice. Granted, since
the second reading we didn’t hear a thing from them yesterday, they asked only to see the
shovel . . . . And then the video again this morning. . . . [W]hatever way she’s at, obviously, we’re

7
APP_052

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2376

Page 8 of 21

assuming she’s the hold out, she’s held out at least since . . . Monday afternoon. At what point do
you a mistrial [sic] where it could be a coercive verdict and that it won’t be what we want it to be,
which is, you know, based on the evidence, her decision.” (R. 9, PageID.2118–2119.)
After a bit more argument from defense counsel, the judge jumped in: “My query to both
of you is, neither of you have mentioned that the contact [with the attorney] is a flagrant violation
of the Court’s instructions, cautionary instructions, which were not to discuss the case at all with
anyone outside of the jury room . . . . [L]et’s say she said and it’s eleven to one or gone in detail,
I think that would be certainly cause to excuse her from the jury without a blink of an eye.” (R. 9,
PageID.2119.) But then the judge said, “I’m not sure one way or the other at this point whether or
not her violation constitutes cause to excuse her. . . . That’s why I was asking a query.” (R. 9,
PageID.2119.)
Defense counsel responded, “The only reason I didn’t address that is I guess I was thinking
more in terms of discussing the facts of the case, not so much maybe what’s going on in the jury
room.” (R. 9, PageID.2120.) Defense counsel continued, “I think at this time, your Honor, we
would ask that the Court declare a mistrial, because I think that there’s going to be issues whether
it’s a coercive verdict. I don’t think that you can replace at this point with an alternate juror for the
reason, like I indicated the other day, that if you were to bring in a new person the other eleven are
going to be there and say we have one juror that was a problem.” (R. 9, PageID.2120.)
The prosecution took the position that the juror had “violated the Court’s order.” (R. 9,
PageID.2122.) But the prosecution also agreed with the defense that a mistrial was proper—with
the caveat that the mistrial be declared a “manifest necessity” so that Wofford could be retried.
(See R. 9, PageID.2121–2122.)

8
APP_053

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2377

Page 9 of 21

Despite that both the prosecution and defense asked for a mistrial, the judge refused to
declare a mistrial. He explained in part, “I have two alternates that are out there. . . . [I]f somebody
got hit by a bus this morning I would bring in the alternate juror. . . . I don’t know what the
difference is. Why should I declare a mistrial? [Defense counsel] is saying it’s going to be coercive
because we think that the person that’s going to—we don’t even know that the person that has
written the letter is the holdout, we don’t even know there is a holdout. For all we know it’s
six/six. . . . Or eight/two or eight/four or whatever it is.” (R. 9, PageID.2122.) This last statement
appears to have been based in part on defense counsel’s earlier, mistaken representation that the
August 26 note was about a male juror; the judge stated, “The first note was one gender, the second
note was another gender. . . . [T]his is just pure rank speculation at this point.” (R. 9, PageID.2123.)
In the end, the judge ruled that there had been “a flagrant violation of this Court’s jury instructions”
justifying the juror’s removal “for cause.” (R. 9, PageID.2127.) To replace Juror M, the judge
recalled one of the alternates. (R. 9, PageID.2128.)
Once the jury was reconstituted, the judge ordered the new group to “begin your
deliberations anew.” (R. 9, PageID.2138.) Yet in just over 90 minutes, the reconstituted jury found
Wofford guilty of first-degree premeditated murder and guilty of first-degree felony murder. (R. 9,
PageID.2139, 2141.)
Wofford’s mandatory sentence was life in prison without the possibility of parole. (R. 9,
PageID.2163.)
C.
1.
In his petition for habeas corpus, Wofford states, “The jury became hostile and verbally
abusive towards the holdout juror to such extent that on the third day of deliberations that juror

9
APP_054

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2378

Page 10 of 21

appeared in court with retained counsel. The court still refused to grant either the defense or
prosecution’s motion for a mistrial, but rather dismissed the holdout juror for cause, and replaced
the juror with an alternate.” (R. 1, PageID.40 (emphasis added); see also R. 1, PageID.41 (“[T]he
trial court dismissed the holdout juror and replaced her with an alternate[.]”).) Although Wofford,
proceeding pro se, cites no law suggesting that a judge’s removal of a holdout juror violated the
Constitution, his counsel did cite on-point authority on direct appeal. In particular, Wofford’s brief
to the Michigan Court of Appeals quoted the following from United States v. Thomas: “‘To remove
a juror because he is unpersuaded by the Government’s case is to deny the defendant his right to a
unanimous verdict. . . If the record raises any possibility that the juror’s views on the merits of the
case, rather than a purposeful intent to disregard the court’s instructions, underlay the request that
he be discharged, the juror must not be dismissed.’” (R. 9, PageID.2212 (quoting 116 F.3d 606,
621, 622 n.11 (2d Cir. 1997).) Thus, construing Wofford’s pro se petition liberally, Erickson v.
Pardus, 551 U.S. 89, 94 (2007), Wofford claims that his Sixth Amendment right to a unanimous
verdict was violated when the holdout juror was replaced by an alternate (see R. 1, PageID.40–
41).
2.
There is support for this constitutional right among the federal courts of appeal.
In United States v. Brown, a juror in part indicated that he wanted to be discharged from
deliberations because he did not agree with the law (“at this point I can’t go along with that act”)
and in part indicated that he wanted to be discharged because he thought the government’s
evidence was insufficient for a conviction (“[i]f the evidence was presented in a fashion in which
the law is written, then, maybe, I would be able to discharge my duties”). 823 F.2d 591, 594–95
(D.C. Cir. 1987). The trial judge removed the juror on the grounds that he “would not follow the

10
APP_055

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2379

Page 11 of 21

law” and the remaining eleven jurors voted to convict. Id. The D.C. Circuit reversed. Recognizing
that granting a juror’s request to be discharged on the basis that the juror was not convinced of the
government’s case would render the defendant’s right to a unanimous verdict “illusory,” but also
recognizing that a trial judge cannot probe deeply into the juror’s reasons for requesting discharge
without “intrud[ing] on the secrecy of the jury’s deliberations,” the D.C. Circuit came up with a
test that favored limited probing: “if the record evidence discloses any possibility that the request
to discharge stems from the juror’s view of the sufficiency of the government’s evidence, the court
must deny the request.” Id. at 596. Turning to the facts before it, the court held, “Given the
possibility—which in this case we think a likelihood—that [the juror’s] desire to quit deliberations
stemmed from his belief that the evidence was inadequate to support a conviction, we must find
that his dismissal violated the [defendants’] right to a unanimous jury verdict.” Id. at 597.
In United States v. Thomas—the decision Wofford flagged for the Michigan Court of
Appeals and the Michigan Supreme Court—jurors indicated to the court that there were issues
with how “Juror No. 5” was deliberating, including that his “predisposed disposition” was
precluding a verdict. 116 F.3d 606, 611 (2d Cir. 1997). During in camera interviews, some jurors
expressed that Juror No. 5 favored acquittal for reasons unrelated to the evidence (e.g., that the
defendants needed to deal drugs out of economic necessity), while other jurors thought Juror No. 5
“was discussing the evidence.” Id. at 611. The judge ultimately removed Juror No. 5, finding that
he had “preconceived, fixed, cultural, economic, [or] social . . . reasons that are totally improper.”
Id. at 612. The remaining 11 jurors convicted. Id. at 612. The Second Circuit, adopting the test
from Brown, vacated the convictions: “[W]e are required to vacate these judgments because the
court dismissed Juror No. 5 largely on the ground that the juror was acting in purposeful disregard
of the court’s instructions on the law, when the record evidence raises a possibility that the juror

11
APP_056

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2380

Page 12 of 21

was simply unpersuaded by the Government’s case against the defendants.” Id. at 624; see also id.
at 622 n.11 (“[I]f the record raises any possibility that the juror’s views on the merits of the case,
rather than a purposeful intent to disregard the court’s instructions, underlay the request that he be
discharged, the juror must not be dismissed.”).
The Ninth Circuit, after reviewing both Thomas and Brown, reached a similar conclusion
on similar facts. In United States v. Symington, the jurors provided the court with a note stating
that one juror, Cotey, was unable to deliberate because, among other things, she was incapable of
focusing and recalling the topics that had been discussed. 195 F.3d 1080, 1083 (9th Cir. 1999).
The jurors thought it best that Cotey be dismissed. Id. But upon questioning, some jurors indicated
that “their frustration with Cotey may have derived more from their disagreement with her on the
merits of the case, or at least from their dissatisfaction with her defense of her views.” Id. at 1084.
The judge ultimately dismissed Cotey “for just cause for being either unwilling or unable to
participate in the deliberative process in accordance with the instructions of the Court.” Id. An
alternate juror took Cotey’s place, the reconstituted jury began deliberations anew, and the
reconstituted jury convicted Symington. Id. On appeal, the Ninth Circuit, modifying Brown
slightly, held that “if the record evidence discloses any reasonable possibility that the impetus for
a juror’s dismissal stems from the juror’s views on the merits of the case, the court must not dismiss
the juror.” Id. at 1087. Because “there was a reasonable possibility that Juror Cotey’s views on the
merits of the case provided the impetus for her removal,” her dismissal was improper. Id. at 1087;
see also Williams v. Cavazos, 646 F.3d 626, 643 (9th Cir. 2011) (“It would . . . vitiate the essential
role of a jury to act as a safeguard against both the power of the state and the court for a judge to
selectively dismiss jurors based on the views of the merits of the case they express during

12
APP_057

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2381

Page 13 of 21

deliberations” (internal quotation marks omitted)), rev’d on other grounds sub nom. Johnson v.
Williams, 568 U.S. 289 (2013).
3.
Despite that Wofford argued that the trial judge had wrongly removed a holdout and quoted
the corresponding language from Thomas in his appellate brief, the Michigan Court of Appeals
never even mentioned Thomas or the language he quoted. Nor did the state appellate court cite
Brown, Symington, or a like case. And while it cited numerous decisions by Michigan courts, none
of those decisions involved the test set out in Brown, Thomas, and Symington.
Perhaps the closest the Michigan Court of Appeals came to applying the law of those
federal appeals cases was its application of People v. Tate, 624 N.W.2d 524 (Mich. Ct. App. 2001).
See Wofford, 2015 WL 1214463, at *2 (quoting Tate, 624 N.W.2d at 529). The relevant portion of
Tate states, “while a defendant has a fundamental interest in retaining the composition of the jury
as originally chosen, he has an equally fundamental right to have a fair and impartial jury made
up of persons able and willing to cooperate, a right that is protected by removing a juror unable or
unwilling to cooperate.” 624 N.W.2d at 529 (emphasis added). But the emphasized language
apparently stems from a line of federal cases holding that once a jury is empaneled, the defendant
has a right to conclude his jeopardy (i.e., that by declaring a mistrial too soon, a trial court may
infringe the defendant’s Fifth Amendment right to end his jeopardy). See Tate, 624 N.W.2d at 529
(citing People v. Dry Land Marina, Inc., 437 N.W.2d 391, 392 (Mich. Ct. App. 1989)); Dry Land
Marina, 437 N.W.2d at 392 (citing United States v. Jorn, 400 U.S. 470, 479 (1971)); Jorn, 400
U.S. at 479 (“The Fifth Amendment’s prohibition against placing a defendant ‘twice in jeopardy’
represents a constitutional policy of finality for the defendant’s benefit in federal criminal
proceedings.”). The Fifth Amendment right to avoid prolonged (or double) jeopardy is not the

13
APP_058

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2382

Page 14 of 21

same as the Sixth Amendment right to a unanimous verdict. Thus, this case is unlike Johnson v.
Williams, where the Supreme Court reversed the Ninth Circuit’s de novo application of Symington.
See 568 U.S. 289, 305 (2013) (finding § 2254(d) applied where state court cited Cleveland, and,
in turn, Cleveland discussed Brown, Thomas, and Symington).
In other words, the Michigan Court of Appeals never addressed “the merits” of Wofford’s
claim that his Sixth Amendment right to a unanimous verdict was violated. See 28 U.S.C.
§ 2254(d).
And neither did the Michigan Supreme Court. Because it was “not persuaded that the
questions presented should be reviewed,” People v. Wofford, N.W.2d 598 (Mich. 2015), it denied
Wofford’s petition without reaching the merits, see Hickey v. Hoffner, 701 F. App’x 422, 425 (6th
Cir. 2017); Hynes v. Birkett, 526 F. App’x 515, 519 (6th Cir. 2013). And even if its unpersuadedto-review language is somehow a merits decision, that decision presumably “adopted” the
reasoning of the Michigan Court of Appeals. See Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018);
Ylst v. Nunnemaker, 501 U.S. 797, 803 (1991). And, as just stated, the Michigan Court of Appeals
never addressed the Sixth Amendment unanimous-verdict claim Wofford presented.
In sum, although this Court is to presume that state appellate courts address all the claims
that a criminal defendant presents, this is the rare case when the claim was presented to the state
courts but simply went unaddressed because similar—but constitutionally distinct—claims were
also presented. See Johnson, 568 U.S. at 303 (“When the evidence leads very clearly to the
conclusion that a federal claim was inadvertently overlooked in state court, § 2254(d) entitles the
prisoner to an unencumbered opportunity to make his case before a federal judge.”). Because no
state court addressed “the merits” of Wofford’s claim that his Sixth Amendment right to a

14
APP_059

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2383

Page 15 of 21

unanimous verdict was violated by the removal of a holdout juror, 28 U.S.C. § 2254(d) presents
no bar to relief.
4.
But that does not mean that this Court addresses Wofford’s claim under Brown, Thomas,
and Symington on a completely blank slate. In particular, under 28 U.S.C. § 2254(e)(1), this Court
must “presume[]” that the factual findings of the Michigan Court of Appeals are correct unless
they are rebutted by “clear and convincing evidence.”
One finding is rebutted by clear and convincing evidence. Specifically, the Michigan Court
of Appeals twice stated that there was “no evidence” of “what way the jury was leaning” or “the
potential division” at the time Juror M was removed. Wofford, 2015 WL 1214463, at *2; see also
id. at *3 (“[T]here is no evidence regarding what way the jury was leaning at the time of [Juror
M’s] removal.”). It simply is not true that there was “no evidence” where the votes stood when
Juror M was removed. The jury told the judge that it was 11 to 1 on Monday; later that same day
a note referred to “one of our jury’s [sic] doubts”; on Tuesday, one note again referenced a single
juror and the other note not only referenced a single juror, but a single, female juror; on Thursday,
an attorney said that a juror had reported that “she” was being harassed and verbally abused by the
other jurors. So all along the way, there was but one holdout: Juror M. (As for the Michigan Court
of Appeals’ suggestion that it could have been 11 to 1 in favor of Wofford, the reconstituted jury’s
90-minute conviction makes that inference unreasonable.)
The other two factual findings might not be rebutted by clear and convincing evidence. The
Michigan Court of Appeals found that “the trial court did not remove [Juror M] because she was
a lone hold-out who was standing in the way of conviction.” Wofford, 2015 WL 1214463, at *2. It

15
APP_060

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2384

Page 16 of 21

also found that “the record clearly demonstrates that the trial court removed this juror because she
flagrantly violated the court’s instructions.” Id. at *2.
This Court is skeptical. As just stated, it was obvious to all that from the time of the very
first note, there was a single holdout. Consider too that the judge said, “I’m not sure one way or
the other at this point whether or not [Juror M’s] violation constitutes cause to excuse her,” then,
without any new insight from counsel on that particular issue, found that Juror M’s conversation
with an attorney “flagrant[ly]” violated his instructions. (R. 9, PageID.2128.) And if Juror M
flagrantly violated the court’s instructions by contacting an attorney, why were the notes from the
jury indicating where they stood not also a “flagrant” violation of his instructions? Yet the
foreperson was not removed.
The Court’s skepticism aside, the trial judge’s statements that a mistrial would be based on
“speculation and conjecture about what’s going on in the jury room” and that Juror M had
flagrantly violated his instructions suggest that, in the judge’s mind, Juror M was not the holdout
and that, in his mind, the problem with Juror M was that she violated his instructions. Thus, this
Court will presume that (1) “the trial court did not remove [Juror M] because she was a lone holdout who was standing in the way of conviction” and (2) “the trial court removed this juror because
she flagrantly violated the court’s instructions,” Wofford, 2015 WL 1214463, at *2. See 28 U.S.C.
§ 2254(e)(1).
But that presumption does not end the inquiry into whether removing Juror M violated
Wofford’s Sixth Amendment right to a unanimous jury. All that the Michigan Court of Appeals
found was the reason the judge removed Juror M was because she violated his instructions. Yet
the judge’s thinking is not dispositive. Indeed, in each of Brown, Thomas, and Symington, the trial
court stated on the record that the removal of the holdout juror was because the juror was unwilling

16
APP_061

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2385

Page 17 of 21

or unable to deliberate in accordance with the jury instructions; not one judge said removal was
because the juror was a holdout. So in each of those cases it would have been accurate to say, just
as the Michigan Court of Appeals said here, that “the trial court did not remove [the juror] because
she was a lone hold-out” and “the trial court removed this juror because she flagrantly violated the
court’s instructions” (perhaps without the “flagrantly”). Indeed, in Thomas, the Second Circuit
vacated the conviction while expressly declining to decide “whether the record reveals an intention
on the part of the court to remove Juror No. 5 as a means of achieving jury unanimity.” 116 F.3d
at 624.
5.
Thus, even taking the facts as the Michigan Court of Appeals found them, this question
remains: Does “the record evidence disclose[] [a] reasonable possibility that the impetus for [Juror
M’s] dismissal stem[med] from [her] views on the merits of the case?” Symington, 195 F.3d at
1087. In this Court’s view, the answer to this question is “yes.”
Consider the entire chronology. On the second day of deliberations, the jurors told the
judge that they were “eleven to one with no chance of the one moving their view.” (R. 9,
PageID.2084.) This led to a deadlock instruction. But just an hour later, came a second note:
“Excuse me, Judge, one of our jury’s [sic] doubts are unreasonable, what do we do?” (R. 9,
PageID.2091.) Then the next day, two more: “We the jury have a member who is not cooperating
and refuses to deliberate or prove to us her vote” and “We have a Jury member who SERIOUSLY
doesn’t understand what REASONABLE DOUBT is!! We have a hung jury and we need
instructions!!! Help!!!” (R. 9, PageID.2367–2368.) Then a day and a half later, following a second
deadlock instruction, an attorney appears in court to tell the judge he is representing a juror who
“was being harassed and verbally abused.” (R. 9, PageID.2116.) Thus, the record evidence

17
APP_062

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2386

Page 18 of 21

establishes a reasonable possibility that what led to the notes, what led to Juror M contacting an
attorney, and what put the issue of Juror M’s removal before the judge was Juror M’s views about
the merits of the case. As the trial judge himself stated, “I’ve got a juror that’s violated the
instructions, she—obviously she felt compelled to do it.” (R. 9, PageID.2123.) So even if the trial
judge removed Juror M because she violated his instructions, see 28 U.S.C. § 2254(e)(1), there
remains a reasonable possibility that the “impetus” for Juror M’s removal was that she was the
holdout, see Symington, 195 F.3d at 1088 n.9 (“[B]ecause it was reasonably possible that the
problems all stemmed from the other jurors’ disagreement with her position on the merits, it was
error to continue the case without her.” (emphasis added)).
Wofford was thus deprived of his Sixth Amendment right to a unanimous verdict and so
the Court will grant Wofford the relief that the prosecution had agreed to years ago: a retrial.
That relief means that the Court need not address Wofford’s other claims based on the
jury’s deliberations (e.g., that the trial court should have declared the jury hung at some point after
the second deadlock instruction or that the reconstituted jury’s guilty verdict was coerced). Success
on these claims would at most entitle Wofford to a retrial.
II.
But success on a sufficiency-of-evidence claim would end Wofford’s jeopardy completely;
so the Court must address that claim.
To assess a sufficiency-of-evidence claim, “the relevant question is whether, after viewing
the evidence in the light most favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt.” Jackson v. Virginia, 443
U.S. 307, 319 (1979). “The Jackson v. Virginia standard ‘gives full play to the responsibility of
the trier of fact fairly to resolve conflicts in the testimony, to weigh the evidence, and to draw

18
APP_063

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2387

Page 19 of 21

reasonable inferences from basic facts to ultimate facts.’” Davis v. Lafler, 658 F.3d 525, 531 (6th
Cir. 2011) (en banc) (quoting Jackson, 443 U.S. at 319). The standard “is so demanding that ‘[a]
defendant who challenges the sufficiency of the evidence to sustain his conviction faces a nearly
insurmountable hurdle.’” Id. at 534 (quoting United States v. Oros, 578 F.3d 703, 710 (7th Cir.
2009)). And when, as here, a state court has ruled “on the merits” of a claim under Jackson, see
28 U.S.C. § 2554(d), “the law commands deference at two levels”: “First, deference should be
given to the trier-of-fact’s verdict, as contemplated by Jackson; second, deference should be given
to the Michigan [Court of Appeals’] consideration of the trier-of-fact’s verdict, as dictated by
AEDPA.” Id. at 531.
Wofford points out that the palm print found at the crime scene did not match his palm
print. (R. 1, PageID.47.) And he points out that the footwear impressions from the scene did not
match the shoes he was wearing when the police interviewed him a day or so after Gilmore’s death.
(R. 1, PageID.47; see also R. 9, PageID.1692, 1820–1821, 1849.) He also points out that the two
hairs and the blood with his DNA were all found in his general work area and that, in his line of
work, it would not be unusual to sustain a cut. (R. 1, PageID.24, 46.) Further, Gilmore was
apparently assaulted and strangled to death, yet samples of the blood taken from Gilmore’s body
did not turn up any of Wofford’s DNA. (R. 9, PageID.1541–1542.) And on the night of Gilmore’s
murder, Wofford and a friend were out late drinking and at 8:30 a.m., the friend found Wofford
asleep on the floor. (R. 1, PageID.48; R. 9, PageID.998.) Wofford was still wearing the clothes he
had on the night before. (R. 1, PageID.48; R. 9, PageID.998.) Further, the jury heard Wofford’s
grand-jury testimony where he denied involvement. (R. 9, PageID.1795–1796.)
But this evidence does not show that the Michigan Court of Appeals unreasonably found
that Wofford did not clear Jackson’s “near[] insurmountable hurdle,” Lafler, 658 F.3d at 531

19
APP_064

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2388

Page 20 of 21

(internal quotation marks omitted). See 28 U.S.C. § 2254(d). First consider motive. There was
testimony suggesting that Wofford was short on money around the time of Gilmore’s death. (R. 9,
PageID.733–734.) And there was evidence suggesting that the person who broke in was someone
familiar with the building (R. 9, PageID.PageID.679, 727, 849, 854, 956, 971, 1149–1151, 1967)
and that Gilmore might have recognized Wofford (R. 9, PageID.1760). So the Michigan Court of
Appeals was not unreasonable to find that a jury could have inferred that Wofford “had a motive
to steal” and “had a motive to kill the victim because the victim could identify him.” Wofford,
2015 WL 1214463, at *4. Next consider opportunity. The friend that Wofford had gone to the bar
with testified that around 2:30 or 3:00 a.m., Wofford said that “he had something to do.” (R. 9,
PageID.995–996.) And there was testimony that a dog not far from the place where Gilmore was
killed went “ballistic” sometime between 1:00 and 4:00 a.m. (R. 9, PageID.1091–1092.) True,
Wofford’s friend was “foggy” from drinking that night. (R. 9, PageID.1063.) Even so, it was not
unreasonable for the Michigan Court of Appeals to find that “[t]he jury could infer that [Wofford]
committed the offenses between the time he left [his friend’s] house and returned.” 2015 WL
1214463, at *4. Finally, given the DNA evidence showing that it was Wofford’s hairs found on
the duct tape, the Michigan Court of Appeals reasonably found that “[t]he jury could infer . . . that
defendant entered through the metal-covered window, cut himself on the broken glass fragments,
caught his hair on the duct tape that had secured the metal to the window[.]” 2015 WL 1214463,
at *3. A possible motive and opportunity, coupled with some DNA evidence that Wofford entered
through the sheet-metal-covered window, made it reasonable for the Michigan Court of Appeals
to find that “[s]ufficient evidence supported [Wofford’s] conviction.” Id. at *4.
In short, 28 U.S.C. § 2254(d) bars relief on Wofford’s claim that the evidence at trial was
constitutionally insufficient.

20
APP_065

Case 2:16-cv-13083-LJM-RSW ECF No. 10 filed 11/05/18

PageID.2389

Page 21 of 21

III.
For the reasons given, the Court CONDITIONALLY GRANTS Wofford’s petition for a
writ of habeas corpus. Respondent is to serve a copy of this opinion and order on the Oakland
County Prosecutor’s Office and appropriate state court. Respondent shall release Wofford from
custody unless the State brings him to trial again within 90 days from entry of this order. Pursuant
to 18 U.S.C. § 3006A(a)(2)(B), the Court appoints the Federal Community Defender of the Eastern
District of Michigan to represent Wofford in this habeas corpus proceeding only.
SO ORDERED.
s/Laurie J. Michelson
LAURIE J. MICHELSON
UNITED STATES DISTRICT JUDGE

Date: November 5, 2018

I hereby certify that a copy of the foregoing document was served upon counsel of record
and/or pro se parties on this date, November 5, 2018, by electronic and/or ordinary mail.

s/William Barkholz
Case Manager

21
APP_066

A-3

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2319

Order

Page 1 of 50

Michigan Supreme Court
Lansing, Michigan
Robert P. Young, Jr.,

September 29, 2015

Chief Justice

Stephen J. Markman
Mary Beth Kelly
Brian K. Zahra
Bridget M. McCormack
David F. Viviano
Richard H. Bernstein,

151542

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v

Justices

SC: 151542
COA: 318642
Oakland CC: 2012-241569-FC

MELVIN JAMES WOFFORD,
Defendant-Appellant.
_________________________________________/
On order of the Court, the application for leave to appeal the March 17, 2015
judgment of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
September 29, 2015
s0921

Clerk

APP_067

A-4

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2320

Page 2 of 50

IN T H E S U P R E M E C O U R T F O R T H E S T A T E O F MICHIGAN
P E O P L E O F T H E S T A T E O F MICHIGAN,

Supreme Court No.

^

Court of Appeals No.

Plaintiff-Appellee,
YVl

f

i \ /

i\l

) J \ J C / ^

.

I

K l L ' l : ^ ^ mti^ero^s
,

3TTT^/Sl.

(From Court of Appeals decision.)

Trial Court No. A t ^ g - AM i S ^ q - f r '

iin.o

,

.

( S e e Court of Appeals brief or Presenter>CB InvesUqation Report 1

Defendant-Appellant.
n*!? Al^^fiJ^?'^^^^"^'^^,^^*'^''''^^^^^^ Add more pages if you need more space. NOTE: If you are appealing a Court
»^
^" administrative agency or a civil action, you will have to replace this page with one
containing the relevant infonnation for that case.

PRO P E R APPLICATION FOR L E A V E TO A P P E A L
1. I was found guilty on

2. I was convicted of (Name ofofTense)

3. I had a •

% -

(Date of Piea or Verdict)

guilty plea; •

C"

^

' f r J-: m

no contest plea;

4. I was sentenced by Judge fAickAe

" XO i 3

rDi^rdcC

d i'-tcifjrA

Kl jury trial; •

trial by judge.

Li/cXfir^rJ

on

(Print or type name of Judge)
' " '

in the Oo^K la.inJ<L
years

/^7- J -

(MarK one that applies.)

L3

^ —
(Print or t ^ e dale you were sentenced)

County Circuit Court to f/^HT

(Name of county vitiere you were sentenced)

to

i y \ / f h t .

years / / fe months

, ,
.
,
(Put minimum sentence here)

months, and to

(Print or type maidmum sentence)

years _____ months to
,
,
(Minimum sentence)

I am in prison at the ^tx«^;AicvuJ

(Lor^ -

years

months.

, .
(Maidmum sentence)

Ky^d ,{'\\/'

in / - v r ^ l<it\)A.

(Print or type riamo of prison)

5. The Court of Appeals affirmed my conviction on

Michigan.

_ ,
.
. •
(Print or type city where prison is located.)

Z - i y - dLOi6>

,

(Print or type date stamped on Court of Appeals dscisior)

in case number

6>^f ^

. A copy of that decision is attached.

(Print or type number on Court of Appeals decision)

6. CH This application is filed within 56 days of the Court of Appeals decision.
within 56 days of date on Court of Appeals decision in criminal cases and 42 days in civil c a s e s .

(it M U S T be received by the court

Delayed applications are NOT permitted,

effective September 1, 2003.)

MAY , 5 2015

e 2003 Prison Legal Services of Michigan. Inc

PLSM S E L F - H E L P PACKET

PAGE1OF9

P L S M S 4 163 08.14.03

APP_068

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2321

Page 3 of 50

PRO P E R APPLICATION FOR L E A V E TO A P P E A L cont.
_, Defendant-Appellant

CA No.

n y S T R U C T I O N S : In the part below, only bring up issues that were In your Court of Appeals brief. Attach a copy of your
Court of Appeals bnef if possible. If you prepared a supplemental brief which was filed in the Court of Appeals, those issues
go in this part also. You should attach a copy of that brief, too. if you can. New issues go in question 8 on page 7

GROUNDS - ISSUES RAISED IN COURT OF A P P E A L S
7. I want the Court to consider the issues as raised in my Court of Appeals brief and the additional
information below.
I S S U E I-.
A.

(Copy the headnote, the

TTH-

hi/

title

of the issue,

Je'^^"^'^

^

from

your

Court

of Appeals

/?1rhjc.€ford.

brief.)

I-//r5

S

t

/ I ^ n i ^

rn^n/tl

B. The Court should review the Court of Appeals decision on this issue because: (Check all the ones you think
apply to this issue, but you must check at least one.)

•
1. The issue raises a serious question about the legality of a law passed by the legislature.
D 2 x - ^ h e issue raises a legal principle which is very important to Michigan law.
S ^ .
The Court of Appeals decision is clearty wrong and will cause an important injustice to me.
•
4. The decision conflicts with a Supreme Court decision or another decision of the Court of
Appeals.
C.

(Explain why you think the choices you checked in "B" apply to this issue. List any c a s e s that you want the Supreme
Court to consider. State any facts which you want the Court to consider. If you think the Court of Appeals mixed up
any facts about this issue, explain here. If you need more space, you can add more pages.)

uJzic^k

file,

o^dh'a^s

e» 2Q03 Prison Legal Services of Michigan. Inc

<y^

t h e

/ O U J C C

PLSM S E L F - H E L P PACKET

CI^K^X^^

P A G E 2 OF 9

n?

P L S M S 4 1 6 3 08.14.03

APP_069

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2322

Page 4 of 50

PRO P E R APPLICATION FOR L E A V E TO A P P E A L (cont.)

A ? R / V ; A J

f.)n{^fr>nJ

Defendant-Appellant

CA No.

I N S T R U C T I O N S ; In the part below, only bring up issues that were in your Court of Appeals brief. Attach a copy of your
Court of Appeals brief if possible. If you prepared a supplennental brief which was filed in the Court of Appeals, those issues
go in this part also. You should attach a copy of that brief, too, if you can. New issues go in question 8, on page 7.

ISSUE II:
A. (Copy the headnote, the title of the issue, from your Court of Appeals brief.)

B. The Court should review the Court of Appeals decision on this Issue because; (Check all the ones you think
apply to this issue, but you must check at least one.)

[ m 1. The issue raises'a serious question about the legality of a law passed by the legislature.
The issue raises a legal principle which is very important to Michigan law.
IxT 3,

The Court of Appeals decision is cleariy wrong and will cause an important injustice to me.

CZ] 4.

The decision conflicts with a Supreme Court decision or another decision of the Court of
Appeals.

C.

(Explain why you think the choices you checked in B apply to this issue. List any c a s e s that you want the Supreme
Court to consider. State any facts which you want the Court to consider. If you think the Court of Appeals mixed up
any facts about this issue, explain here. If you need more space, you can add more pages.)

f^/tvc^T

\JI<*^^

- w o

u

m

P r / h j f s
~

TfxfL.

o f

rrny\!^

g</*c/-£^CS-

<o<pp>^'Jlei'

© 2 0 0 3 Prison Legal Services of Michigan. Inc

\:sr'it^'Q

orO

o r

OyiTcAjo/cL

^ U e x j

^fede:^

PLSM S E L F - H E L P PACKET

,

-fl^^,

ujcx.s

tWcCT Ir^j^sT^ ^

P A G E 3 OF 9

PLSM S4163 08.14.03

APP_070

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2323

Page 5 of 50

RELIEF REQUESTED

9. For the above reasons I request that this Court GRANT leave to appeal. APPOINT

a lawyer

to represent me. and GRANT any other relief it decides I a m entitled to receive.

I

/ ^ P

/

r^/r>r>

(Sign
(Sign your
your name
name l)fe;€.)/i

.

I

e 2003 Prison Legal Services of Michigan. Inc

PLSM S E L F - H E L P P A C K E T

(Print your address here.)

PAGE9OF9

P L S M S4163 08.14.03

APP_071

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2324

Page 6 of 50

IN THE SUPREME COURT FOR THE STATE OF MICHIGAN
^M*^!^

^tctV^

o f M^oln

Ua^

Supreme Court No.

(Print the name of the opposing party, e.g., "People of the Slate of Michigarf^

Plaintiff-Appellee.
V

{

}

•

y

r^r~~~

(AJr>f\rO<rS

(Leave blank.)

Court of Appeals No.

I

^

/

-^^^ r »

(From Court of Appeals dedsion.)

Trial Court No. QiOiy.-':)^-

(Pnnt the name you were convicted under on this line.)

f

— — — ^ ' ^
*
'••—
(Sea Court of Appeals brief or Presentence Investigation Report.]

Defendant-Appellant.

MOTION F O R W A I V E R O F F E E S AND C O S T S

Appellant, pursuant to MCR 7.319(7)(h) and MCL 600.2963, for the reasons stated in the
attached affidavit of indigency, requests that this Court: (Check the ones that apply to you.)
G R A N T a waiver pursuant to M C R 7.319(7)(h) of all fees required for filing the attached
pleadings because the provisions of MCL 600.2963, requiring prisoners to pay filing fees
do not apply to appeals from a decision involving a criminal conviction or appeals from a
decision of an administrative agency. The statute applies exdusivelyto prisoners filing civil
cases and appeals in civil cases.
•

G R A N T a waiver pursuant to M C R 7.319{7)(h) of all fees required for filing the attached
pleadings because the provisions of MCL 600.2963, requiring only indigent prisoners to
pay court filing fees violates the equal protection provision of the Michigan Constitution,
Art I, Sec 2.

•

Temporarily waive the initial partial payment o f filing fees for t h e attached pleadings a n d
order the Michigan Department of Correction t o collect and pay the money to this Court at
a later date in accordance with MCL 600.2963, when the money becomes available in
appellant's prison a c c o u n t If the Court does not allow this, I will be prevented from filing
the attached pleading in a timely manned.

•

Allow an initial partial payment of $
of the fee for filing the attached pleadings
and order the Michigan Department of Correction to collect the remaining money and pay
it t o this Court at a later date in accordance with M C L 600.2963, a s additional m o n e y
becomes available in my prison a c c o u n t If the Court does not allow this, I will be
prevented from filing the attached pleading in a timely manner.

IDat^T

^
(Sign your name here.)

(Hnnt your name and riuriiBer heriH

© 2003 Prison Legal Services of Michigan. Inc

^
'
(Print your address here.)

PLSM S E L F - H E L P PACKET

= ~

PAGE 1 OF 1

P L S M S4163 08.1-4.03

APP_072

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2325

Page 7 of 50

IN THE SUPREME COURT FOR THE STATE OF MICHIGAN
Supreme Court No.

(Print the nflme of the opposing party, a.g. 'People ot lha Slate of Michigan.")

Plaintiff-Appellee,
V

(Leave Wank.)

Court of Appeals No.

r \

/

3-^
(From Court of Appeals dedston.)

(Hnnt the nar^ie you were convicted unde/ on t^iis line.)

^^^^

^ p ^ ^ , ^ ^^^^

Presentence Investigation Report.)

Defendant-Appellant.

AFFIDAVIT OF INDIGENCY ,
1. M v n a m e i s y j i g l i ; / n /

U l o i \ ^ t d l am in prison at

(Type or pnni your name here.)

l\^y prison number is S ^ 5 " i g ^ ^

C Q / C - .

Vtf».Ot'li r y i n f ' r ^ r ^ l c x ^ o M I .

~~
~ ~
^
(Name of prison)

IVIy income and assets are:

—'

i.
^
• i ^ jv
(dty where prison is located)

(Check the ones that apply to you.)

(Your prison number.)

•
0 S
EL

M y only source of income is from m y prison j o b and 1 make $
I have no income.
I have n o assets that can b e converted to cash.
I can not pay the filing fees for the attached application.

per day.

I ask this Court to waive the filing fee in this matter.
I declare that the statements above are true to the best of my knowledge, information and belief.

(Sign your name here-)

/

'

/

(Knnt jrair narrie here.)

PROOF OF S E R V I C E
On
below:
S
H
CH
S
[m
"TO:

, 200

I mailed by U.S. mail one copy of the documents cheeked

(Put a check mark by the ones you mailetl.)

Affidavit of Indigency and Proof of Service
Motion to Waive Fees and Costs
Statement of Prisoner Account (this is not necessary in criminal appeals)
Pro Per Application for Leave to Appeal with a copy of Court of Appeals Decision
Court of Appeals Brief
Supplemental Court of Appeals Brief
PJr^ / < I r j , n r l
(Name of county where you were sentenced)
r\
1

County Prosecutor. IXoo

fJ

" ,
,

, I

^^at

TPJ^^A^^P^

(Address)

I
^

f

(City)
(Zip Code)

I declare that the statements above are true to the best of my knowledge, information and belief.
(Date)
(Sign your name here.)
(Print your name here.)

© 2003 Prison Legal Services of Michigan. Inc

PLSM SELF-HELP PACKET

PAGE 1 OF 1

P L S M S416308.14.03

APP_073

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2326

Page 8 of 50

COVER L E T T E R
(Put Today^ Date)

Clerk
Michigan Supreme Court
P.O. Box 30052
Lansing, Ml 48909

(Print the name of the opposing parly, e.g., "People of the S t a ^ of Michigan.")

Supreme Court No.

(Print the name you were convicted under here.)

(Leave blank - the Clerk will assign a number for you.)

Court of Appeals No.

(Get this number from the Court of Appeals decision.)

Trial Court No. 20\lk

'2,'\{Si^<{'fC

(Get this number from Court of Appeals brief or
Presentence Investigation Report.)

Dear Clerk:
Enclosed please find the original of the pleadings checked below. (Put a check mark by the items
you are sending.) I am indigent and can not provide seven copies. Please file them.
Affidavit of Indigency/Proof of Service
Motion to Waive Fees and Costs
Statement of Prisoner Account (this is not necessary in criminal appeals)
Pro Per Application for Leave to Appeal
Court of Appeals Decision (You must enclose a copy of the Court of Appeals decision.)
Court of Appeals Brief (This is not necessary, but it is a good idea.)
Supplemental Court of Appeals Brief (This is not necessary, but it Is a good Idea.)
Other

Thank you.

INSTRUCTIONS

WAY ^ 5 im

Sincerely,

UARRYS. R0Y3TER

^

f \ ;:Y6U
need 2 copied:and
:.- the original of this letter and
^5.'; the pleadings'iisteB a

(SignI your name here.)

Mair.the prigina^^ ,,6f this letter
'and all the'pieadingsljsted
'at)6vB t6'the;Supreme^^C^^

(Prim or typA ^Mjr name liero,)

;CQUil'Cierk:/;':-f:;';;^"J'^
(Print or type your prisoner number here.)

Mail 1"copy of letteY;and >
:;p|iaadings tothBiprosecutor
' i n the' county wh ere! you rr;, ^ •
"were'cdnVicted.-:; - -

[Print or type your address hare.)

(Print or type your City, State, and Zip Coda here.)

Copy sent to:
(Fill in the county wtiere you were convicted.)

4.. . : ,Keep 1 copy of letter arid.

County Prosecutor

'2003 Prison Legal Services of Michigan, Inc.

PLSM SELF-HELP PACKET

l \ pleadings for your.file.

Page 1 of 1

P L S M S 4 1 6 3 08.14.03

APP_074

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

STATE
COURT

OF

PageID.2327

Page 9 of 50

MICHIGAN

OF

APPEALS

PEOPLE OF THE STATE OF MICfflGAN,

UNPUBLISHED
March 17,2015

Plaintiff-Appellee,
V

No. 318642
Oakland Circuit Court

MELVIN JAMES WOFFORD,

LC No. 2012-241569-FC

Defendant-Ap pell ant.
Before: DONOFRIO, PJ., and RiORDAN and G A D O L A , JJ.
PER CURIAM.

Defendant, Melvin James Wofford, appeals as of right his conviction of first-degree
premeditated murder, MCL 750.316(1 )(a) and (b). During the course of burglarizing the
victim's, Thomas Gilmore's, place of business on June 22 or 23, 1993, defendant fatally
strangled Gilmore. Defendant was sentenced to life in prison. We affirm.
I . JURY DELIBERATIONS
A. STANDARD OF REVIEW
Defendant first contends that he was denied due process when the trial court removed a
juror during deliberations and replaced her with an alternate instead of granting a mistrial. We
review the trial court's decision on a motion for a mistrial and decision to remove a juror for an
abuse of discretion. People v Coy, 258 Mich App 1,17; 669 NW2d 831 (2003); People v Tate,
244 Mich App 553, 559-560; 624 NW2d 524 (2001). "An abuse of discretion occurs when the
court chooses an outcome that falls outside the range of reasonable and principled outcomes."
People V Unger, 278 Mich App 210, 217; 749 NW2d 272 (2008). "A trial court should grant a
mistrial only for an irregularity that is prejudicial to the rights of the defendant and impairs his
ability to get a fair trial." People v Schaw, 288 Mich App 231, 236; 791 NW2d 743 (2010)
(quotation marks and citation omitted).
B. ANALYSIS
On the second day of jury deliberations, the jury sent a note to the court indicating that
the jurors were 11 to 1, with no chance of the one changing his or her view. The court instructed
the jury to resume deliberations in the hope that further discussion would result in a verdict. An
hour later, the court received another note in which the jury indicated that the doubts of one of
-1-

APP_075

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2328

Page 10 of 50

vf.

the jurors were unreasonable, and requested advice regarding how to proceed. The court
instructed the jury that, i f it wished to communicate with the court, any note had to come from
the foreperson. The court also reminded the jury that it must not let anyone know how the voting
stands.
The next day, the court received several notes from the jury. The first noted stated that
one juror was not cooperating, refused to deliberate or prove her vote, "she just wants a hung
jury," and she had "looked up the phrase to see what it meant before" deliberations started.
Another note stated: "We have a [juror] who SERIOUSLY doesn't understand what Reasonable
Doubt is!! We have a hung jury [a]nd we need instructions!!! HELP!!!" The trial court reread
the reasonable doubt instruction, reread the aiding and abetting instruction, and instructed the
jury that it must follow the law and not obtain information from any outside source. The court
also read a second deadlock instruction, encouraging the jurors to continue deliberations.
Two days later, an attorney appeared at court and indicated that one of the jurors—Ms.
McGraw—had contacted him and said that she was being harassed and verbally abused.
Defendant stated that he assumed McGraw was the holdout, and requested a mistrial because of
the potential for a coercive verdict. Yet, the court noted that no one knew i f McGraw was the
holdout, and that for all they knew the vote could be equally divided at that point. The coim:
noted that McGraw violated its explicit instructions about contacting anyone about the case,
which constituted good cause to remove her. The court then replaced McGraw with an alternate,
and gave the following instruction:
We now have a reconstituted jury pool. A juror has been excused for
cause and replaced with an alternate. This has nothing to do with your
deliberations and you should not allow this fact to influence your deliberations in
any way. You must start your deliberations from the beginning. You should not
discuss among you, nor with the new juror, any of your prior deliberations.
Again, you must begin your deliberations anew.
More than an hour and a half later, the jury returned its guilty verdict.
Defendant first contends that the trial court erred in removing the juror because, unlike
other cases involving the removal of a juror, McGraw was not sick. See, e.g.. People v Tb/e, 244
Mich App 553; 624 NW2d 524 (2001). However, defendant has not supported his argument that
only severe sickness can serve as the basis for juror removal after deliberations have begun. See,
e.g., People v Harvey, 167 Mich App 734, 744; 423 NW2d 335 (1988) (reasons for discharging a
juror include "personal disability or legal disqualification."). In fact, MCL 768.18 provides:
"Should any condition arise during the trial of the cause which in the opinion of the trial court
justifies the excusal of any of the jurors so impaneled from fiirther service, he may do so and the
trial shall proceed, unless the number of jurors be reduced to less than 12." As this Court
explained in Tate:
[Wjhile a defendant has a fundamental interest in retaining the
composition of the jury as originally chosen, he has an equally fundamental right
to have a fair and impartial jury made up of persons able and willing to cooperate,
a right that is protected by removing a juror unable or unwilling to cooperate.
-2-

APP_076

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2329

Page 11 of 50

Removal of a juror under Michigan law is therefore at the discretion of the trial
court, weighing a defendant's fundamental right to a fair and impartial jury with
his right to retain the jury originally chosen to decide his fate. [244 Mich App at
562 (quotation marks and citation omitted).]
Also, the court rules broadly permit the trial court to retain alternate jurors during deliberations,
presumably in case of removal. MCR 6.411.
Contrary to defendant's assertion on appeal, the trial court did not remove McGraw
because she was a lone hold-out who was standing in the way of conviction. In fact, defendant's
basic premise is flawed. Early on in the deliberations, the juiy informed the court that they were
11 to 1. However, the jury did not reveal which way the majority was leaning or the identity of
the hold-out. Several days of continued deliberation then ensued. As the trial court found, there
was no evidence at the time of McGraw's removal what way the jury was leaning, or the
potential division.
Moreover, the record clearly demonstrates that the trial court removed this juror because
she flagrantly violated the court's instructions by discussing the deliberations with a non-juror.
Neither party contests McGraw's blatant disregard for the court's instructions, nor that it
implicated her ability to follow jury instructions. Thus, the trial court protected defendant's right
to a fair and impartial jury "by removing a juror unable or unwilling to cooperate." Tate, 244
Mich App at 562.
Defendant, however, contends that the trial court still should have granted a mistrial
because of the danger that the alternate juror would be influenced when faced with 11 jurors who
were convinced of his guilt. Yet, as discussed supra, there is no evidence regarding what way
the jury was leaning at the time of McGraw's removal. Thus, to conclude that there was only
one hold-out, or that it was McGraw, is mere speculation. Significantly, the trial court properly
instructed the newly configured jury that it must deliberate anew, and disregard its prior
deliberations. See MCR 6.411; Tate, 244 Mich App at 567 ("the jury in such situations should
be instructed to begin deliberations anew."). As we have recognized, "(jjurors are presumed to
follow their instructions, and instructions are presumed to cure rnost errors." People v Abraham,
256 Mich App 265, 279; 662 NW2d 836 (2003). "Because it is . . . pure speculation that the
alternate juror was coerced, we conclude that defendant was not prejudiced by the substitution of
the alternate juror." People v Mahone, 294 Mich App 208, 218; 816 NW2d 436 (2011).
n . SUFFICIENCY OF THE EVIDENCE
A. STANDARD OF REVIEW
Defendant next contends that the evidence was insufficient to support his conviction. We
review de novo a challenge to the sufficiency of the evidence. People v Ericksen, 288 Mich App
192, 195; 793 NW2d 120 (2010). "In determining whether the prosecutor has presented
sufficient evidence to sustain a conviction, an appellate court is required to take the evidence in
the light most favorable to the prosecutor" to ascertain "whether a rational trier of fact could find
the defendant guilty beyond a reasonable doubt." People v Tennyson, 487 Mich 730, 735; 790
NW2d 354 (2010) (quotation marks and citations omitted). We resolve conflicts of the evidence
-3"

APP_077

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2330

Page 12 of 50

in favor of the prosecution, "and we will not interfere with the jury's determinations regarding
the weight of the evidence, and the credibility of the witnesses." Unger, 278 Mich App at 222.
Furthermore, circumstantial evidence and reasonable inferences arising from them can constitute
sufficient proof of the elements of a:crime. People v Allen, 201 Mich App;98, 100; 505 NW2d
869(1993).
'
. 1
B. ANALYSIS
The only element defendant challenges regarding his first-degree miuder conviction is
identity. "[I]t is well settled that identity is an element of every offense." People v Yost, 278
Mich App 341, 356; 749 NW2d 753 (2008).
The prosecutor's theory at trial was that the person who broke into the building also
killed the victim. Although this theory involves multiple layers of inferences, it is supported
with evidence. After the break-in, the victim was not seen or,heard from until his body was
discovered. Moreover, the DNA from the blood found on the workbench and tool room wall
matched defendant's DNA. The hair on the duct tape near the point of entry also matched
defendant's DNA. The jury could infer from this evidence that defendant entered through the
metal-covered window, cut himself on the broken glass fragments, caught his hair on the duct
tape that had secured the metal to the window, removed the saw, and dripped small quantities of
blood on the workbench and wall. The DNA evidence established defendant's identity as the
perpetrator of the break-in.
The similarity of footwear impressions near the victim's body, on the shovel found near
the bent metal covering, and the metal covering fruther establish the common identity of the
perpetrator. Furthermore, as the perpetrator of the break-in, defendant had a motive to kill the
victim because the victim could identify him. The jury could infer that a stranger would have
chosen immediate flight instead of murder, as the victim would not have recognized the
perpetrator. Additionally, defendant had a motive to steal because the testimony indicated that
he was chronically short of money in 1993. Defendant often borrowed money from coworkers
and others. He also admitted to the grand jury that he might have given his car to his brother in
payment of a loan. The victim's wallet was never found.
Moreover, although defendant was with another employee the night of the break-in, he
left that person's house claiming he had something to do. When the coworker woke up in the
morning, he found defendant asleep on the living room floor. The jury could infer that defendant
committed the offenses between the time he left the house and returned. The jury also could
have foimd relevant that defendant missed work after the mm-der, he was uninterested in a
coworker's distress over the victim's death, and he was uncharacteristically ingratiating toward
the police.
On appeal, defendant highlights contrary evidence, such as the fact that other DNA
samples collected from the building did not match his DNA, he was excluded as the person who
left the fingerprint or palm print on the vestibule door, the footwear he was wearing at the time
of the police interview was not a match to the footwear impressions at the scene, the lack of
eyewitnesses, and that the coworker—whose house defendant slept at—was intoxicated.
However, these arguments involve the weight of evidence and the credibility of witnesses. "We
-4-

APP_078

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

N E I L J. L E I T H A U S E R
Attorney at Law
(248) 687-1404

PageID.2331

Page 13 of 50

101W. Big Beaver Rd., 14th Floor
Troy, MI 48084

March 18, 2015

Melvin Wofford
#565188
9625 Pierce Rd.
Freeland, M I 48623
re: People v Melvin Wofford
Court of Appeals: 318642
Circuit Court: 2012-241569-FC

Dear Mr. Wofford:
This is to bring you up-to-date, but also to send bad news. The court issued its opinion
affirming the conviction; a copy of the March 17, 2015, opinion is enclosed.
You have two options, procedurally, at this point. The first is a motion for reconsideration
in the Court of Appeals, which would have to be filed within 21 days of the opinion, or on or
before April 7,2015. I do not plan on filing one, as I do not see that the opinion was entered
erroneously, although I do not agree with all of the conclusions.
The second option, which I recommend, is an application for leave to appeal in the
Michigan Supreme Court. That application would have to be filed within 56 days of the
Court of Appeals opinion, or on or before May 12, 2015. The court will not accept a late
application. A copy of an application for leave to appeal form (prepared by Prison Legal
Services) with instructions, is enclosed to help. The mailing address for the Supreme Court
Clerk is:
Clerk of the Court
Michigan Supreme Court
P.O. Box 30052
Lansing, M I 48909
The order appointing me as your appellate counsel only extends to the Court of Appeals'
decision, so you must proceed into the Michigan Supreme Court either on your o^vn (the
application form will work for that) or through retained counsel; my representation has
ended. I f you proceed on your own and the Supreme Court grants the application, then
appellate counsel would again be assigned to assist you.

APP_079

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2332

Page 14 of 50

re: Melvin Woflbrd, March 18,2015, page two

I previously mailed the transcripts to you on August 25, 2014; I will send other court-file
documents in a separate envelope. I f you need additional documents from the court you can
request them by writing to the sentencing court pursuant to Michigan Court Rule 6.433.
Please let me know of any questions you have.

Sincerely yours,

Neil J. Leithauser
ends.

APP_080

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2333

Page 15 of 50

STATE OF MICHIGAN
IN T H E C O U R T O F APPEALS

Court of Appeals: 318642

PEOPLE O F T H E S T A T E OF M I C H I G A N ,

Circuit Court: 2012-241569-FC

Plaintiff-Appellee,
V

M E L V I N JAMES W O F F O R D ,
Defendant-Appellant.
J

DEFENDANT-APPELLANT'S BRIEF O N APPEAL
ORAL ARGUMENT REQUESTED

NEIL J. LEITHAUSER P-33976
Attorney for Defendant-Appellant
101 W. Big Beaver Rd.,
Rr.
Troy, M I 48084
(248) 687-1404

APP_081

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2334

Page 16 of 50

TABLE OF CONTENTS
Table of Contents

i

Index of Authorities

ii

Statement of Appellate Jurisdiction

iv

Questions Presented

iv

Statement of Facts

1

Argument I

18

THE TRIAL COURT COMMITTED REVERSIBLE ERROR AND A N
ABUSE

O F D I S C R E T I O N BY D E N Y I N G

A R E Q U E S T FOR A

MISTRIAL AND, INSTEAD, DISMISSING

A HOLDOUT

DURING

DENYING

DELIBERATIONS,

THEREBY

JUROR

TO

MR.

W O F F O R D HIS SIXTH A M E N D M E N T R I G H T T O H A V E HIS JURY
D E C I D E HIS FATE.
Argument II

22

T H E M U R D E R C O N V I C T I O N MUST BE R E V E R S E D W H E R E T H E
EVIDENCE W A S NOT LEGALLY

SUFFICIENT T O PROVE IT

B E Y O N D A R E A S O N A B L E DOUBT.
Relief Requested

26

-1-

APP_082

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2335

Page 17 of 50

INDEX OF AUTHORITIES
F E D E R A L CASES
Cage V Louisiana, 498 US 39; 111 S Ct 328; 112 L Ed 2d 339 (1990)
In re Winship, 397 US 358; 90 S Ct 1068; 25 L Ed 2d 368 (1970)

25
24, 25

Jackson v Virginia, 443 US 307; 99 S Ct 2781; 61 L Ed 2d 560 (1979)

23, 24, 25

United States v ]om, 400 US 470; 91 S Ct 547; 27 L Ed 2d 543 (1971)

20

United States v Thomas, 116 F3d 606 (CA 2,1997)

19

Wade V Hunter, 336 US 684; 69 S Ct 834; 93 L Ed 974 (1949)

20

M I C H I G A N CASES
People V Alley, 392 Mich 298; 220 NW2d 465 (1974)

25

People V Bahcock, 469 Mich 247; 666 NW2d 231 (2003)

18

People V Carines, 460 Mich 750; 597 NW2d 130 (1999)

25

People V Dry Land Marina, Inc., 175 Mich A p p 322; 437 NW2d 391 (1989) 18, 20, 21
People V Gardner, 37 Mich A p p 520; 195 NW2d 62 (1972)

20

People V Goldston, 470 Mich 523; 682 NW2d 479 (2004)

18

People V Hampton, 407 Mich 354; 285 NW2d 284 (1079)

22, 25

People V Hardiman, 466 Mich 417; 646 NW2d 158 (2002)

25

People V Harper, 479 Mich 599; 739 NW2d 523 (2007)

18

People V Henley, 26 Mich A p p 15; 182 NW2d 19 (1970)

20

People V Jdziak, 484 Mich 549; 773 NW2d 616 (2009)

18

-ii-

APP_083

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2336

Page 18 of 50

People V Johnson, 460 Mich 720; 597 NW2d 73 (1999)

22

People V ]olly, 442 Mich 458; 502 NW2d 177 (1993)

25

People V Lett, 466 Mich 206; 644 NW2d 743 (2002)

18

•People V Patterson, 428 Mich 503; 410 NW2d 733 (1987)
People V Tate, 244 Mich A p p 553; 624 NW2d 524 (2001)
People V Van Camp, 356 Mich 593; 97 NW2d 726 (1959)
People V Wolfe, 440 Mich 508; 489 NW2d 748 (1992)

23
.

18, 21
20
22, 25

C O N S T I T U T I O N A L P R O V I S I O N S , STATUTES A N D RULES
US CONST, A M V I

18

US CONST, A M XIV

25

MCL 768.18

20

-m-

APP_084

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2337

Page 19 of 50

S T A T E M E N T OF A P P E L L A T E TURISDICTION
Jurisdiction was conferred through Const 1963, art. 1, §20; M C L 600.308(1); M C L
770.3; MCR 7.203(A); MCR 7.204(A)(2)(a); and MCR 6.425(F)(3). The final judgment was
October 3, 2013, petition for counsel was made on October 3, 2013, and pursuant to
MCR 6.425(F)(3) the Q a i m of Appeal issued October 4, 2013.

QUESTIONS P R E S E N T E D
I.
AN

D I D T H E TRIAL COURT COMMIT REVERSIBLE ERROR A N D
ABUSE

OF D I S C R E T I O N

JURORS, T H E R E B Y D E N Y I N G

BY D I S M I S S I N G

O N E OF T H E

T O MR. W O F F O R D

HIS S I X T H

A M E N D M E N T R I G H T T O H A V E HIS JURY D E C I D E HIS FATE?

Defendant-Appellant answers

"yes

Plaintiff-Appellee would answer

"no'

11. M U S T T H E M U R D E R C O N V I C T I O N BE R E V E R S E D W H E R E T H E
EVIDENCE WAS NOT LEGALLY

SUFFICIENT T O P R O V E IT

BEYOND A R E A S O N A B L E DOUBT?

Defendant-Appellant answers

"yes

Plaintiff-Appellee would answer

"no'

-IV-

APP_085

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2338

Page 20 of 50

S T A T E M E N T OF F A C T S
Background.
This is an appeal of right by Melvin Wofford, who was tried following grand jtuy
indictments w i t h the offenses of first-degree premeditated murder, MCL 750.316(l)(a),
and first-degree felony murder, M C L 750.316(1)(b). He was convicted b y jury i n the
Oakland County Circuit Court of both cotmts (Trial transcript ["TT"],
verdict,

,

).

Mr. Wofford was sentenced on one count by Circuit Judge Michael D. Warren to the
mandatory term of life i n prison (Sentence transcript, 10/03/2013,18-19).
Trial.
The charges arose f r o m the June 23,1993, murder of Thomas Gihnore i n Farmington
Hills. M r . Gilmore died f r o m strangulation (TT, 08/06/2013, 75, testimony of Deputy
Chief Forensic Pathologist Kanu Virani). Mr. Gilmore had also sustained other injuries,
including superficial lacerations on his head f r o m bitmt force, nose fracture, voice-box
cartilage fracture, C5-6 cerviccd vertebra fracture, and left and right rib fractures {Id. at
65, 68, 75-76, 119; 70-72, ). The strangulation resulted f r o m use of a hgature {Id. at 76,
77-78, 99,109). Dr. Virarii said there would have been a struggle, for there was evidence
of petechiae i n the eyes {Id. at 72-73,132).
Lisa Gilmore Bell testified that she was Mr. Gilmore's daughter, and, i n 1993, she
worked as office manager of Mr. Gilmore's surveying office (TT, 08/05/2013, 237-240).
1

APP_086

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2339

Page 21 of 50

She worked until April, 1993, when she was pregnant, and did not work there regularly
after A p r i l (Id. at 239-240).
Ms. BeU said she last saw her father on the morning of Tuesday, June 22,1993, when
she picked-up her children f r o m a v i s i t Her father was i n a hurry to get to work, but he
did not say w h y (Id. at 254-255).

She said he was then having fincmcicd problems, and

had filed for bankruptcy around that time (!d. at 249-250; TT, 08/06/2013, 27, 28). She
was aware of a pending lawsuit where her father might have had to testify against one
of his friends (TT, 08/06/2013, 29, 44, 45, 53).
Her father w o u l d usually get home at around 6:00 p.m., but he w o u l d sometimes
stay at the office and play cards and drink with some others (TT, 08/05/2013, 255, 252).
She became concerned when she d i d not hear f r o m h i m on either June 23, or June 24,
1993; on Jime 24, 21993, she saw a news report about a death at the office building. She
contacted police, and subsequently she and her brother made an identification of Mr.
Gilmore's body {Id. at 257, 259). She said that neither M r . Gilmore's glasses nor his
wallet were ever found (Id. at 263-264).
Chester Bartosik testified that he had known M r . Gilmore for about twenty years i n
1993; they were i n related professions, Mr. Bartosik said, with Mr. Gilmore being a
surveyor Bartosik being an architect. Another friend, Joe Stenrose, w h o m Bartosik met
through Gilmore, was a d v i l engineer (TT, 08/06/2013,143,148-149). Mr. Bartosik said
he never had any problems w i t h Mr. Gilmore, and he was not aware of any problems
2

APP_087

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2340

Page 22 of 50

between Mr. GUmore and Mr. Stenrose, and there were never any serious argument
between the men Qd. at 148-149,172). He said he would see the men two or three times
each week, either to have lunch or drinks after work {Id. at 144).
Mr. Gilmore drove a van, and, Bartosik said, i f the van was there he w o u l d
sometimes drop by to visit Gilmore.

He may have stopped by i n the morning of

Wednesday, June 23,1993, as he then told police, and saw the van was there, Gilmore's
office hghts were on, the office door was locked, but there was no answer (Id. at 151,
164). He learned of Mr. Gilmore's death through the news on June 24,1993 {Id. at 154).
That Wednesday, Bartosik said, he met v ^ t h Stenrose for lunch; Gilmore d i d not meet
wiUithem(J(i. atl65).
Mr. Bartosik said he was unaware that Mr. Gilmore was having financial problems
then, and was not aware of any lawsuit where Gilmore might testify against Stenrose
{Id. at 170). Stenrose had a son, Keith, who, Bartosik told police at the time, could kick
their 'asses.' Keith was "like a b u l l . . . a solid k i d " {Id. at 171).
Jerone Stenrose testified that he knew M r . Gilmore very well, and said they had
shared office-space until 1992 {Id. at 176, 178).

he said he never had any serious

disagreements w i t h either Mr. Gilmore or Mr. Bartosik, and he could not recall
anything about a potential lawsuit at that time {Id. at 184). He knew that M r . Gilmore
was then struggling financially and was having problems collecting f r o m cUents {Id. at
198).

APP_088

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2341

Page 23 of 50

Mr. Stenrose said his son, Keitli, was then about twenty years-old and would
occasionally help Mr. Gilmore out; Mr. Gilmore owed Keith some money {Id. at 179180). Keith liked Mr. Gilmore, Mr. Stenrose said, but had stopped working for h i m a
couple of months before Mr. Gilmore's death {Id. at 179-180,198-199).
On June 23, 1993, he said he stopped by Mr. Gilmore's office on June 23, 1993, at
about 6:00 p.m. Gilmore's van was parked at the building, but the office doors were
locked and there was no answer f r o m Mr. Gilmore {Id. at 188-189,196).
Michael Pinkleton testified that he owned the building at 28830 8 Mile Road, and
said i t was a converted school building; he rented out offices to several tenants,
including Mr. Gilmore and to a roofing company; his o w n construction business was
also located there. The roofing company and Mr. Gilmore had offices on the groimd
floor; Mr. Pinkleton's construction company had had the second floor. Part of the back
yard area was used by his construction company, and the remainder of the back yard
area was used by the roofing company {Id. at 204-207, 209, 210).
On the morning of June 24,1993, one Gilmore's employees had come aroimd looking
for Mr. Gilmore, who could not be found,

the employee contacted Mike H u f f , of the

roofing company. H u f f contacted Pinkleton, and Pinkleton went into M r . Gilmore's
office. The lights were on i n the office, and everything seemed normal {Id. at 212-214).
Mr. Pinkleton said he became concerned that Gilmore possibly suffered a heart
attack i n his van, so he went outside to check the van. He saw nothing i n the van, but
4

APP_089

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2342

Page 24 of 50

f o i m d Mr. Gilmore's body i n nearby bushes {Id. at 214).
He said he had last seen Mr. Gilmore alive on June 22, 1993, when he saw Mr.
Gilmore in his office talking on the phone; Gilmore told someone i n the call that, 'you're
not getting any money' {Id, at 44-45).
Mr. Pinkleton said that a window i n the back work area had been broken out some
years before, and before the roofing company moved in, and the window had been
covered by a piece of metal (TT, 08/08/2013, 9).

On the morning of Jtme 23, 1993, a

break-in was reported to police. Pinkleton saw that the door to the roofing office had
been 'jimmied' (Id. at 13).
Robert Stoechlin testified that he knew Mr. Wofford, and that i n 1993 Mr. Wofford
was a trainee or roofer for Sullivan Widmer Roofing, where Stoechhn was a foreman
{Id. at 47-49). Mr. Wofford's job was mostly to tear off old roofs, clean up, emptying the
trucks into the dumpsters, etc. {Id. at 49,129-130,132).
Mr. Stoechlin said he recalled there was a break-in i n June, 1993; the orJy thing stolen
was an old circular saw f r o m the back tool/shop area. Hand-tools and broken items
were kept i n the shop area; the more expensive tools were kept i n the roofing office due
to prior break-ins at the company property (Id. at 62-63, 54-56,114). One of the broken
items kept i n that area was a hammer handle {Id. at 62-63, 87-88, 89, 94). StoechUn last
saw the hammer handle i n his toolbox several weeks before Mr. Gilmore's death {Id. at
95).

APP_090

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2343

Page 25 of 50

Mr. Stoechlin said he would see Mr. Gilmore almost every day (Id. at 64). On June
24, 1993, the day Mr. Gilmore's body was found, Stoechlin said he did not see Mr.
Wofford at the office, and could not recall if Mr. Wofford worked that day, but thought
he did not. He also thought Mr. Wofford had not worked June 23,1993 (Id. at 151-152).
Later that evening, M r . Wofford came to Stoechlin's house and asked to borrow some
money, about seven or eight dollars (Id. at 65-67, 69, 95-96). He did not notice emything
unusual about Mr. Wofford, and he saw no cuts or bruises on Mr. Wofford (Id. at 149150).
Mr. Stoechlin said he spoke w i t h M r . Wofford about Mr. Gilmore's death, and Mr.
Wofford did not seem interested, upset, or surprised, and did not ask any questions (Id.
at 68-69, 103).

Mr. Stoechlin said that as far as he knew, Mr. Wofford had no

relationship with Mr. GUmore, and that Mr. Wofford was not a party to the gatherings
Avith Bartosik and the others.

He had never seen M r . W o f f o r d socialize w i t l \ M r .

Gihnore (Id. at 125,126,127).
A police detective showed up at Stoechlin's house that evening and wanted the men
to come i n for questioning; both men voluntarily went i n . Along the way, Stoechlin
said, Mr. Wofford was acting "unusually" nice to the officer (Id. at 98,102,140-141).
Mr. Stoechlin said that Mr. Wofford, who was then between twenty and twenty-two
years of age, worked for the roofing company through the summer i n 1993 (Id. at 109110,124).

APP_091

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2344

Page 26 of 50

Stoechlin said that i f they needed to bend metal for a residential job, the bending
would be done on a portable metal brake kept i n the shed.

He could not recall Mr.

Wofford making drip-edges w i t h the brake, but it "could have happened" {Id. at 112113,119-120).
Stoechlin said that the broken window at the back of the shop, repaired w i t h a piece
of metal, had always been like that and had not been fixed (Id. at 144-145).
Michael H u f f testified that he was a roofing contractor and had his office i n the
building at 28830 8 Mile Road, and his business had been there for about two and onehalf years before Mr. Gibnore's death (TT, 08/12/2013, 8). He considered Mr. Gilmore
a best friend (Id. at 15-16).
Mr. H u f f said that i n 1993 most of the work was residential, but there was some
commercial work done. There were two metal brakes for bending metal; the large one - used for commercial work — was i n the back tool area, and a smaller one ~ used for
residential work ~ was i n the shed.

H u f f said that drip-edges for residential jobs were

purchased, instead of being bent i n the shed (Id. at 10-11,13).
Mr. Wofford was a laborer who could do both residential and commercial work, had
worked there for about one year prior to Mr. Gilmore's death, his job would be to
would tear-off shingles, clean up, etc. (Id. at 19-20, 63-64, 65-66). Mr. Wofford was a
good worker and employee (Id. at 90-91,106).
H u f f said he was usually the first person at the building in the morning, usually at
7

APP_092

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

about 7:00 a.m. (Jd. at 14, 16).

PageID.2345

Page 27 of 50

On June 23, 1993, he went to open his office door and

noticed a chip of the veneer was nussing fron\ the door; the office was still locked, and
no one had gained entry into the office {Id. at 21-22). He went to the back shop area and
saw that the metal piece over a window had been pushed in; he called poUce, and later
gave them the names of former employees he thought might be responsible (Id, at 21,
67-68, 70). The metal piece had been secured to the window frame w i t h duct-tape {Jd. at
104-105). He saw a shovel, which was normally kept i n the shed, near the window {Id.
at 47-48).
The shop area. H u f f said, was used for bending metal.

There was also a work-

bench i n the shop, and H u f f noticed that a circular saw was missing f r o m the bench {Id.
at 25). H u f f also saw a smear on the glass by the front door of the building that
morning, maybe a half-hand print; one of the tenants cleaned i t off {Id. at 37-38).
Mr. Gilmore's body was foimd the next morning {Id. at 46).
Mr. H u f f said he could not remember what Mr. Wofford did i n the work room area,
and could not remember i f he used the large metal brake or not, but d i d not think that
Mr. Wofford used it {Id. at 28, 30). He could not remember i f any of the employees cut
themselves i n that work area, or if he had seen any blood i n the work-bench area before
Mr. Gilmore's death; he said it was possible that he d i d {Id. at 33, 29). I t was not
unusual to get cuts on one's hands and arms in that work. H u f f said {Id. at 92-93).
Mr. H u f f said that a petty-cash box was kept i n the office; his wife, Maria, was
8

APP_093

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2346

Page 28 of 50

responsible for handing out any of the cash. The workers were often broke, so they
w o u l d often need advances or lunch money {Id. at 34-35).
Mr. H u f f said Mr. Wofford did not work on June 23rd or the 24th, he said, but he
could not recall i f Mr. Wofford worked there until 1994 (Id. at 45, 98, 72,101,107).
H u f f said i t was not unusual for the workers to have a few beers after work eitlier i n
the shop, or out i n the yard (Id. at 80).
Maria H u f f testified that she worked at the roofing company i n 1993, and took care of
the office, phones, and payroll {Id. at 110-111). Only she and Mr. Huff had keys to the
office {Id. at 116).
On June 23,1993, the day of the break-in, she noticed a smear of blood, like a hand or
palm print, on the glass vestibule door. Later that day, one of the tenants cleaned i t off
{Jd. at 122-123).
Michael Mclntyre testified that he had known Mr. Wofford since grade-school. He
worked at the roofing company as a shingle-person {Id. at 147-149).
one-half mile f r o m the roofing company {Id. at 155).

He lived about

Mclntyre said he knew Mr.

Gilmore f r o m having drinks w i t h h i m after work, one to three times each week {Id. at
153,179).
In the days before Mr. Gilmore's body was found, Mclntyre said, they were involved
in a job requiring an extensive tear-off, and replacement of rafters. He could not recall if
the job required any bending of metal {Id. at 150,153).
9

APP_094

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2347

Page 29 of 50

On Tuesday, June 22,1993, he worked at the job w i t h Mr. Wofford and Mr. Stoechlin
(Id. at 162). That night was Mclntyre's regular drinking night, for drinks were on sale
on Tuesdays (Id. at 163-164). He asked Mr. Wofford if he wanted to go drinking that
evening, and Mr. Wofford later came over to Mclntyre's house at about 9:00 p.m. - 9:30
p.m. They went to the bar at 7 Mile and Middlebelt w i t h Mclntyre's mother, and drove
separately, and later they left the bar at about 2:30 a.m. (Id. at 164-165, 167). M r .
Wofford followed Mclntyre's mother to the house, and they arrived at about 2:30 a.m. 3:00 a.m. Mr. Mclntyre said he asked Mr. Wofford to stay, but Mr. Wofford said he had
something he had to do (Id. at 168-169). Mclntyre was pretty certain that Mr. Wofford
left, but his memory was a "little cloudy due to all the drinking" (Id. at 232, 236).
Mr. Mclntyre said he awoke at about 8:30 a.m. - 9:00 a.m. and saw Mr. Wofford
sleeping on the living room floor; Mclntyre, who drank 'a lot' and got drurxk that night,
could not recall Wofford coming i n {Id. at 170, 213-214, 221).

The two went to work;

Mr. Mclntyre was 'hungover pretty good,' and Mr. Wofford told Mclntyre that he did
not feel well. M r . Wofford then left the job (Id. at 171, 221-222). The roofing job was
finished that afternoon (Id. at 172). Mclntyre said when he returned to the office w i t h
H u f f and StoechUn that afternoon he learned there had been a break-in (Id. at 173). He
saw blood on the glass vestibule door near the door handle (Id. at 175-176).
On Jime 24, 1993, Stoechlin told Mclntyre about Gilmore's body being found;
Stoechlin expressed some concern, Mclntyre said, because Stoechlin's hanuner handle
10

APP_095

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2348

Page 30 of 50

may have been used in the murder (Id. at 180,199-200).
Mr. Mclntyre said it was 'common knowledge' tliat M r . Gilmore would sometimes
stay the night at his office [Id. at 180).
Mr. Mclntyre said he d i d not see M r . Wofford at w o r k on June 24th; M r . Wofford
continued to work w i t h Mclntyre through that summer {Id. at 178,180, 223).
Mr. Mclntyre said he suspected, and so told police, that a person named Mike
Marshall had committed the murder.

Marshall, he said, had been let go because of

concerns about break-ins, missing tools, drug use, and Marshall also had a violent past
(Id. at 194,242).
Karen McPherson testified that in June, 1993, she lived i n a house diagonally across 8
Mile f r o m the building where the roofing company and Gilmore's offices were located
(Id. at 246-247). She then was also working part-time at a party store near the building,
and knew Mr. Gilmore as a regular customer (Id. at 247-248, 254-257).
Ms. McPherson said she then owned a Mastiff which, about two weeks before M r .
Gilmore's body was found, was very worked-up when it noticed a trespasser breaking
into her shed; it 'took everything' for her to control the animal (Id. at 250, 252).
On June 23,1993, between 1:00 a.m. and 4:00 a.m., the dog was acting "nuts," tearing
at the curtains and looking in the direction of the business across 8 Mile; she had to lock
the dog i n the bathroom (Id. at 263, 259-260).

She thought that the b u m who had

trespassed before might have returned (Id. at 260). She later saw police at the business
11

APP_096

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2349

Page 31 of 50

and learned about the break-in (Id. at 264).
Timothy Swanson testified that i n 1993 he was a detective w i t h the Farmington Hills
Police. He briefly interviewed Mr. Wofford, and other employees, on June 24,1993, as
part of the investigation. M r . Wofford told h i m he had worked all day Jtme 22, went to
the bar that night w i t h Mclntyre and Mclntyre's mother, went home and stayed home
all day because of his condition f r o m drinking (Id. at 286-287; TT, 08/13/2013, 8). He
said he returned to work n June 24th (TT, 08/12/2013, 288);
Officer Swanson did not recall, and had no notes of seeing any injuries on Mr.
Wofford (Id. at 290-291). he said he would have noticed any fresh cuts on M r . Wofford,
for he was aware that some blood had been found at the scene (TT, 08/13/2013,14-15).
Mr. W o f f o r d was cooperative and allowed hair samples and photos of his face and
hands to be taken (TT, 08/12/2013, 289; TT, 08/13/2013, 10-12).

Mr. Wofford denied

any responsibility for the breaking and entering and of the murder and said that he d i d
not really know Mr. Gilmore, had never really talked w i t h him, and thought Mr.
Gilmore might not even recognize Mr. Wofford (Id. at 12,13-14).
Patrick Sidge, a police officer w i t h Farmington Hills i n 1993, testified that he
responded to the building on June 23,1993, on a call of a break-in (Id. at 22).

He was

shown the back window, told that a circular saw was missing, and he saw p r y marks on
the door.to the roofing office (Id. at 25-27).

He saw some blood smears i n the vestibule

in the front of the building, and saw a 1/4" blood drop on the work-bench i n the back
12

APP_097

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2350

Page 32 of 50

shop area {Id. at 28, 41,180,100-101). It appeared to be a random breaking and entering
{Jd. at 132).

He returned the next day, after Mr. Gilmore's body had been foimd, to process the
scenes; the blood smear he saw i n the vestibule was gone; he d i d f i n d another drop of
blood on a waU i n the w o r k cirea {Jd. at 36,42,104). He said the droplets looked "fresh;"
he acknowledged that he d i d not include i n liis original report that the drops looked
fresh {Jd. at 159-160, 169). Sidge found two hairs stuck to the duct-tape on the metal
piece at the back w i n d o w of the building, and he saw and photographed a footwear
impression near Mr. Gilmore's body {Id. at 70-71, 93). There were no signs of a struggle
i n Mr. Gihnore's office {Jd. at 142,143).
James Worthington testified that i n 1993 he was a Farmington Hills police officer,
and responded to the building on Jime 23, 1993, to the call about a breaking and
entering {Id. at 188). He saw a partial palm-print and blood smear on a glass door at the
front of the building; he lifted the print {Id. at 196). He did not f i n d blood near the
window w i t h the metal piece; he noticed two drops of blood i n the work-bench area {Id.
at 211-212).

He tested, or took samples, of the blood drops using the method utilized

for "dried" blood (TT, 08/15/2013, 33-34, 52).
He took a cast of the footwear impression near Mr. Gilmore's body (TT, 08/13/2013,
229), and he found a partial footwear impression on the metal piece at the w i n d o w (TT,
08/15/013, 8-10). He saw similarities between the impression on the metal piece, w i t h
13

APP_098

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2351

Page 33 of 50

one found on a shovel, and one that was near the victim's body {Id, at 12-13).

He was

not aware that Mr. Wofford's footwear was later eliminated as a cause of the print on
the shovel (Id. at 45).
The sample f r o m the inner, or vestibule door collected by Worthington was
examined by a forensic scientist and found to contain blood; the sample was insufficient
to obtain a D N A profile (Id. at 121,123, testimony of forensic scientist Lynne Helton).
Ms. Helton said D N A testing was not available i n 1993, when she first worked on the
case, and the State Police d i d not test hair for D N A until 2000 or 2001 {Id. at 82-83, 84,
106-107).
Ms. Helton said that after 1993, her next involvement i n the case, was i n 2011, when
the hairs were examined for D N A , and a confirmatory testing was done on the blood
samples (TT, 08/16/2013, 29, 35-37, 39). She was able to get D N A f r o m both hair roots,
and testified i t matched M r . Wofford's D N A profile (Id. at 38-39, 60-65). Neither hair
appeared to have been forcibly pulled (Id. at 126). The two blood-drop samples taken
f r o m the work-bench area were matched to Mr. Wofford i n 2012 (Id. at 42-43, 44-45, 85).
Ms. Helton said that all of the samples taken f r o m Mr. Gilmore's body, or the
'outside samples,' matched M r . Gilmore's D N A (Id. at 48).

Mr. Gilmore's blood was

excluded as being a contributor to the two work-bench area, or 'irwide samples,' blooddroplets {Id. at 54, 59).

Mr. Wofford was excluded f r o m being a donor to any of the

samples taken f r o m Mr. Gilmore (Id. at 73, 76, 79,113,116). The only D N A of Mr.
14

APP_099

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2352

Page 34 of 50

Wofford was found i n the tool shop area (Id. at 117).
The palm print found on the vestibule door d i d not match M r . Wofford^ who was
excluded as the donor (TT, 08/22/2013, 29, and TT, 08/23/2013, 21, 27, testimony of
Sergeant Gerald Hughes). N o matches of the footwear impressions f o u n d were made
Mr. Wofford, whose footwear was also excluded f r o m making the impression f o u n d on
the shovel (TT, 08/22/2013, 28,156, 157) (see, also, the prosecutor's acknowledgement
that the bloody hand print and the footwear d i d not match Mr. Wofford, TT,
08/23/2013, 36-37).
Mr. Wofford's testimony before the grand jury was read into the record (TT,
08/22/2013, 39-144).

I n the testimony, M r . Wofford denied committing the break-in,

denied assisting anyone else, and denied knowing anything about M r . Gilmore's
murder (Id. at 130-132).
Sgt. Hughes said that two people, a Mathis and a Laughlin, were considered suspect
i n this case, for they were suspects i n a breaking and entering and strangulation murder
occurring i n Ferndale around the time of Mr. Gilmore's murder {Id. at 172).
was very similar, Hughes said (Id. at 173).

The M O

However, there was no follow-up to get

samples f r o m the men because there was no "need to," and there was no physical
evidence to connect the men ~ who also derued ctdpabdity - to this crime (Id. at 173174,177,178,184),
Mr. Wofford d i d not testify and no defense wimesses were presented (TT,
15

APP_100

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2353

Page 35 of 50

one found on a shovel, and one that was near the victim's body (Id. at 12-13).

He was

not aware that Mr. Wofford's footwear was later eliminated as a cause of the print on
the shovel (Id. at 45).
The sample f r o m the inner, or vestibule door collected by Worthington was
examined by a forensic scientist and found to contain blood; the sample was insufficient
to obtain a D N A profile (Id. at 121,123, testimony of forensic scientist Lyime Helton).
Ms. Helton said D N A testing was not available i n 1993, when she first worked on the
case, and the State PoUce did not test hair for D N A until 2000 or 2001 (Id. at 82-83, 84,
106-107).
Ms. Helton said that after 1993, her next involvement i n the case was i n 2011, when
the hairs were examined for D N A , and a confirmatory testing was done on the blood
samples (TT, 08/16/2013, 29, 35-37, 39). She was able to get D N A f r o m both hair roots,
and testified i t matched Mr. Wofford's D N A profile (Id. at 38-39, 60-65). Neither hair
appeared to have been forcibly pulled (Id. at 126). The two blood-drop samples taken
f r o m the work-bench area were matched to Mr. Wofford i n 2012 (Id. at 42-43, 44-45,85).
Ms. Helton said that all of the samples taken f r o m Mr. Gilmore's body, or the
'outside samples,' matched M r . Gilmore's D N A (Id. at 48).

Mr. Gilmore's blood was

excluded as being a contributor to the two work-bench area, or 'inside samples,' blooddroplets (Id. at 54, 59).

Mr. Wofford was excluded f r o m being a donor to any of the

samples taken f r o m Mr. Gilmore (Id. at 73, 76,79,113,116). The only D N A of Mr.
14

APP_101

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2354

Page 36 of 50

Wofford was found i n the tool shop area {Id. at 117).
The palm print found on tlie vestibule door d i d not match M r . Wofford, who was
excluded as the donor (TT, 08/22/2013, 29, and TT, 08/23/2013, 21, 27, testimony of
Sergeant Gerald Hughes). No matches of the footwear impressions found were made
Mr. Wofford, whose footwear was also excluded f r o m making the impression found on
the shovel (TT, 08/22/2013, 28, 156, 157) (see, also, the prosecutor's acknowledgement
that the bloody hand print and the footwear d i d not match Mr. Wofford, TT,
08/23/2013, 36-37).
Mr. Wofford's testimony before the grand jury was read into the record (TT,
08/22/2013, 39-144).

I n the testimony, M r . Wofford denied committing the break-in,

denied assisting anyone else, and denied knowing anything about Mr. Gilmore's
murder (/d. at 130-132).
Sgt. Hughes said that two people, a Mathis and a Laughlin, were considered suspect
i n this case, for they were suspects i n a breaking and entering and strangulation murder
occurring i n Ferndale around the time of Mr. Gilmore's murder {Id. at 172).
was very similar, Hughes said {Id. at 173).

The M O

However, there was no follow-up to get

samples f r o m the men because there was no "need to," and there was no physical
evidence to connect the men ~ who also denied culpability - to this crime {Id. at 173174,177,178, IM).
Mr. Wofford d i d not testify and no defense witnesses were presented (TT,
15

APP_102

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2355

Page 37 of 50

08/23/2013, waiver of testimony, 29-32).
The trial court denied a motion for directed verdict of acquittal, and overruled a
defense objection to including aiding and abetting instructions for the jury (Id. at 56-59,
32-38).
Deliberations.
After being instructed, the jury conrunenced deliberation August 23,2013, at 3:39 p.m.
(TT, 08/23/2013,218).
O n August 26, 2013, the jury sent out a note at 3:21 p.m. that i t was stuck at 11 to 1,
" w i t h no chance of the one moving tiieir view" (TT, 08/26/2013, 11).

The defense

requested the deadlocked instruction be given, and the trial court so instructed the jury
(Id. at 13,15-16). The jury returned to deliberations at 2:30 p.m. (Id. at 16).
A t 3:31 p.m. a note was received f r o m a juror, not through the foreperson, stating,
"Excuse me Judge, one of our jury's doubts are unreasonable, what do we do?" (Id. at
17-18).
On August 27, 2013, three notes were received by \he trial court (TT, 08/27/2013, 3).
One note involved a question about aiding and abetting. Another stated there was a
juror who was "not cooperating and [who] refuses to deliberate or prove to us her vote.
She just wants a hung jury. She also stated she had looked up the phrase to see what it
meant before deliberation even started ..." (Id. at 3). The final note stated, "We have a
Jury member who SERIOUSLY doesn't understand what Reasonable Doubt is!!! We
16

APP_103

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2356

have a htmg jury and we need instructions!!! Help!!!" (Id. at 3).

Page 38 of 50

The trial court

instructed the jury with another deadlocked instruction (Id. at 14-15).
On August 29, 2013, attorney Allen Wolf appeared at court and advised the trial
judge that a juror, Maryann McGraw, had retained h i m the evening before and told h i m
that she was being harassed and verbally abused i n the jury (TT, 08/29/2013, 3-4). The
defense requested a mistrial (Id. at 7, 13).

The prosecution initially stated that

deliberations should continue, but subsequently joined i n the mistrial request {Id. at 5,
9).

The trial court foimd no basis for a mistrial, found that the juror had committed a

"flagrant violation" of the court's instructions, and found there was good cause to
dismiss the juror (Id. at 14).
A n alternate juror was called back, and rejoined the jury, which was re-instructed
and commenced deliberations at 12:48 p.m. {Id. at 23-24). The new jury convicted Mr.
W o f f o r d at 2:30 p.m. of both counts (Id. at 26-27, 28).
Mr. Wofford appeals by right.

17

APP_104

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2357

Page 39 of 50

ARGUMENTI
THE TRIAL COURT COMMITTED REVERSIBLE ERROR AND A N
ABUSE OF D I S C R E T I O N BY D E N Y I N G T H E REQUE&T FOR A
M I S T R I A L A N D , I N S T E A D , D I S M I S S I N G A H O L D O U T JUROR
DURING

DELIBERATIONS,

THEREBY

DENYING

TO

MR.

W O F F O R D H I S SIXTH A M E N D M E N T R I G H T T O H A V E H I S JURY
D E C I D E HIS FATE.
Standard of Review and Preservation of Issue

A trial court's decision to replace a deliberating juror is reviewed for an abuse of
discretion. People v Dry Land Marina, Inc., 175 Mich A p p 322, 325; 437 NW2d 391 (1989);
People V Tate, 244 Mich App 553, 559, 562; 624 NW2d 524 (2001), Iv den 465 Mich 920;
638 NW2d 749 (2001); MCL 768.18. A n abuse of discretion occurs when the coiut
chooses an outcome that falls outside the range of reasonable and principled outcomes.
People V BabcocK 469 Mich 247, 269; 666 NW2d 231 (2003).
A trial court's decision whether to grant a mistrial is reviewed for an abuse of
discretion. People v Lett, 466 Mich 206, 223; 644 NW2d 743 (2002).
Constitutional questions, e.g., the right to a fair trial, are questions of law reviewed
de novo. See, for example. People v Goldsion, 470 Mich 523; 682 NW2d 479 (2004); People
V Idziak, 484 Mich. 549, 554; 773 NW2d 616 (2009); People v Harper, 479 Mich 599, 610; 739
NW2d 523 (2007).
The issue was preserved by timely objection/request for mistrial (TT,
18

APP_105

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2358

Page 40 of 50

08/29/2013,7,13).
Analysis
As noted above, over the course of several days, the jury deliberated. However, on
the second day the jury deadlocked, 11 to 1, " w i t h no chance of the one moving their
view" (TT, 08/26/2013, 11). Later that same day one juror (it is not known f r o m the
record if i t came f r o m the foreperson, see the trial court's comment, TT, 08/26/2013,18),
advised the court that, " ... one of our jury's doubts are unreasonable, what do we do?"
{Jd. at 17-18).

The following day, two more notes were sent out relative to the holdout

juror not proving her doubts, not deliberating, and not understanding what reasonable
doubt was (TT, 08/27/2013, 3; copies of the notes are attached as Appendix A).

The

trial court found no basis for mistrial, even after twice giving the deadlocked
instruction, and, instead of mistrial, ultimately dismissed and replaced the juror. The
guilty verdicts issued about one and one-half hours later.
The case of United States v Thomas, 116 F3d 606, 621 (CA 2, 1997), provides helpful
guidance: "To remove a juror because he is unpersuaded by the Government's case is to
deny the defendant his right to a unanimous verdict." Also, " I f the record raises any
possibility that the juror's views on the merits of the case, rather than a purposeful
intent to disregard the court's instructions, underlay the request that he be discharged,
the juror must not be dismissed." Id. at 622, n. 11 (internal citations omitted).
It must be remembered that, as a general rule, a defendant is entitled to have the jury
19

APP_106

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2359

that was selected and heard the evidence decide the case.

Page 41 of 50

Stated another way, the

accused has a right to her or his jury. Dry Land, supra, 175 Mich A p p at 325 {"A criminal
defendant is placed i n jeopardy once the jury is impaneled and sworn. A t that point he
has a constitutional right to have his case completed and decided by that tribunal"); see,
also. People v Gardner, 37 Mich A p p 520, 526; 195 NW2d 62 (1972)(noting that once a jury
is sworn, a defendant has a right to have that particular tribimal decide the matter);
United States v Jom, 400 US 470, 479; 91 S Ct 547, 554; 27 L Ed 2d 543, 553 (1971); and
People V Henley, 26 Mich A p p 15, 27; 182 19 (1970); but see ]AIade v Hunter, 336 US 684,
689; 69 S Ct 834; 93 L Ed 974 (1949).
Certainly, a trial court is authorized to replace a juror when required; e.g., M C L
768.18 ("Should any condition arise during the trial of the cause which i n the opinion of
the trial court justifies the excusal of any of the jurors so impaneled f r o m further service,
he may do so and the trial shall proceed ..." ); People v Van Camp, 356 Mich 593, 605, 606;
97 N W 2 d 726 (1959).
Two cases, both dealing w i t h removal of jurors during deliberations, are helpful by
analogy. I n the Dry Land case, supra, a juror became i l l diuing deliberations. The trial
court broke early one day when the juror advised of her illness, and the court requested
the juror return the next morning, or call; the juror neither called nor appeared;
however, the juror was i n the courthouse with a friend on an unrelated matter. The
juror then told the court that she had continuing problems, was taking medications, and
20

APP_107

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2360

Page 42 of 50

she had a medical appointment scheduled for later i n the day. Over objection, the trial
court seated an alternate.

The trial court instructed the jury to being deliberations

anew. The Court of Appeals found the substitution to be reasonable as the juror had a
real or imagined disability and was reluctant to co-operate. 175 Mich A p p at 326.
Similarly, i n Tate, supra, the replacement of a deliberating jiu-or was upheld where
the juror had developed a potentially contagious rash. The Tate panel concluded the
substitution was reasonable ''especially because of the potential that the rash might
have been contagious to other jurors." 244 Mich A p p at 560. Also, defense counsel had
repeatedly expressed satisfaction w i t h the trial court's ir\structions and the process of
seating the alternate; error was waived.
The instant case is distinguishable.

The record suggests the only thing possibly

contagious was the juror's reasonable doubt. In other words, she was not contagious,
other than as a holdout.

Defense counsel d i d not repeatedly express satisfaction w i t h

the trial court's plan; instead, he objected. Further, i n both Tate and Dry Land there was
no indication of a hung-jury, or an indication of where deliberations and voting stood,
here, on the other hand, we know that — relatively early on i n the contentious
deliberations - the jury stood at 11 to 1 (see Appendix A).
As noted i n Dry Land [reflecting on potential violations of the then rules governing
deliberation), and the reasoning of which is relevant here, "The most substantial danger
... is that the alternate joining a panel which has engaged i n deliberations may be
21

APP_108

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2361

Page 43 of 50

coerced and unduly influenced by those jury members who have already formed an
opiruon." 175 Mich A p p at 329.
As noted above, the veteran jurors ~ whose minds were apparently made up and
who were not burdened w i t h the dismissed juror's doubts about the evidence — shortly
reached agreement with, or convinced, or persuaded, or possibly, coerced, the new
juror to vote guilty.

Mr. W o f f o r d was deprived of his right to have his case fairly tried

and determined by his jury. The trial court should have granted the mistrial request.
This Court can rectify the error through the granting of a new trial.

A R G U M E N T II
T H E M U R D E R C O N V I C T I O N MUST BE R E V E R S E D W H E R E
T H E E V I D E N C E WAS N O T L E G A L L Y SUFFICIENT T O P R O V E IT
B E Y O N D A R E A S O N A B L E DOUBT.
Standard of Review and Preservation of Issue
A claim of insufficient evidence is reviewed de novo, i n the light most favorable
to the prosecution, to determine whether or not a rational trier of fact could f i n d that all
of the elements of the charged offense could be found beyond a reasonable doubt.
People V Wolfe, 440 Mich 508; 489 N W 2 d 748 (1992); People v Hampton, 407 Mich 354, 366;
285 N W 2 d 284 (1979), cert den 449 US 885; Jackson v Virginia, 443 US 307; 99 S Ct 2781;
61 L Ed 2d 560 (1979); People v Johnson, 460 Mich 720, 722-723; 597 N W 2 d 73 (1999).
Preservation is not generally required for sufficiency issues. Wolfe, supra, at 516, n
22

APP_109

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2362

Page 44 of 50

6; People v Patterson, 428 Mich 503, 514; 410 NW2d 733 (1987).
Analysis
The trial record, comprised of over 2000 pages of transcript, is noteworthy for what i t
does not contain: evidence beyond a reasonable doubt of Mr. Wofford's guilty, either of
the breaking and entering or of the murder.
Notably, no D N A evidence of Mr. Wofford was found outside of the work-bench
area of the shop at the back of the office building.

Inside the tool area, where Mr.

Wofford worked on a daily basis, were found two hairs, stuck to the duct-tape on the
metal piece at the rear window, and two droplets of blood, one on the work-bench, and
the other on the w a l l nearby. Those two blood samples were taken by Worthington
using the method applicable to 'dried' blood (TT, 08/15/2013, 33-34,52).
The sample of the bloody palm-print found at the front of the office building was
also taken by Worthington (TT, 08/13/2013,196). Mr. Wofford was excluded f r o m being
the person who left that print (TT, 08/22/2013, 29, and TT, 08/23/2013, 21, 27,
testimony of Sergeant Gerald Hughes).
Similarly, no matches of the footwear impressions found, i.e., one near Mr. Gilmore's
body, another on a shovel found near the back w i n d o w of the building, and cinother on
a sign taken f r o m the shed, were made Mr. Wofford, whose footwear was also excluded
(TT, 08/22/2013, 28,156,157).
There was no evidence of any assault or struggle within the office building; the
23

APP_110

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2363

assault that killed Mr. Gilmore occurred outside near his parked van.

Page 45 of 50

There is no

physical evidence nor compelling circumstantial evidence tliat Mr. Wofford was ever at
the murder scene that day.
There are no witnesses placing Mr. Wofford at the scene of the break-in or at the
murder. The closest one might put Mr. Wofford, through Mclntyre's testimony, was
one-half mile away at Mclntyre's house. That is not compelling, even were Mclntyre
sober that night, which he surely was not; he testified he sobered u p that afternoon (TT,
08/12/2013, 213-1214, 221-222).
Indeed, the evidence certainly suggests i t was not Mr. Wofford who was there that
night, for i t was neither his palm-print on the inside vestibule door, nor his footwear
impression near M r . Gilmore's body, nor his footwear impression on the shovel.
Further, according to Mclntyre ~ and i f one believes that when he awoke at 8:30 a.nx
Mr. Wofford was sleeping on his living room floor ~ Mr. Wofford was wearing the
same clothes he had worn the night before and he had no visible evidence of any cuts,
bruises or blood {Id. at 219), through common sense almost proving there had been no
violent murderous struggle with Mr. Gilmore.
A l l of the elements of a charged offense must be proven beyond a reasonable
doubt by the prosecution to obtain a valid verdict of guilt. In re Winship, 397 US 358,
364; 90 S Ct 1068; 25 L Ed 2d 368 (1970); Jackson, supra, 443 US at 317. The elements may
be proven by circumstantial evidence and by reasonable inference, even an inference
24

APP_111

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2364

Page 46 of 50

upon an inference. See, for example. People v Jolly, 442 Mich 458, 465; 502 N W 2 d 177
(1993); Wolfe, supra, 440 Mich at 524-526; People v Carines, 460 Mich 750, 758; 597 NW2d
130 (1999); People v Hardiman, 466 Mich 417; 646 NW2d 158 (2002)(overruUng prior
prohibition against stacking inferences found in People v Alley, 392 Mich 298; 220 NW2d
465 (1974)).
When the sufficiency of the proofs are challenged the evidence, including reasonable
inferences, is reviewed i n the Ught most favorable to the non-moving party (i.e., the
prosecution) to determine whether a rational trier of fact could f i n d that all of the
elements had been proven beyond a reasonable doubt. Jackson, supra, 443 US at 317;
Wolfe, supra', Hampton, supra, 407 Mich at 366; Jolly, supra, 442 Mich at 465.
The evidence was insufficient to support that conviction, and the conviction must be
reversed to correct the due process violation.

Jackson, supra; Winship, supra; Cage v

Louisiana, 498 US 39; 111 S Ct 328; 112 L Ed 2d 339 (1990); US Const, A M XIV.

25

APP_112

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2365

Page 47 of 50

RELIEF REQUESTED

WHEREFORE^ Defendant-AppeUant Melyin Wofford. requests this Honorable
Court reverse the conviction and remand the cause for a new trial.

Respectfully submitted,
/ S / NEILJ.LEITHAUSER
NEILJ.LEITHAUSERP-33976 '
Attorney for Defend ant-Appellant
101 W. Big Beaver Rd., 14* Fir.
Troy, M I 48084
(248) 687-1404
Dated: June 30, 2014

26

APP_113

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2366

Page 48 of 50

People of Michigan v Melvin James Wofford
Court of Appeals No. 318642

APPENDIX A

APP_114

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2367

Page 49 of 50

T I I . 0 9 ^ 8 4 / ' 1 3 . 8 8 : 1 6 : 2 3 . 38126

U

ft

7f-^r9—^^^^^

APP_115

Case 2:16-cv-13083-LJM-RSW ECF No. 9-19 filed 03/02/17

PageID.2368

Page 50 of 50

T I I . 0 9 / 0 4 ' ' 1 3 . B8: 16: 2 3 . 3 8 1 Z 7

0!L

4
tfc>

ft

=1=1=

IE2

rb

•H-

J-

C.

s

APP_116

A-5

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17

PageID.2166

Page 1 of 153

STATE OF MICHIGAN
COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,

UNPUBLISHED
March 17, 2015

Plaintiff-Appellee,
v

No. 318642
Oakland Circuit Court
LC No. 2012-241569-FC

MELVIN JAMES WOFFORD,
Defendant-Appellant.
Before: DONOFRIO, P.J., and RIORDAN and GADOLA, JJ.
PER CURIAM.

Defendant, Melvin James Wofford, appeals as of right his conviction of first-degree
premeditated murder, MCL 750.316(1)(a) and (b). During the course of burglarizing the
victim’s, Thomas Gilmore’s, place of business on June 22 or 23, 1993, defendant fatally
strangled Gilmore. Defendant was sentenced to life in prison. We affirm.
I. JURY DELIBERATIONS
A. STANDARD OF REVIEW
Defendant first contends that he was denied due process when the trial court removed a
juror during deliberations and replaced her with an alternate instead of granting a mistrial. We
review the trial court’s decision on a motion for a mistrial and decision to remove a juror for an
abuse of discretion. People v Coy, 258 Mich App 1, 17; 669 NW2d 831 (2003); People v Tate,
244 Mich App 553, 559-560; 624 NW2d 524 (2001). “An abuse of discretion occurs when the
court chooses an outcome that falls outside the range of reasonable and principled outcomes.”
People v Unger, 278 Mich App 210, 217; 749 NW2d 272 (2008). “A trial court should grant a
mistrial only for an irregularity that is prejudicial to the rights of the defendant and impairs his
ability to get a fair trial.” People v Schaw, 288 Mich App 231, 236; 791 NW2d 743 (2010)
(quotation marks and citation omitted).
B. ANALYSIS
On the second day of jury deliberations, the jury sent a note to the court indicating that
the jurors were 11 to 1, with no chance of the one changing his or her view. The court instructed
the jury to resume deliberations in the hope that further discussion would result in a verdict. An
hour later, the court received another note in which the jury indicated that the doubts of one of
-1APP_117

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17

PageID.2167

Page 2 of 153

the jurors were unreasonable, and requested advice regarding how to proceed. The court
instructed the jury that, if it wished to communicate with the court, any note had to come from
the foreperson. The court also reminded the jury that it must not let anyone know how the voting
stands.
The next day, the court received several notes from the jury. The first noted stated that
one juror was not cooperating, refused to deliberate or prove her vote, “she just wants a hung
jury,” and she had “looked up the phrase to see what it meant before” deliberations started.
Another note stated: “We have a [juror] who SERIOUSLY doesn’t understand what Reasonable
Doubt is!! We have a hung jury [a]nd we need instructions!!! HELP!!!” The trial court reread
the reasonable doubt instruction, reread the aiding and abetting instruction, and instructed the
jury that it must follow the law and not obtain information from any outside source. The court
also read a second deadlock instruction, encouraging the jurors to continue deliberations.
Two days later, an attorney appeared at court and indicated that one of the jurors—Ms.
McGraw—had contacted him and said that she was being harassed and verbally abused.
Defendant stated that he assumed McGraw was the holdout, and requested a mistrial because of
the potential for a coercive verdict. Yet, the court noted that no one knew if McGraw was the
holdout, and that for all they knew the vote could be equally divided at that point. The court
noted that McGraw violated its explicit instructions about contacting anyone about the case,
which constituted good cause to remove her. The court then replaced McGraw with an alternate,
and gave the following instruction:
We now have a reconstituted jury pool. A juror has been excused for
cause and replaced with an alternate. This has nothing to do with your
deliberations and you should not allow this fact to influence your deliberations in
any way. You must start your deliberations from the beginning. You should not
discuss among you, nor with the new juror, any of your prior deliberations.
Again, you must begin your deliberations anew.
More than an hour and a half later, the jury returned its guilty verdict.
Defendant first contends that the trial court erred in removing the juror because, unlike
other cases involving the removal of a juror, McGraw was not sick. See, e.g., People v Tate, 244
Mich App 553; 624 NW2d 524 (2001). However, defendant has not supported his argument that
only severe sickness can serve as the basis for juror removal after deliberations have begun. See,
e.g., People v Harvey, 167 Mich App 734, 744; 423 NW2d 335 (1988) (reasons for discharging a
juror include “personal disability or legal disqualification.”). In fact, MCL 768.18 provides:
“Should any condition arise during the trial of the cause which in the opinion of the trial court
justifies the excusal of any of the jurors so impaneled from further service, he may do so and the
trial shall proceed, unless the number of jurors be reduced to less than 12.” As this Court
explained in Tate:
[W]hile a defendant has a fundamental interest in retaining the
composition of the jury as originally chosen, he has an equally fundamental right
to have a fair and impartial jury made up of persons able and willing to cooperate,
a right that is protected by removing a juror unable or unwilling to cooperate.
-2APP_118

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17

PageID.2168

Page 3 of 153

Removal of a juror under Michigan law is therefore at the discretion of the trial
court, weighing a defendant’s fundamental right to a fair and impartial jury with
his right to retain the jury originally chosen to decide his fate. [244 Mich App at
562 (quotation marks and citation omitted).]
Also, the court rules broadly permit the trial court to retain alternate jurors during deliberations,
presumably in case of removal. MCR 6.411.
Contrary to defendant’s assertion on appeal, the trial court did not remove McGraw
because she was a lone hold-out who was standing in the way of conviction. In fact, defendant’s
basic premise is flawed. Early on in the deliberations, the jury informed the court that they were
11 to 1. However, the jury did not reveal which way the majority was leaning or the identity of
the hold-out. Several days of continued deliberation then ensued. As the trial court found, there
was no evidence at the time of McGraw’s removal what way the jury was leaning, or the
potential division.
Moreover, the record clearly demonstrates that the trial court removed this juror because
she flagrantly violated the court’s instructions by discussing the deliberations with a non-juror.
Neither party contests McGraw’s blatant disregard for the court’s instructions, nor that it
implicated her ability to follow jury instructions. Thus, the trial court protected defendant’s right
to a fair and impartial jury “by removing a juror unable or unwilling to cooperate.” Tate, 244
Mich App at 562.
Defendant, however, contends that the trial court still should have granted a mistrial
because of the danger that the alternate juror would be influenced when faced with 11 jurors who
were convinced of his guilt. Yet, as discussed supra, there is no evidence regarding what way
the jury was leaning at the time of McGraw’s removal. Thus, to conclude that there was only
one hold-out, or that it was McGraw, is mere speculation. Significantly, the trial court properly
instructed the newly configured jury that it must deliberate anew, and disregard its prior
deliberations. See MCR 6.411; Tate, 244 Mich App at 567 (“the jury in such situations should
be instructed to begin deliberations anew.”). As we have recognized, “[j]urors are presumed to
follow their instructions, and instructions are presumed to cure most errors.” People v Abraham,
256 Mich App 265, 279; 662 NW2d 836 (2003). “Because it is . . . pure speculation that the
alternate juror was coerced, we conclude that defendant was not prejudiced by the substitution of
the alternate juror.” People v Mahone, 294 Mich App 208, 218; 816 NW2d 436 (2011).
II. SUFFICIENCY OF THE EVIDENCE
A. STANDARD OF REVIEW
Defendant next contends that the evidence was insufficient to support his conviction. We
review de novo a challenge to the sufficiency of the evidence. People v Ericksen, 288 Mich App
192, 195; 793 NW2d 120 (2010). “In determining whether the prosecutor has presented
sufficient evidence to sustain a conviction, an appellate court is required to take the evidence in
the light most favorable to the prosecutor” to ascertain “whether a rational trier of fact could find
the defendant guilty beyond a reasonable doubt.” People v Tennyson, 487 Mich 730, 735; 790
NW2d 354 (2010) (quotation marks and citations omitted). We resolve conflicts of the evidence
-3APP_119

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17

PageID.2169

Page 4 of 153

in favor of the prosecution, “and we will not interfere with the jury’s determinations regarding
the weight of the evidence and the credibility of the witnesses.” Unger, 278 Mich App at 222.
Furthermore, circumstantial evidence and reasonable inferences arising from them can constitute
sufficient proof of the elements of a crime. People v Allen, 201 Mich App 98, 100; 505 NW2d
869 (1993).
B. ANALYSIS
The only element defendant challenges regarding his first-degree murder conviction is
identity. “[I]t is well settled that identity is an element of every offense.” People v Yost, 278
Mich App 341, 356; 749 NW2d 753 (2008).
The prosecutor’s theory at trial was that the person who broke into the building also
killed the victim. Although this theory involves multiple layers of inferences, it is supported
with evidence. After the break-in, the victim was not seen or heard from until his body was
discovered. Moreover, the DNA from the blood found on the workbench and tool room wall
matched defendant’s DNA. The hair on the duct tape near the point of entry also matched
defendant’s DNA. The jury could infer from this evidence that defendant entered through the
metal-covered window, cut himself on the broken glass fragments, caught his hair on the duct
tape that had secured the metal to the window, removed the saw, and dripped small quantities of
blood on the workbench and wall. The DNA evidence established defendant’s identity as the
perpetrator of the break-in.
The similarity of footwear impressions near the victim’s body, on the shovel found near
the bent metal covering, and the metal covering further establish the common identity of the
perpetrator. Furthermore, as the perpetrator of the break-in, defendant had a motive to kill the
victim because the victim could identify him. The jury could infer that a stranger would have
chosen immediate flight instead of murder, as the victim would not have recognized the
perpetrator. Additionally, defendant had a motive to steal because the testimony indicated that
he was chronically short of money in 1993. Defendant often borrowed money from coworkers
and others. He also admitted to the grand jury that he might have given his car to his brother in
payment of a loan. The victim’s wallet was never found.
Moreover, although defendant was with another employee the night of the break-in, he
left that person’s house claiming he had something to do. When the coworker woke up in the
morning, he found defendant asleep on the living room floor. The jury could infer that defendant
committed the offenses between the time he left the house and returned. The jury also could
have found relevant that defendant missed work after the murder, he was uninterested in a
coworker’s distress over the victim’s death, and he was uncharacteristically ingratiating toward
the police.
On appeal, defendant highlights contrary evidence, such as the fact that other DNA
samples collected from the building did not match his DNA, he was excluded as the person who
left the fingerprint or palm print on the vestibule door, the footwear he was wearing at the time
of the police interview was not a match to the footwear impressions at the scene, the lack of
eyewitnesses, and that the coworker—whose house defendant slept at—was intoxicated.
However, these arguments involve the weight of evidence and the credibility of witnesses. “We
-4APP_120

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17

PageID.2170

Page 5 of 153

do not interfere with the jury’s assessment of the weight and credibility of witnesses or the
evidence[.]” People v Dunigan, 299 Mich App 579, 582; 831 NW2d 243 (2013). “[T]he
prosecution is only required to produce sufficient evidence to establish guilt; it is not required to
negate every reasonable theory consistent with a defendant's innocence.” People v Hardiman,
466 Mich 417, 430; 646 NW2d 158 (2002).
III. CONCLUSION
The trial court did not abuse its discretion in replacing a juror with an alternate or in
declining to grant a mistrial. Sufficient evidence supported defendant’s conviction. We affirm.

/s/ Pat M. Donofrio
/s/ Michael J. Riordan
/s/ Michael F. Gadola

-5APP_121

A-6

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2189

Page 24 of

STATE OF MICHIGAN
IN THE COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

Court of Appeals: 318642
Circuit Court: 2012-241569-FC

v
MELVIN JAMES WOFFORD,
Defendant-Appellant.

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

__________________________________________/

DEFENDANT-APPELLANT'S BRIEF ON APPEAL
ORAL ARGUMENT REQUESTED

NEIL J. LEITHAUSER P-33976
Attorney for Defendant-Appellant
101 W. Big Beaver Rd., 14th Flr.
Troy, MI 48084
(248) 687-1404

APP_122

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2190

Page 25 of

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

TABLE OF CONTENTS
Table of Contents

i

Index of Authorities

ii

Statement of Appellate Jurisdiction

iv

Questions Presented

iv

Statement of Facts

1

Argument I

18

THE TRIAL COURT COMMITTED REVERSIBLE ERROR AND AN
ABUSE OF DISCRETION BY DENYING A REQUEST FOR A
MISTRIAL AND, INSTEAD, DISMISSING A HOLDOUT JUROR
DURING

DELIBERATIONS,

THEREBY

DENYING

TO

MR.

WOFFORD HIS SIXTH AMENDMENT RIGHT TO HAVE HIS JURY
DECIDE HIS FATE.
Argument II

22

THE MURDER CONVICTION MUST BE REVERSED WHERE THE
EVIDENCE WAS NOT LEGALLY SUFFICIENT TO PROVE IT
BEYOND A REASONABLE DOUBT.
Relief Requested

26

-i-

APP_123

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2191

Page 26 of

INDEX OF AUTHORITIES
FEDERAL CASES
Cage v Louisiana, 498 US 39; 111 S Ct 328; 112 L Ed 2d 339 (1990)

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

In re Winship, 397 US 358; 90 S Ct 1068; 25 L Ed 2d 368 (1970)

25
24, 25

Jackson v Virginia, 443 US 307; 99 S Ct 2781; 61 L Ed 2d 560 (1979)

23, 24, 25

United States v Jorn, 400 US 470; 91 S Ct 547; 27 L Ed 2d 543 (1971)

20

United States v Thomas, 116 F3d 606 (CA 2, 1997)

19

Wade v Hunter, 336 US 684; 69 S Ct 834; 93 L Ed 974 (1949)

20

MICHIGAN CASES
People v Atley, 392 Mich 298; 220 NW2d 465 (1974)

25

People v Babcock, 469 Mich 247; 666 NW2d 231 (2003)

18

People v Carines, 460 Mich 750; 597 NW2d 130 (1999)

25

People v Dry Land Marina, Inc., 175 Mich App 322; 437 NW2d 391 (1989) 18, 20, 21
People v Gardner, 37 Mich App 520; 195 NW2d 62 (1972)

20

People v Goldston, 470 Mich 523; 682 NW2d 479 (2004)

18

People v Hampton, 407 Mich 354; 285 NW2d 284 (1979)

22, 25

People v Hardiman, 466 Mich 417; 646 NW2d 158 (2002)

25

People v Harper, 479 Mich 599; 739 NW2d 523 (2007)

18

People v Henley, 26 Mich App 15; 182 NW2d 19 (1970)

20

People v Idziak, 484 Mich 549; 773 NW2d 616 (2009)

18

-ii-

APP_124

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2192

Page 27 of

People v Johnson, 460 Mich 720; 597 NW2d 73 (1999)

22

People v Jolly, 442 Mich 458; 502 NW2d 177 (1993)

25

People v Lett, 466 Mich 206; 644 NW2d 743 (2002)

18

People v Patterson, 428 Mich 503; 410 NW2d 733 (1987)

23

People v Tate, 244 Mich App 553; 624 NW2d 524 (2001)

18, 21

People v Van Camp, 356 Mich 593; 97 NW2d 726 (1959)

20

People v Wolfe, 440 Mich 508; 489 NW2d 748 (1992)

22, 25

CONSTITUTIONAL PROVISIONS, STATUTES AND RULES
US CONST, AM VI

18

US CONST, AM XIV

25

MCL 768.18

20

-iii-

APP_125

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2193

Page 28 of

STATEMENT OF APPELLATE JURISDICTION
Jurisdiction was conferred through Const 1963, art. 1, §20; MCL 600.308(1); MCL
770.3; MCR 7.203(A); MCR 7.204(A)(2)(a); and MCR 6.425(F)(3). The final judgment was
October 3, 2013, petition for counsel was made on October 3, 2013, and pursuant to

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

MCR 6.425(F)(3) the Claim of Appeal issued October 4, 2013.

QUESTIONS PRESENTED
I.

DID THE TRIAL COURT COMMIT REVERSIBLE ERROR AND

AN ABUSE OF DISCRETION BY DISMISSING ONE OF THE
JURORS, THEREBY DENYING TO MR. WOFFORD HIS SIXTH
AMENDMENT RIGHT TO HAVE HIS JURY DECIDE HIS FATE?

Defendant-Appellant answers

“yes”

Plaintiff-Appellee would answer

“no”

II. MUST THE MURDER CONVICTION BE REVERSED WHERE THE
EVIDENCE WAS NOT LEGALLY SUFFICIENT TO PROVE IT
BEYOND A REASONABLE DOUBT?

Defendant-Appellant answers

“yes”

Plaintiff-Appellee would answer

“no”

-iv-

APP_126

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2194

Page 29 of

STATEMENT OF FACTS
Background.
This is an appeal of right by Melvin Wofford, who was tried following grand jury
indictments with the offenses of first-degree premeditated murder, MCL 750.316(1)(a),
and first-degree felony murder, MCL 750.316(1)(b). He was convicted by jury in the

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

Oakland County Circuit Court of both counts (Trial transcript [“TT”],
verdict,

,

).

Mr. Wofford was sentenced on one count by Circuit Judge Michael D. Warren to the
mandatory term of life in prison (Sentence transcript, 10/03/2013, 18-19).
Trial.
The charges arose from the June 23, 1993, murder of Thomas Gilmore in Farmington
Hills. Mr. Gilmore died from strangulation (TT, 08/06/2013, 75, testimony of Deputy
Chief Forensic Pathologist Kanu Virani). Mr. Gilmore had also sustained other injuries,
including superficial lacerations on his head from blunt force, nose fracture, voice-box
cartilage fracture, C5-6 cervical vertebra fracture, and left and right rib fractures (Id. at
65, 68, 75-76, 119; 70-72, ). The strangulation resulted from use of a ligature (Id. at 76,
77-78, 99, 109). Dr. Virani said there would have been a struggle, for there was evidence
of petechiae in the eyes (Id. at 72-73, 132).
Lisa Gilmore Bell testified that she was Mr. Gilmore’s daughter, and, in 1993, she
worked as office manager of Mr. Gilmore’s surveying office (TT, 08/05/2013, 237-240).
1

APP_127

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2195

Page 30 of

She worked until April, 1993, when she was pregnant, and did not work there regularly
after April (Id. at 239-240).
Ms. Bell said she last saw her father on the morning of Tuesday, June 22, 1993, when
she picked-up her children from a visit. Her father was in a hurry to get to work, but he
did not say why (Id. at 254-255).

She said he was then having financial problems, and

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

had filed for bankruptcy around that time (Id. at 249-250; TT, 08/06/2013, 27, 28). She
was aware of a pending lawsuit where her father might have had to testify against one
of his friends (TT, 08/06/2013, 29, 44, 45, 53).
Her father would usually get home at around 6:00 p.m., but he would sometimes
stay at the office and play cards and drink with some others (TT, 08/05/2013, 255, 252).
She became concerned when she did not hear from him on either June 23, or June 24,
1993; on June 24, 21993, she saw a news report about a death at the office building. She
contacted police, and subsequently she and her brother made an identification of Mr.
Gilmore’s body (Id. at 257, 259). She said that neither Mr. Gilmore’s glasses nor his
wallet were ever found (Id. at 263-264).
Chester Bartosik testified that he had known Mr. Gilmore for about twenty years in
1993; they were in related professions, Mr. Bartosik said, with Mr. Gilmore being a
surveyor Bartosik being an architect. Another friend, Joe Stenrose, whom Bartosik met
through Gilmore, was a civil engineer (TT, 08/06/2013, 143, 148-149). Mr. Bartosik said
he never had any problems with Mr. Gilmore, and he was not aware of any problems
2

APP_128

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2196

Page 31 of

between Mr. Gilmore and Mr. Stenrose, and there were never any serious argument
between the men (Id. at 148-149, 172). He said he would see the men two or three times
each week, either to have lunch or drinks after work (Id. at 144).
Mr. Gilmore drove a van, and, Bartosik said, if the van was there he would
sometimes drop by to visit Gilmore. He may have stopped by in the morning of

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

Wednesday, June 23, 1993, as he then told police, and saw the van was there, Gilmore’s
office lights were on, the office door was locked, but there was no answer (Id. at 151,
164). He learned of Mr. Gilmore’s death through the news on June 24, 1993 (Id. at 154).
That Wednesday, Bartosik said, he met with Stenrose for lunch; Gilmore did not meet
with them (Id. at 165).
Mr. Bartosik said he was unaware that Mr. Gilmore was having financial problems
then, and was not aware of any lawsuit where Gilmore might testify against Stenrose
(Id. at 170). Stenrose had a son, Keith, who, Bartosik told police at the time, could kick
their ‘asses.’ Keith was “like a bull ... a solid kid” (Id. at 171).
Jerone Stenrose testified that he knew Mr. Gilmore very well, and said they had
shared office-space until 1992 (Id. at 176, 178).

he said he never had any serious

disagreements with either Mr. Gilmore or Mr. Bartosik, and he could not recall
anything about a potential lawsuit at that time (Id. at 184). He knew that Mr. Gilmore
was then struggling financially and was having problems collecting from clients (Id. at
198).
3

APP_129

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2197

Page 32 of

Mr. Stenrose said his son, Keith, was then about twenty years-old and would
occasionally help Mr. Gilmore out; Mr. Gilmore owed Keith some money (Id. at 179180). Keith liked Mr. Gilmore, Mr. Stenrose said, but had stopped working for him a
couple of months before Mr. Gilmore’s death (Id. at 179-180, 198-199).
On June 23, 1993, he said he stopped by Mr. Gilmore’s office on June 23, 1993, at

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

about 6:00 p.m. Gilmore’s van was parked at the building, but the office doors were
locked and there was no answer from Mr. Gilmore (Id. at 188-189, 196).
Michael Pinkleton testified that he owned the building at 28830 8 Mile Road, and
said it was a converted school building; he rented out offices to several tenants,
including Mr. Gilmore and to a roofing company; his own construction business was
also located there. The roofing company and Mr. Gilmore had offices on the ground
floor; Mr. Pinkleton’s construction company had had the second floor. Part of the back
yard area was used by his construction company, and the remainder of the back yard
area was used by the roofing company (Id. at 204-207, 209, 210).
On the morning of June 24, 1993, one Gilmore’s employees had come around looking
for Mr. Gilmore, who could not be found.

the employee contacted Mike Huff, of the

roofing company, Huff contacted Pinkleton, and Pinkleton went into Mr. Gilmore’s
office. The lights were on in the office, and everything seemed normal (Id. at 212-214).
Mr. Pinkleton said he became concerned that Gilmore possibly suffered a heart
attack in his van, so he went outside to check the van. He saw nothing in the van, but
4

APP_130

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2198

Page 33 of

found Mr. Gilmore’s body in nearby bushes (Id. at 214).
He said he had last seen Mr. Gilmore alive on June 22, 1993, when he saw Mr.
Gilmore in his office talking on the phone; Gilmore told someone in the call that, ‘you’re
not getting any money’ (Id. at 44-45).
Mr. Pinkleton said that a window in the back work area had been broken out some

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

years before, and before the roofing company moved in, and the window had been
covered by a piece of metal (TT, 08/08/2013, 9).

On the morning of June 23, 1993, a

break-in was reported to police. Pinkleton saw that the door to the roofing office had
been ‘jimmied’ (Id. at 13).
Robert Stoechlin testified that he knew Mr. Wofford, and that in 1993 Mr. Wofford
was a trainee or roofer for Sullivan Widmer Roofing, where Stoechlin was a foreman
(Id. at 47-49). Mr. Wofford’s job was mostly to tear off old roofs, clean up, emptying the
trucks into the dumpsters, etc. (Id. at 49, 129-130, 132).
Mr. Stoechlin said he recalled there was a break-in in June, 1993; the only thing stolen
was an old circular saw from the back tool/shop area. Hand-tools and broken items
were kept in the shop area; the more expensive tools were kept in the roofing office due
to prior break-ins at the company property (Id. at 62-63, 54-56, 114). One of the broken
items kept in that area was a hammer handle (Id. at 62-63, 87-88, 89, 94). Stoechlin last
saw the hammer handle in his toolbox several weeks before Mr. Gilmore’s death (Id. at
95).
5

APP_131

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2199

Page 34 of

Mr. Stoechlin said he would see Mr. Gilmore almost every day (Id. at 64). On June
24, 1993, the day Mr. Gilmore’s body was found, Stoechlin said he did not see Mr.
Wofford at the office, and could not recall if Mr. Wofford worked that day, but thought
he did not. He also thought Mr. Wofford had not worked June 23, 1993 (Id. at 151-152).
Later that evening, Mr. Wofford came to Stoechlin’s house and asked to borrow some

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

money, about seven or eight dollars (Id. at 65-67, 69, 95-96). He did not notice anything
unusual about Mr. Wofford, and he saw no cuts or bruises on Mr. Wofford (Id. at 149150).
Mr. Stoechlin said he spoke with Mr. Wofford about Mr. Gilmore’s death, and Mr.
Wofford did not seem interested, upset, or surprised, and did not ask any questions (Id.
at 68-69, 103).

Mr. Stoechlin said that as far as he knew, Mr. Wofford had no

relationship with Mr. Gilmore, and that Mr. Wofford was not a party to the gatherings
with Bartosik and the others.

He had never seen Mr. Wofford socialize with Mr.

Gilmore (Id. at 125, 126, 127).
A police detective showed up at Stoechlin’s house that evening and wanted the men
to come in for questioning; both men voluntarily went in. Along the way, Stoechlin
said, Mr. Wofford was acting “unusually” nice to the officer (Id. at 98, 102, 140-141).
Mr. Stoechlin said that Mr. Wofford, who was then between twenty and twenty-two
years of age, worked for the roofing company through the summer in 1993 (Id. at 109110, 124).
6

APP_132

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2200

Page 35 of

Stoechlin said that if they needed to bend metal for a residential job, the bending
would be done on a portable metal brake kept in the shed.

He could not recall Mr.

Wofford making drip-edges with the brake, but it “could have happened” (Id. at 112113, 119-120).
Stoechlin said that the broken window at the back of the shop, repaired with a piece

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

of metal, had always been like that and had not been fixed (Id. at 144-145).
Michael Huff testified that he was a roofing contractor and had his office in the
building at 28830 8 Mile Road, and his business had been there for about two and onehalf years before Mr. Gilmore’s death (TT, 08/12/2013, 8). He considered Mr. Gilmore
a best friend (Id. at 15-16).
Mr. Huff said that in 1993 most of the work was residential, but there was some
commercial work done. There were two metal brakes for bending metal; the large one - used for commercial work -- was in the back tool area, and a smaller one -- used for
residential work -- was in the shed. Huff said that drip-edges for residential jobs were
purchased, instead of being bent in the shed (Id. at 10-11, 13).
Mr. Wofford was a laborer who could do both residential and commercial work, had
worked there for about one year prior to Mr. Gilmore’s death, his job would be to
would tear-off shingles, clean up, etc. (Id. at 19-20, 63-64, 65-66). Mr. Wofford was a
good worker and employee (Id. at 90-91, 106).
Huff said he was usually the first person at the building in the morning, usually at
7

APP_133

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

about 7:00 a.m. (Id. at 14, 16).

PageID.2201

Page 36 of

On June 23, 1993, he went to open his office door and

noticed a chip of the veneer was missing from the door; the office was still locked, and
no one had gained entry into the office (Id. at 21-22). He went to the back shop area and
saw that the metal piece over a window had been pushed in; he called police, and later
gave them the names of former employees he thought might be responsible (Id. at 21,

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

67-68, 70). The metal piece had been secured to the window frame with duct-tape (Id. at
104-105). He saw a shovel, which was normally kept in the shed, near the window (Id.
at 47-48).
The shop area, Huff said, was used for bending metal.

There was also a work-

bench in the shop, and Huff noticed that a circular saw was missing from the bench (Id.
at 25). Huff also saw a smear on the glass by the front door of the building that
morning, maybe a half-hand print; one of the tenants cleaned it off (Id. at 37-38).
Mr. Gilmore’s body was found the next morning (Id. at 46).
Mr. Huff said he could not remember what Mr. Wofford did in the work room area,
and could not remember if he used the large metal brake or not, but did not think that
Mr. Wofford used it (Id. at 28, 30). He could not remember if any of the employees cut
themselves in that work area, or if he had seen any blood in the work-bench area before
Mr. Gilmore’s death; he said it was possible that he did (Id. at 33, 29). It was not
unusual to get cuts on one’s hands and arms in that work, Huff said (Id. at 92-93).
Mr. Huff said that a petty-cash box was kept in the office; his wife, Maria, was
8

APP_134

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2202

Page 37 of

responsible for handing out any of the cash. The workers were often broke, so they
would often need advances or lunch money (Id. at 34-35).
Mr. Huff said Mr. Wofford did not work on June 23rd or the 24th, he said, but he
could not recall if Mr. Wofford worked there until 1994 (Id. at 45, 98, 72, 101, 107).
Huff said it was not unusual for the workers to have a few beers after work either in

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

the shop, or out in the yard (Id. at 80).
Maria Huff testified that she worked at the roofing company in 1993, and took care of
the office, phones, and payroll (Id. at 110-111). Only she and Mr. Huff had keys to the
office (Id. at 116).
On June 23, 1993, the day of the break-in, she noticed a smear of blood, like a hand or
palm print, on the glass vestibule door. Later that day, one of the tenants cleaned it off
(Id. at 122-123).
Michael McIntyre testified that he had known Mr. Wofford since grade-school. He
worked at the roofing company as a shingle-person (Id. at 147-149).
one-half mile from the roofing company (Id. at 155).

He lived about

McIntyre said he knew Mr.

Gilmore from having drinks with him after work, one to three times each week (Id. at
153, 179).
In the days before Mr. Gilmore’s body was found, McIntyre said, they were involved
in a job requiring an extensive tear-off, and replacement of rafters. He could not recall if
the job required any bending of metal (Id. at 150, 153).
9

APP_135

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2203

Page 38 of

On Tuesday, June 22, 1993, he worked at the job with Mr. Wofford and Mr. Stoechlin
(Id. at 162). That night was McIntyre’s regular drinking night, for drinks were on sale
on Tuesdays (Id. at 163-164). He asked Mr. Wofford if he wanted to go drinking that
evening, and Mr. Wofford later came over to McIntyre’s house at about 9:00 p.m. - 9:30
p.m. They went to the bar at 7 Mile and Middlebelt with McIntyre’s mother, and drove

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

separately, and later they left the bar at about 2:30 a.m. (Id. at 164-165, 167). Mr.
Wofford followed McIntyre’s mother to the house, and they arrived at about 2:30 a.m. 3:00 a.m. Mr. McIntyre said he asked Mr. Wofford to stay, but Mr. Wofford said he had
something he had to do (Id. at 168-169). McIntyre was pretty certain that Mr. Wofford
left, but his memory was a “little cloudy due to all the drinking” (Id. at 232, 236).
Mr. McIntyre said he awoke at about 8:30 a.m. - 9:00 a.m. and saw Mr. Wofford
sleeping on the living room floor; McIntyre, who drank ‘a lot’ and got drunk that night,
could not recall Wofford coming in (Id. at 170, 213-214, 221).

The two went to work;

Mr. McIntyre was ‘hungover pretty good,’ and Mr. Wofford told McIntyre that he did
not feel well. Mr. Wofford then left the job (Id. at 171, 221-222). The roofing job was
finished that afternoon (Id. at 172). McIntyre said when he returned to the office with
Huff and Stoechlin that afternoon he learned there had been a break-in (Id. at 173). He
saw blood on the glass vestibule door near the door handle (Id. at 175-176).
On June 24, 1993, Stoechlin told McIntyre about Gilmore’s body being found;
Stoechlin expressed some concern, McIntyre said, because Stoechlin’s hammer handle
10

APP_136

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2204

Page 39 of

may have been used in the murder (Id. at 180, 199-200).
Mr. McIntyre said it was ‘common knowledge’ that Mr. Gilmore would sometimes
stay the night at his office (Id. at 180).
Mr. McIntyre said he did not see Mr. Wofford at work on June 24th; Mr. Wofford
continued to work with McIntyre through that summer (Id. at 178, 180, 223).

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

Mr. McIntyre said he suspected, and so told police, that a person named Mike
Marshall had committed the murder. Marshall, he said, had been let go because of
concerns about break-ins, missing tools, drug use, and Marshall also had a violent past
(Id. at 194, 242).
Karen McPherson testified that in June, 1993, she lived in a house diagonally across 8
Mile from the building where the roofing company and Gilmore’s offices were located
(Id. at 246-247). She then was also working part-time at a party store near the building,
and knew Mr. Gilmore as a regular customer (Id. at 247-248, 254-257).
Ms. McPherson said she then owned a Mastiff which, about two weeks before Mr.
Gilmore’s body was found, was very worked-up when it noticed a trespasser breaking
into her shed; it ‘took everything’ for her to control the animal (Id. at 250, 252).
On June 23, 1993, between 1:00 a.m. and 4:00 a.m., the dog was acting “nuts,” tearing
at the curtains and looking in the direction of the business across 8 Mile; she had to lock
the dog in the bathroom (Id. at 263, 259-260).

She thought that the bum who had

trespassed before might have returned (Id. at 260). She later saw police at the business
11

APP_137

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2205

Page 40 of

and learned about the break-in (Id. at 264).
Timothy Swanson testified that in 1993 he was a detective with the Farmington Hills
Police. He briefly interviewed Mr. Wofford, and other employees, on June 24, 1993, as
part of the investigation. Mr. Wofford told him he had worked all day June 22, went to
the bar that night with McIntyre and McIntyre’s mother, went home and stayed home

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

all day because of his condition from drinking (Id. at 286-287; TT, 08/13/2013, 8). He
said he returned to work n June 24th (TT, 08/12/2013, 288).
Officer Swanson did not recall, and had no notes of seeing any injuries on Mr.
Wofford (Id. at 290-291). he said he would have noticed any fresh cuts on Mr. Wofford,
for he was aware that some blood had been found at the scene (TT, 08/13/2013, 14-15).
Mr. Wofford was cooperative and allowed hair samples and photos of his face and
hands to be taken (TT, 08/12/2013, 289; TT, 08/13/2013, 10-12).

Mr. Wofford denied

any responsibility for the breaking and entering and of the murder and said that he did
not really know Mr. Gilmore, had never really talked with him, and thought Mr.
Gilmore might not even recognize Mr. Wofford (Id. at 12, 13-14).
Patrick Sidge, a police officer with Farmington Hills in 1993, testified that he
responded to the building on June 23, 1993, on a call of a break-in (Id. at 22). He was
shown the back window, told that a circular saw was missing, and he saw pry marks on
the door to the roofing office (Id. at 25-27).

He saw some blood smears in the vestibule

in the front of the building, and saw a 1/4” blood drop on the work-bench in the back
12

APP_138

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2206

Page 41 of

shop area (Id. at 28, 41, 180, 100-101). It appeared to be a random breaking and entering
(Id. at 132).
He returned the next day, after Mr. Gilmore’s body had been found, to process the
scenes; the blood smear he saw in the vestibule was gone; he did find another drop of
blood on a wall in the work area (Id. at 36, 42, 104). He said the droplets looked “fresh;”

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

he acknowledged that he did not include in his original report that the drops looked
fresh (Id. at 159-160, 169). Sidge found two hairs stuck to the duct-tape on the metal
piece at the back window of the building, and he saw and photographed a footwear
impression near Mr. Gilmore’s body (Id. at 70-71, 93). There were no signs of a struggle
in Mr. Gilmore’s office (Id. at 142, 143).
James Worthington testified that in 1993 he was a Farmington Hills police officer,
and responded to the building on June 23, 1993, to the call about a breaking and
entering (Id. at 188). He saw a partial palm-print and blood smear on a glass door at the
front of the building; he lifted the print (Id. at 196). He did not find blood near the
window with the metal piece; he noticed two drops of blood in the work-bench area (Id.
at 211-212). He tested, or took samples, of the blood drops using the method utilized
for “dried” blood (TT, 08/15/2013, 33-34, 52).
He took a cast of the footwear impression near Mr. Gilmore’s body (TT, 08/13/2013,
229), and he found a partial footwear impression on the metal piece at the window (TT,
08/15/013, 8-10). He saw similarities between the impression on the metal piece, with
13

APP_139

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2207

one found on a shovel, and one that was near the victim’s body (Id. at 12-13).

Page 42 of

He was

not aware that Mr. Wofford’s footwear was later eliminated as a cause of the print on
the shovel (Id. at 45).
The sample from the inner, or vestibule door collected by Worthington was
examined by a forensic scientist and found to contain blood; the sample was insufficient

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

to obtain a DNA profile (Id. at 121, 123, testimony of forensic scientist Lynne Helton).
Ms. Helton said DNA testing was not available in 1993, when she first worked on the
case, and the State Police did not test hair for DNA until 2000 or 2001 (Id. at 82-83, 84,
106-107).
Ms. Helton said that after 1993, her next involvement in the case was in 2011, when
the hairs were examined for DNA, and a confirmatory testing was done on the blood
samples (TT, 08/16/2013, 29, 35-37, 39). She was able to get DNA from both hair roots,
and testified it matched Mr. Wofford’s DNA profile (Id. at 38-39, 60-65). Neither hair
appeared to have been forcibly pulled (Id. at 126). The two blood-drop samples taken
from the work-bench area were matched to Mr. Wofford in 2012 (Id. at 42-43, 44-45, 85).
Ms. Helton said that all of the samples taken from Mr. Gilmore’s body, or the
‘outside samples,’ matched Mr. Gilmore’s DNA (Id. at 48).

Mr. Gilmore’s blood was

excluded as being a contributor to the two work-bench area, or ‘inside samples,’ blooddroplets (Id. at 54, 59).

Mr. Wofford was excluded from being a donor to any of the

samples taken from Mr. Gilmore (Id. at 73, 76, 79, 113, 116). The only DNA of Mr.
14

APP_140

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2208

Page 43 of

Wofford was found in the tool shop area (Id. at 117).
The palm print found on the vestibule door did not match Mr. Wofford, who was
excluded as the donor (TT, 08/22/2013, 29, and TT, 08/23/2013, 21, 27, testimony of
Sergeant Gerald Hughes). No matches of the footwear impressions found were made
Mr. Wofford, whose footwear was also excluded from making the impression found on

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

the shovel (TT, 08/22/2013, 28, 156, 157) (see, also, the prosecutor’s acknowledgement
that the bloody hand print and the footwear did not match Mr. Wofford, TT,
08/23/2013, 36-37).
Mr. Wofford’s testimony before the grand jury was read into the record (TT,
08/22/2013, 39-144).

In the testimony, Mr. Wofford denied committing the break-in,

denied assisting anyone else, and denied knowing anything about Mr. Gilmore’s
murder (Id. at 130-132).
Sgt. Hughes said that two people, a Mathis and a Laughlin, were considered suspect
in this case, for they were suspects in a breaking and entering and strangulation murder
occurring in Ferndale around the time of Mr. Gilmore’s murder (Id. at 172).
was very similar, Hughes said (Id. at 173).

The MO

However, there was no follow-up to get

samples from the men because there was no “need to,” and there was no physical
evidence to connect the men -- who also denied culpability -- to this crime (Id. at 173174, 177, 178, 184).
Mr. Wofford did not testify and no defense witnesses were presented (TT,
15

APP_141

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2209

Page 44 of

08/23/2013, waiver of testimony, 29-32).
The trial court denied a motion for directed verdict of acquittal, and overruled a
defense objection to including aiding and abetting instructions for the jury (Id. at 56-59,
32-38).
Deliberations.

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

After being instructed, the jury commenced deliberation August 23, 2013, at 3:39 p.m.
(TT, 08/23/2013, 218).
On August 26, 2013, the jury sent out a note at 3:21 p.m. that it was stuck at 11 to 1,
“with no chance of the one moving their view” (TT, 08/26/2013, 11).

The defense

requested the deadlocked instruction be given, and the trial court so instructed the jury
(Id. at 13, 15-16). The jury returned to deliberations at 2:30 p.m. (Id. at 16).
At 3:31 p.m. a note was received from a juror, not through the foreperson, stating,
“Excuse me Judge, one of our jury’s doubts are unreasonable, what do we do?” (Id. at
17-18).
On August 27, 2013, three notes were received by the trial court (TT, 08/27/2013, 3).
One note involved a question about aiding and abetting. Another stated there was a
juror who was “not cooperating and [who] refuses to deliberate or prove to us her vote.
She just wants a hung jury. She also stated she had looked up the phrase to see what it
meant before deliberation even started ...” (Id. at 3). The final note stated, “We have a
Jury member who SERIOUSLY doesn’t understand what Reasonable Doubt is!!! We
16

APP_142

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2210

have a hung jury and we need instructions!!! Help!!!” (Id. at 3).

Page 45 of

The trial court

instructed the jury with another deadlocked instruction (Id. at 14-15).
On August 29, 2013, attorney Allen Wolf appeared at court and advised the trial
judge that a juror, Maryann McGraw, had retained him the evening before and told him
that she was being harassed and verbally abused in the jury (TT, 08/29/2013, 3-4). The

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

defense requested a mistrial (Id. at 7, 13).

The prosecution initially stated that

deliberations should continue, but subsequently joined in the mistrial request (Id. at 5,
9). The trial court found no basis for a mistrial, found that the juror had committed a
“flagrant violation” of the court’s instructions, and found there was good cause to
dismiss the juror (Id. at 14).
An alternate juror was called back, and rejoined the jury, which was re-instructed
and commenced deliberations at 12:48 p.m. (Id. at 23-24). The new jury convicted Mr.
Wofford at 2:30 p.m. of both counts (Id. at 26-27, 28).
Mr. Wofford appeals by right.

17

APP_143

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2211

Page 46 of

ARGUMENT I
THE TRIAL COURT COMMITTED REVERSIBLE ERROR AND AN
ABUSE OF DISCRETION BY DENYING THE REQUEST FOR A
MISTRIAL AND, INSTEAD, DISMISSING A HOLDOUT JUROR
DURING

DELIBERATIONS,

THEREBY

DENYING

TO

MR.

WOFFORD HIS SIXTH AMENDMENT RIGHT TO HAVE HIS JURY

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

DECIDE HIS FATE.
Standard of Review and Preservation of Issue

A trial court’s decision to replace a deliberating juror is reviewed for an abuse of
discretion. People v Dry Land Marina, Inc., 175 Mich App 322, 325; 437 NW2d 391 (1989);
People v Tate, 244 Mich App 553, 559, 562; 624 NW2d 524 (2001), lv den 465 Mich 920;
638 NW2d 749 (2001); MCL 768.18. An abuse of discretion occurs when the court
chooses an outcome that falls outside the range of reasonable and principled outcomes.
People v Babcock, 469 Mich 247, 269; 666 NW2d 231 (2003).
A trial court’s decision whether to grant a mistrial is reviewed for an abuse of
discretion. People v Lett, 466 Mich 206, 223; 644 NW2d 743 (2002).
Constitutional questions, e.g., the right to a fair trial, are questions of law reviewed
de novo. See, for example, People v Goldston, 470 Mich 523; 682 NW2d 479 (2004); People
v Idziak, 484 Mich. 549, 554; 773 NW2d 616 (2009); People v Harper, 479 Mich 599, 610; 739
NW2d 523 (2007).
The issue was preserved by timely objection/request for mistrial (TT,
18

APP_144

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2212

Page 47 of

08/29/2013, 7, 13).
Analysis
As noted above, over the course of several days, the jury deliberated. However, on
the second day the jury deadlocked, 11 to 1, “with no chance of the one moving their
view” (TT, 08/26/2013, 11).

Later that same day one juror (it is not known from the

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

record if it came from the foreperson, see the trial court’s comment, TT, 08/26/2013, 18),
advised the court that, “ ... one of our jury’s doubts are unreasonable, what do we do?”
(Id. at 17-18).

The following day, two more notes were sent out relative to the holdout

juror not proving her doubts, not deliberating, and not understanding what reasonable
doubt was (TT, 08/27/2013, 3; copies of the notes are attached as Appendix A).

The

trial court found no basis for mistrial, even after twice giving the deadlocked
instruction, and, instead of mistrial, ultimately dismissed and replaced the juror. The
guilty verdicts issued about one and one-half hours later.
The case of United States v Thomas, 116 F3d 606, 621 (CA 2, 1997), provides helpful
guidance: “To remove a juror because he is unpersuaded by the Government's case is to
deny the defendant his right to a unanimous verdict.” Also, “If the record raises any
possibility that the juror's views on the merits of the case, rather than a purposeful
intent to disregard the court's instructions, underlay the request that he be discharged,
the juror must not be dismissed.” Id. at 622, n. 11 (internal citations omitted).
It must be remembered that, as a general rule, a defendant is entitled to have the jury
19

APP_145

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

that was selected and heard the evidence decide the case.

PageID.2213

Page 48 of

Stated another way, the

accused has a right to her or his jury. Dry Land, supra, 175 Mich App at 325 ("A criminal
defendant is placed in jeopardy once the jury is impaneled and sworn. At that point he
has a constitutional right to have his case completed and decided by that tribunal"); see,
also, People v Gardner, 37 Mich App 520, 526; 195 NW2d 62 (1972)(noting that once a jury

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

is sworn, a defendant has a right to have that particular tribunal decide the matter);
United States v Jorn, 400 US 470, 479; 91 S Ct 547, 554; 27 L Ed 2d 543, 553 (1971); and
People v Henley, 26 Mich App 15, 27; 182 19 (1970); but see Wade v Hunter, 336 US 684,
689; 69 S Ct 834; 93 L Ed 974 (1949).
Certainly, a trial court is authorized to replace a juror when required; e.g., MCL
768.18 (“Should any condition arise during the trial of the cause which in the opinion of
the trial court justifies the excusal of any of the jurors so impaneled from further service,
he may do so and the trial shall proceed ...” ); People v Van Camp, 356 Mich 593, 605, 606;
97 NW2d 726 (1959).
Two cases, both dealing with removal of jurors during deliberations, are helpful by
analogy. In the Dry Land case, supra, a juror became ill during deliberations. The trial
court broke early one day when the juror advised of her illness, and the court requested
the juror return the next morning, or call; the juror neither called nor appeared;
however, the juror was in the courthouse with a friend on an unrelated matter. The
juror then told the court that she had continuing problems, was taking medications, and
20

APP_146

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2214

Page 49 of

she had a medical appointment scheduled for later in the day. Over objection, the trial
court seated an alternate. The trial court instructed the jury to being deliberations
anew. The Court of Appeals found the substitution to be reasonable as the juror had a
real or imagined disability and was reluctant to co-operate. 175 Mich App at 326.
Similarly, in Tate, supra, the replacement of a deliberating juror was upheld where

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

the juror had developed a potentially contagious rash. The Tate panel concluded the
substitution was reasonable “especially because of the potential that the rash might
have been contagious to other jurors.” 244 Mich App at 560. Also, defense counsel had
repeatedly expressed satisfaction with the trial court's instructions and the process of
seating the alternate; error was waived.
The instant case is distinguishable.

The record suggests the only thing possibly

contagious was the juror’s reasonable doubt. In other words, she was not contagious,
other than as a holdout. Defense counsel did not repeatedly express satisfaction with
the trial court’s plan; instead, he objected. Further, in both Tate and Dry Land there was
no indication of a hung-jury, or an indication of where deliberations and voting stood.
here, on the other hand, we know that -- relatively early on in the contentious
deliberations -- the jury stood at 11 to 1 (see Appendix A).
As noted in Dry Land [reflecting on potential violations of the then rules governing
deliberation), and the reasoning of which is relevant here, “The most substantial danger
... is that the alternate joining a panel which has engaged in deliberations may be
21

APP_147

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2215

Page 50 of

coerced and unduly influenced by those jury members who have already formed an
opinion.” 175 Mich App at 329.
As noted above, the veteran jurors -- whose minds were apparently made up and
who were not burdened with the dismissed juror’s doubts about the evidence -- shortly
reached agreement with, or convinced, or persuaded, or possibly, coerced, the new

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

juror to vote guilty. Mr. Wofford was deprived of his right to have his case fairly tried
and determined by his jury. The trial court should have granted the mistrial request.
This Court can rectify the error through the granting of a new trial.

ARGUMENT II
THE MURDER CONVICTION MUST BE REVERSED WHERE
THE EVIDENCE WAS NOT LEGALLY SUFFICIENT TO PROVE IT
BEYOND A REASONABLE DOUBT.
Standard of Review and Preservation of Issue
A claim of insufficient evidence is reviewed de novo, in the light most favorable
to the prosecution, to determine whether or not a rational trier of fact could find that all
of the elements of the charged offense could be found beyond a reasonable doubt.
People v Wolfe, 440 Mich 508; 489 NW2d 748 (1992); People v Hampton, 407 Mich 354, 366;
285 NW2d 284 (1979), cert den 449 US 885; Jackson v Virginia, 443 US 307; 99 S Ct 2781;
61 L Ed 2d 560 (1979); People v Johnson, 460 Mich 720, 722-723; 597 NW2d 73 (1999).
Preservation is not generally required for sufficiency issues. Wolfe, supra, at 516, n
22

APP_148

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2216

Page 51 of

6; People v Patterson, 428 Mich 503, 514; 410 NW2d 733 (1987).
Analysis
The trial record, comprised of over 2000 pages of transcript, is noteworthy for what it
does not contain: evidence beyond a reasonable doubt of Mr. Wofford’s guilty, either of
the breaking and entering or of the murder.

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

Notably, no DNA evidence of Mr. Wofford was found outside of the work-bench
area of the shop at the back of the office building.

Inside the tool area, where Mr.

Wofford worked on a daily basis, were found two hairs, stuck to the duct-tape on the
metal piece at the rear window, and two droplets of blood, one on the work-bench, and
the other on the wall nearby. Those two blood samples were taken by Worthington
using the method applicable to ‘dried’ blood (TT, 08/15/2013, 33-34, 52).
The sample of the bloody palm-print found at the front of the office building was
also taken by Worthington (TT, 08/13/2013, 196). Mr. Wofford was excluded from being
the person who left that print (TT, 08/22/2013, 29, and TT, 08/23/2013, 21, 27,
testimony of Sergeant Gerald Hughes).
Similarly, no matches of the footwear impressions found, i.e., one near Mr. Gilmore’s
body, another on a shovel found near the back window of the building, and another on
a sign taken from the shed, were made Mr. Wofford, whose footwear was also excluded
(TT, 08/22/2013, 28, 156, 157).
There was no evidence of any assault or struggle within the office building; the
23

APP_149

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2217

assault that killed Mr. Gilmore occurred outside near his parked van.

Page 52 of

There is no

physical evidence nor compelling circumstantial evidence that Mr. Wofford was ever at
the murder scene that day.
There are no witnesses placing Mr. Wofford at the scene of the break-in or at the
murder. The closest one might put Mr. Wofford, through McIntyre’s testimony, was

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

one-half mile away at McIntyre’s house. That is not compelling, even were McIntyre
sober that night, which he surely was not; he testified he sobered up that afternoon (TT,
08/12/2013, 213-1214, 221-222).
Indeed, the evidence certainly suggests it was not Mr. Wofford who was there that
night, for it was neither his palm-print on the inside vestibule door, nor his footwear
impression near Mr. Gilmore’s body, nor his footwear impression on the shovel.
Further, according to McIntyre -- and if one believes that when he awoke at 8:30 a.m.
Mr. Wofford was sleeping on his living room floor -- Mr. Wofford was wearing the
same clothes he had worn the night before and he had no visible evidence of any cuts,
bruises or blood (Id. at 219), through common sense almost proving there had been no
violent murderous struggle with Mr. Gilmore.
All of the elements of a charged offense must be proven beyond a reasonable
doubt by the prosecution to obtain a valid verdict of guilt. In re Winship, 397 US 358,
364; 90 S Ct 1068; 25 L Ed 2d 368 (1970); Jackson, supra, 443 US at 317. The elements may
be proven by circumstantial evidence and by reasonable inference, even an inference
24

APP_150

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2218

Page 53 of

upon an inference. See, for example, People v Jolly, 442 Mich 458, 465; 502 NW2d 177
(1993); Wolfe, supra, 440 Mich at 524-526; People v Carines, 460 Mich 750, 758; 597 NW2d
130 (1999); People v Hardiman, 466 Mich 417; 646 NW2d 158 (2002)(overruling prior
prohibition against stacking inferences found in People v Atley, 392 Mich 298; 220 NW2d
465 (1974)).

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

When the sufficiency of the proofs are challenged the evidence, including reasonable
inferences, is reviewed in the light most favorable to the non-moving party (i.e., the
prosecution) to determine whether a rational trier of fact could find that all of the
elements had been proven beyond a reasonable doubt. Jackson, supra, 443 US at 317;
Wolfe, supra; Hampton, supra, 407 Mich at 366; Jolly, supra, 442 Mich at 465.
The evidence was insufficient to support that conviction, and the conviction must be
reversed to correct the due process violation. Jackson, supra; Winship, supra; Cage v
Louisiana, 498 US 39; 111 S Ct 328; 112 L Ed 2d 339 (1990); US Const, AM XIV.

25

APP_151

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2219

Page 54 of

RELIEF REQUESTED

WHEREFORE, Defendant-Appellant Melvin Wofford requests this Honorable
Court reverse the conviction and remand the cause for a new trial.

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

Respectfully submitted,
/S/ NEIL J. LEITHAUSER
_____________________________
NEIL J. LEITHAUSER P-33976
Attorney for Defendant-Appellant
101 W. Big Beaver Rd., 14th Flr.
Troy, MI 48084
(248) 687-1404
Dated: June 30, 2014

26

APP_152

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2220

Page 55 of

APP_153

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2221

Page 56 of

APP_154

RECEIVED by Michigan Court of Appeals 6/30/2014 11:26:25 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2222

Page 57 of

APP_155

A-7

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2225

Page 60 of

STATE OF MICHIGAN
IN THE COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,
Court of Appeals
No. 318642

Plaintiff-Appellee,
-vs-

Circuit Court
No. 2012-241569-FC

MELVIN JAMES WOFFORD
Defendant-Appellant.

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

/

PLAINTIFF’S BRIEF ON APPEAL
(ORAL ARGUMENT REQUESTED)

JESSICA R. COOPER
PROSECUTING ATTORNEY
OAKLAND COUNTY
THOMAS R. GRDEN
CHIEF, APPELLATE DIVISION

BY:

DANIELLE WALTON (P52042)
Assistant Prosecuting Attorney
Oakland County Prosecutor’s Office
1200 North Telegraph Road
Pontiac, Michigan 48341
(248) 858-0685

APP_156

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2226

Page 61 of

TABLE OF CONTENTS

PAGE

COUNTERSTATEMENT OF JURISDICTION ............................................................................ ii

INDEX TO AUTHORITIES ......................................................................................................... iii

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

COUNTERSTATEMENT OF QUESTIONS PRESENTED ........................................................ vi

COUNTERSTATEMENT OF FACTS ...........................................................................................1

ARGUMENTS:

I.
WHEN A JUROR COMMITTED A FLAGRANT VIOLATION OF THE
COURT’S INSTRUCTIONS BY HIRING AN ATTORNEY DURING THE
COURSE OF DELIBERATIONS, WHICH THE COURT INDICATED CAST
DOUBT ON THE JUROR’S ABILITY TO FOLLOW INSTRUCTIONS
NECESSARY TO RENDER A JUST AND FAIR VERDICT, THE TRIAL
COURT DID NOT ABUSE ITS DISCRETION IN EXCUSING THE JUROR
AND SELECTING AN ALTERNATE TO BEGIN DELIBERATIONS ANEW.
Standard of Review ............................................................................................................28
Issue Preservation..............................................................................................................28
Discussion ..........................................................................................................................29
II.
WHEN THE DEFENDANT NOT ONLY LEFT HIS GENETIC
FINGERPRINT AT THE CRIME SCENE BUT HAD THE MEANS, MOTIVE
AND OPPORTUNITY TO COMMIT THE MURDER AND HIS BEHAVIOR
SHOWED CONSCIOUSNESS OF GUILT, THERE WAS SUFFICIENT
EVIDENCE TO PROVE HIS IDENTITY AS THE MURDERER.
Standard of Review ............................................................................................................40
Issue Preservation..............................................................................................................40
Discussion ..........................................................................................................................41

RELIEF ..........................................................................................................................................49
i

APP_157

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2227

Page 62 of

COUNTERSTATEMENT OF JURISDICTION
The People agree that the statement of jurisdiction alleged by defendant is accurate
pursuant to MCR 7.212(D)(2) and add that defendant has an appeal by right pursuant to MCL

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

600.308(1), MCL 770.3, MCR 7.203(A), and MCR 7.204(A)(2)

ii

APP_158

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2228

Page 63 of

INDEX TO AUTHORITIES CITED
CASES

PAGE

People v Betts unpublished per curiam decision of the Court of Appeals,
dec’d April 23, 2009 (Docket No. 282399) ...................................................................................... 37, 40
People v Bibbs, unpublished per curiam decision of the Court of Appeals
dec’d November 16, 2004 (Docket No. 248374) .................................................................................... 35
People v Carines, 460 Mich 750; 597 NW2d 130 (1999) .......................................................................... 41
People v Dunigan, 299 Mich App 579; 831 NW2d 243 (2013) ................................................................. 41

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

People v Eisen, 296 Mich App 326; 820 NW2d 229 (2012) ...................................................................... 42
People v Gayheart, 285 Mich App 202; 776 NW2d 330 (2009) ................................................................ 41
People v Graves, 458 Mich 476; 581 NW2d 229 (1998) ........................................................................... 39
People v Harvey, 167 Mich App 734; 423 NW2d 335 (1988) ................................................................... 34
People v Herbert, 444 Mich 466; 511 NW2d 654 (1993) .......................................................................... 43
People v Hicks, 447 Mich 819; 528 NW2d 136 (1994) .............................................................................. 38
People v Honeycutt, 20 Cal 3d 150; 141 Cal Rptr 698; 570 P2d 1050 (1977) ........................................... 35
People v Hubbert, unpublished per curiam decision of the Court of Appeals
dec’d December 3, 2002 (Docket No. 226318) ...................................................................................... 37
People v Jackson, 292 Mich App 583; 808 NW2d 541 (2011) .................................................................. 40
People v Kearn, 6 Mich App 406; 149 NW2d 216 (1967) ......................................................................... 41
People v Ledesma, 39 Cal 4th 641; 47 Cal Rptr 326; 140 P3d 657 (2006) ................................................. 37
People v Lett, 466 Mich 206; 644 NW2d 743 (2002) ................................................................................. 29
People v Mason, 96 Mich App 47; 292 NW2d 480 (1980) ........................................................................ 34
People v Mehall, 454 Mich 1; 557 NW2d 110 (1997)................................................................................ 43
People v Miller, 482 Mich 540; 759 NW2d 850 (2008) ............................................................................. 29
People v Patterson, 428 Mich 502; 410 NW2d 733 (1987) ....................................................................... 40
People v Sullivan, 290 Mich 414; 287 NW 567 (1939) .............................................................................. 41
People v Tate, 244 Mich App 553; 624 NW2d 524 (2001) ............................................................ 29, 34, 35
iii

APP_159

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2229

Page 64 of

People v Unger, 278 Mich App 210; 749 NW2d 272 (2008) ............................................................... 29, 47
People v Witherspoon, 171 Mich App 549; 431 NW2d 75 (1988) ............................................................. 34
People v Yost, 278 Mich App 341; 749 NW2d 753 (2008) ........................................................................ 41
Romero v State, 396 SW3d 136 (Tex App, 2013) ...................................................................................... 38
United States v Abbell, 271 F3d 1286 (CA 11, 2001)........................................................................... 36, 37
United States v Augustin, 661 F3d 1105 (CA 11, 2011) ............................................................................. 36
United States v Edwards, 303 F3d 606 (CA 5, 2002) ........................................................................... 36, 38
United States v Fermin, 32 F3d 674 (CA 2, 1994) .................................................................................. 39

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

United States v Ruggiero, 928 F3d 1289 (CA 2, 1995) ............................................................................. 39
United States v Seal, 165 F. App'x 975 (CA 3, 2006)................................................................................. 36
United States v Vega, 72 F3d 507 (CA 7, 1995) ......................................................................................... 36
United v Thomas, 116 F3d 606 (CA 2, 1997) ............................................................................................. 37

STATUTES
MCL 600.1335(1) ................................................................................................................................. 34, 35
MCL 600.308(1) ........................................................................................................................................... ii
MCL 750.316 ................................................................................................................................................ 1
MCL 750.316(1)(a) ..................................................................................................................................... 41
MCL 750.316(1)(b)..................................................................................................................................... 41
MCL 768.18 .......................................................................................................................................... 34, 35
MCL 770.3 .................................................................................................................................................... ii

RULES
MCR 2.511(D)(3) ................................................................................................................................. 34, 35
MCR 6.411.................................................................................................................................................. 39
MCR 7.203(A) .............................................................................................................................................. ii
iv

APP_160

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2230

Page 65 of

MCR 7.204(A)(2) ......................................................................................................................................... ii

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

MCR 7.212(D)(2) ......................................................................................................................................... ii

v

APP_161

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2231

Page 66 of

COUNTERSTATEMENT OF QUESTIONS PRESENTED
I.
WHEN A JUROR COMMITTED A FLAGRANT VIOLATION
OF THE COURT’S INSTRUCTIONS BY HIRING AN ATTORNEY DURING
THE COURSE OF DELIBERATIONS, WHICH THE COURT INDICATED
CAST DOUBT ON THE JUROR’S ABILITY TO FOLLOW INSTRUCTIONS
NECESSARY TO RENDER A JUST AND FAIR VERDICT, DID THE TRIAL
COURT ABUSE ITS DISCRETION IN EXCUSING THE JUROR AND
SELECTING AN ALTERNATE TO BEGIN DELIBERATIONS ANEW?
Defendant contends the answer should be, “yes.”
The People submit the answer is, “no.”

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

The trial court would answer the question, “no.”
II.
WHEN THE DEFENDANT NOT ONLY LEFT HIS GENETIC
FINGERPRINT AT THE CRIME SCENE BUT HAD THE MEANS, MOTIVE
AND OPPORTUNITY TO COMMIT THE MURDER AND HIS BEHAVIOR
SHOWED CONSCIOUSNESS OF GUILT,
WAS THERE SUFFICIENT
EVIDENCE TO PROVE HIS IDENTITY AS THE MURDERER?
Defendant contends the answer should be, “no.”
The People submit the answer is, “yes.”
The trial court denied defendant’s motion for directed verdict.

vi

APP_162

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2232

Page 67 of

COUNTERSTATEMENT OF FACTS
The defendant was convicted on August 29, 2013, after a jury trial with the Honorable
Michael Warren presiding of both first-degree premeditated and first-degree felony murder
contrary to MCL 750.316 He was sentenced on October 3, 2013 to life without the possibility of
parole.
Background
At trial, Lisa Gilmore-Bell, daughter of the deceased victim, Thomas Gilmore testified

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

that her father was 64 years old when he died. V I at 237; V II at 27 In June of 1993, her father,
who was a surveyor, had an office in Farmington Hills located at 28830 West Eight Mile (V I at
237, 244) in an old school building, owned by a man by the name of Mike Pinkleton. The
building had been divided into offices and leased to various tenants. V I at 238, 247
Ms. Bell said that the first office across the hallway from her father’s was an office of a
roofing company by the name of Sullivan Widmer. V I at 242 The door to the roofing company
could be seen from inside the victim’s office through the window into the hallway. V II at 23,
33 She said that there was a shop downstairs for Sullivan Widmer which was below the ground
level. V I at 248; V II at 37-38 She testified that sometimes she would see employees from the
roofing company going in and out of the building using both the front and back doors. V I at
253
Mike Pinkleton owned the building in June of 1993 (V II at 204) and testified that
immediately upon entry there were two sets of double doors and a long eight-foot wide hallway.
At the end of the hallway there were two sets of stairs going to the second level and one set of
stairs going down to the ground level. V II at 205 In the lower level, the roofing company,

APP_163

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2233

Page 68 of

Sullivan [Widmer], was using a space for storage and repairs. V II at 205 Mr. Pinkleton’s
construction company had offices on the second floor. V II at 205-206
Mr. Pinkleton testified that when the building was first entered through the two sets of
double doors, the victim’s office was immediately to the left. V II at 206 Next to his office was
Allen Lowery’s photography studio and a number of other offices. On the right was Sullivan
[Widmer] roofing. V II at 206-207 Mr. Pinkleton testified that the owners of the roofing
company were Michael and Maria Huff. V II at 208 Mr. Pinkleton testified that he did not have

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

an alarm in the building and none of the individual offices had alarms. V III at 9
Mr. Pinkleton also testified that there was a yard in the back which was fenced off and
the roofing company had a section of the yard. V II at 208 There was a door from the yard area
to the roofing shop. V II at 210 Mr. Pinkleton testified that there was a separate entrance door
into the roofing company’s office and a separate door into the roofing company’s shop on the
lower floor. V III at 11-12 He said that at one point before the roofing company had moved in, a
window in the back of the shop area, right next to the service door, had been broken. V III at 910 However, it was replaced by sheet metal instead of glass. V III at 10
Michael Huff testified that he was the owner of Sullivan Widmer (V IV at 8-10) and his
wife was the secretary/office manager. V IV at 9 He also testified that neither the building nor
his office nor the shop was alarmed. V IV at 35
Mr. Huff said that he ordinarily got to work around 7:00 a.m.. He would come through
the front two doors into the building which were normally locked. V IV at 14-15, 16 The
tenants had keys to the building but not the employees. V IV at 16
Ms. Bell testified that her father’s hours varied depending on the job but sometimes he
would come in at 7:30 a.m. and then would stay through the night. V I at 249 She said that
2

APP_164

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2234

Page 69 of

sometimes he would also hang out after work with his friends, Joe [Jerone] Stenrose1 and
Chester Bartosik. V I at 252, 270; V II at 40-41, 44, 47 Joe’s son, Keith, worked for her father
upon occasion and it was possible that Keith stopped working for her father because he could no
longer pay him.2 V II at 29 She said that her father was a friendly, easy-going person and
everyone seemed to like him. V I at 252 She said that her father would normally park his brown
Dodge van in the parking lot (V I at 241-242) and that his van was his only means of
transportation. V I at 251

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Chester Bartosik, who was an architect, testified that he had known the victim for 20
years (V II at 143, 157) and would many times go to lunch with him (V II at 144) and would
have drinks with him after work. V II at 154 Sometimes the victim would stay late and work. V
II at 154 Jerone Stenrose testified that he was a semi-retired civil engineer (V II at 175) and at
one point shared office space with him in the old school building.3 V II at 176 While Mr.
Stenrose was still sharing office space with the victim, his son Keith worked for both he and the
victim at times and the victim and Keith got along well. V II at 178, 180 He said that on one
occasion the victim owed Keith around $20 or $30 (V II at 179) and testified that the victim
would always make good on the money he owed. V II at 180 Mr. Stenrose also testified that he

1

Ms. Bell testified that she was aware of a pending civil lawsuit around the time of her father’s
death in which her father said that he might have to testify against Mr. Stenrose. However, her
father told her that he did not wish to testify because Mr. Stenrose was his friend. V II at 44, 45,
53
2
Ms. Bell testified that at the time of his death her father had been having financial problems. V
I at 249
3
Mr. Stenrose testified that he was aware that a there was a lawsuit with a development
company regarding some of the work he had done (V II at 199) but didn’t recall that the victim
was going to testify. V II at 184
3

APP_165

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2235

Page 70 of

would get together about three times a week with the victim to have lunch or share some drinks
after work. V II at 181-182 They would sometimes stay until 10:00 or 11:00 p.m.. V II at 198
Mr. Pinkleton and Michael Huff testified that they were aware that the victim would
work late. V III at 25; V IV at 51
Robert Stoecklin, who was an employee of the Huffs, testified that the victim’s office
was right across the hallway from the roofing office (V III at 64) and he would see the victim
almost every work day. V III at 64 He also met the victim’s friends, Mr. Stenrose and Mr.

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Bartosik (V III at 106) and would join them for drinks at the end of the day in the victim’s
office. V III at 107 Michael McIntyre, also an employee of the Huffs, testified that he knew the
victim and had drinks with him after work upon occasion. V IV at 153, 179 He also knew that
the victim at times would spend the night at the office. V IV at 180
Michael Huff testified that on a typical day he would first go to the office and then meet
the employees in the yard and load up the equipment. They would then drive to the work-site. V
IV at 17 He testified that at the time of the victim’s murder, the defendant had been working for
him for about a year as a laborer. V IV at 18 He said that Rob Stoecklin was the foreman and
Mike McIntyre also worked for him. V IV at 20 The defendant had very long hair at the time
and would wear it pulled back in a ponytail. V IV at 76
Mr. Huff said that sometimes he would pay the employees cash and sometimes by
check. V IV at 33 The petty cash was in his wife’s top right drawer. V IV at 34 Sometimes the
employees would also receive cash advances. V IV at 35
Maria Huff testified that in June of 1993 she was the office manager of Sullivan Widmer
(V IV at 110) and was in charge of payroll. V IV at 111-112 She testified that the employees
also received cash advances upon occasion. V IV at 112 She said that the petty cash drawer,
4

APP_166

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2236

Page 71 of

with as much as a couple hundred dollars, was kept in a box in her desk (V IV at 112, 113) and
it was not locked. V IV at 113
Ms. Huff testified that only she and Mike Huff had a key to the office. V IV at 116 She
would normally arrive around 8:30 a.m. (V IV at 116) and leave between 4:30 and 5:00 p.m. (V
IV at 117) and would normally lock the office as well as the exterior door to the building when
she left. V IV at 117 She said that some of the more expensive equipment was often kept in the
office. V IV at 128, 143 She said that Mike or “one of the guys” would bring the equipment in.

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

V IV at 129 She recalled the defendant working for them in June of 1993. V IV at 137
Robert Stoecklin, who was a past co-worker of the defendant, acknowledged that he had
trouble testifying against him. V III at 69 Mr. Stoecklin testified that at the time of the victim’s
murder (V III at 108) Mr. Stoecklin was foreman of the crew for Sullivan Widmer Roofing and
the defendant, Mike Marshall and Mike McIntyre worked with him. V III at 48-49 He testified
that the defendant had long hair at the time that he wore in a ponytail. V III at 137
Mr. Stoecklin testified that almost every morning he would go to the shop to pick up
tools. He said that they would seldom do work in the shop, however. V III at 52 He testified that
there was also a work bench in the repair shop (V III at 54, 113) along with tools such as saws,
screwdrivers, hand tools, and a circular saw. V III at 52, 55, 58 He said they also probably kept
tear-off bars which were similar to pry bars in the shop as well. V III at 59 The more expensive
tools were kept in the front office. V III at 56
Mr. Stoecklin testified that the employees were paid weekly. V III at 60 The roofing
company had a petty cash box which was kept in the office which was managed by Maria Huff,
the office manager. V III at 61 Sometimes he would give other employees cash advances from
petty cash. V III at 62
5

APP_167

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2237

Page 72 of

Michael McIntyre testified that he had known the defendant since grade school and
worked with him at Sullivan Widmer Roofing. V IV at 148 The crew was made up of himself,
the defendant, Robert Stoecklin and sometimes a part-time laborer. V IV at 150 Mr. McIntyre
testified that the defendant had long hair at the time that he wore in a pony tail (V IV at 224)
and he drove a Monte Carlo. V IV at 155 Mr. McIntyre testified that at the time Michael
McIntyre was living in Livonia around a half mile from the office. V IV at 155
He said that in the mornings he would routinely go to the office to find out where the job

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

would be. V IV at 154 Mr. McIntyre testified that he sometimes used the side and back
entrances into the building especially after the front doors were locked. V IV at 174 Mr.
McIntyre testified that he did not believe he did any actual fabrication in the work room, it was
more for storage. V IV at 184 He didn’t believe he saw the defendant doing any work in the
workshop either. V IV at 184-185
Mr. McIntyre testified that before the murder there was a time when the employees
weren’t being paid for a period of about three weeks and the defendant was upset about it. V IV
at 181-182
Days Leading up to the Discovery of the Victim’s Body
Ms. Bell testified that on June 22, 1993, which was a Tuesday, she saw her father in the
morning between 9:00 and 9:30 a.m. before he left for work. V I at 255 Mr. Pinkleton testified
that the last time he saw the victim alive was on the morning of June 22. V II at 218 The victim
was in his office on the phone joking around with someone about the fact that they weren’t
going to get paid.4 V II at 218 Mr. Bartosik testified that last time he saw the victim was a
couple days before he found out about his death. V II at 149 He admitted that he could have, as
4

Mr. Pinkleton knew that the victim had filed for bankruptcy. V II at 217
6

APP_168

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2238

Page 73 of

he told the police when he was interviewed close to the time of the murder, had lunch with the
victim and Joe Stenrose on June 22 at Jonathan’s Pub. V II at 163
Mr. McIntyre testified that on June 22, he worked with Robert Stoecklin and the
defendant at a job on Young Street. They were not finished with the job and intended to resume
working there on June 23. V IV at 162 He said that June 22 was a Tuesday which was his
ordinary night to go out drinking at “Jamie’s on 7”. V IV at 162 The defendant then came over
to his home to pick Mr. McIntyre up around 9:00 or 9:30 p.m.. V IV at 164-165 He rode with

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

the defendant and Mr. McIntyre’s mother also drove to the bar which was on Seven Mile and
Middlebelt (V IV at 165) which was just a few minutes away. V IV at 166 The defendant drove
him home and they arrived somewhere between 2:30 and 3:00 a.m.. V IV at 167
Mr. McIntyre testified that he then asked the defendant to stay the night since he had
been drinking and had to get up to go to work the next day. The defendant often stayed at the
McIntyres. The defendant however declined and said that he “had something to do.” V IV at
168 Mr. McIntyre then went to sleep in his bedroom. He woke up around 8:30 or 9:00 a.m. and
saw the defendant sleeping on the floor of the living room. V IV at 170 Mr. McIntyre said that
he never heard the defendant come into the home. V IV at 170 However, he had not locked the
door. V IV at 170
Mr. McIntyre told the defendant that it was time to go to work. They drove to the worksite but the defendant said that he didn’t feel good and was going to go. V IV at 171 Mr.
McIntyre testified that he did not closely inspect the defendant at the time. V IV at 233 Mr.
McIntyre testified that the rest of the crew, he, Robert Stoecklin and Mike Huff, finished the job
that day. V IV at 172 Mr. McIntyre testified that he did not see the defendant at all at work on
June 23. V IV at 177
7

APP_169

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2239

Page 74 of

Mr. Huff testified that on June 23, 1993, when he came into work and entered the
building he noticed that there was a chip in the veneer of the office door though his office was
still locked. V IV at 21 It looked as if someone had been trying to pry the office door open. V
IV at 40 He also noticed a smear from a handprint on one of the entry doors. V IV at 37 Mr.
Huff testified that later the photographer, Mr. Lowery cleaned it off the doors. V IV at 38
He checked the rest of the doors down the hallway and noticed that they were still
locked. He then went down to the shop and noticed that the window with the metal sheeting

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

over it had been pushed in from the outside. He then called the police. V IV at 21, 24 He
testified that the window which had been covered by sheet metal still had broken glass in it
from when it had been broken previously. V IV at 36 The metal sheeting was attached by duct
tape. V IV at 105
There was a shovel outside the window which had been pushed in. V IV at 48 Mr. Huff
testified that the shovel was spray-painted with the name of the roofing company and was
ordinarily kept in the shed. V IV at 49 Mr. Huff testified that there was also a sign belonging to
the roofing company which most likely also had been kept in the shed. V IV at 49
Mr. Huff indicated that there was a work bench in his shop for working on projects. V
IV at 25 After the break-in, a circular saw which had been in the shop was missing. V IV at 25
He testified that some of his equipment was stored in the office and many of the hand tools were
stored in the shop. V IV at 26 The tools which were kept in the office were worth about $5,000.
V IV at 54 He said that the foreman and a laborer would store them in the office at the end of
the day. V IV at 54

8

APP_170

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2240

Page 75 of

Mr. Huff testified that the defendant did not work on June 23rd, the day of the break-in.
V IV at 45, 88, 98 Mr. Huff’s recollection was that the defendant never returned to work. V IV
at 45
Mr. Pinkleton testified that on June 23rd he was also present at his building when a
break-in was reported. V III at 12 It looked like someone had tried to jimmy Michael Huff’s
office door. V III at 13 Mr. Pinkleton testified that he went and checked all the other doors, and
there was no damage to any other office doors. V III at 13 Ms. Huff testified that the day of the

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

break-in she noticed a blood smear which had been made by a hand-print on the inside of one of
the entry doors to the building. V IV at 120-121, 123 She said that the man who owned the
photography studio later cleaned it off. V IV at 122
Mr. McIntyre found out about the breaking and entering from Mike and Maria Huff after
they were finished with the job and had gone back to the office. V IV at 173 He said that he had
walked through the front doors and saw blood near the handle of the exterior of the second pair
of doors into the building. V IV at 175-176 It was near a sign that said, “Please Close Door.” V
IV at 176 He believed it was Maria Huff who later cleaned off the glass. V IV at 226
Mr. Stoecklin testified that he also knew about the break-in at the roofing company
shop. He said the circular saw which had been located right by the window [which was
determined to be the point-of-entry] was missing after the break-in. V III at 54, 155 Mr.
Stoecklin testified that the defendant did not work that day and didn’t call in. V III at 151
Patrick Sidge (who was presently retired) testified that he had worked for the
Farmington Hills Police Department (V V at 21) and was dispatched on the morning of June
23, to 28830 Eight Mile Road in the City of Farmington Hills on a report of a breaking and
entering of a business. V V at 22 He was originally met by the owner of the roofing business. V
9

APP_171

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2241

Page 76 of

V at 25 The owner said that he believed his building had been broken into the previous day and
he wanted to file a police report. V V at 25
Mr. Sidge testified that he was directed toward the back of the building where there was
a work area where it was believed that the suspect had gained entry. V V at 26 The business
owner pointed out a piece of tin metal that covered a window which had previously been
broken. V V at 26 Also, the back door was ajar which would indicate the perpetrator exited this
door. V V at 167 It appeared that the tin had been pushed in to allow entry through the window.

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

V V at 26 The business owner said that a circular saw was missing. V V at 27 Mr. Sidge
testified that there was a blood drop on a tin sheet on the work bench where the saw had been. V
V at 28, 144 The blood appeared to be fresh; it had not coagulated. V V at 158, 161 There was
also a blood spattering on one of the walls adjacent to the door to the stairway upstairs. V V at
42
The business owner indicated that he believed that the suspect had also tried to gain
entry into his office. Mr. Sidge looked at the office door and saw pry marks on the door (V V at
27) which the business owner said had not been there the previous evening. V V at 28 The
business owner indicated that he did not believe that the suspect had been successful in entering
the office, however. V V at 27 Mr. Sidge said that the business owner indicated that none of the
other business owners had reported a breaking and entry. V V at 29
Mr. Sidge testified that there appeared to be a blood smear from a hand or palm print (V
V at 28) on the glass door in the hallway right in the area where the sign said, “Please Close
Door.” V V at 37 If an individual had come up from the workroom, he would have to go
through these doors before he reached the entry door to the business owner’s office. People’s
Exhibit 5 [Appendix A]; V V at 38
10

APP_172

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2242

Page 77 of

Mr. Sidge testified that no blood was collected on June 23rd (V V at 45) since in June of
1993 the police did not routinely collect blood when investigating low priority breaking and
enterings especially due to the more rudimentary nature of DNA testing at that time. V V at
164, 165
The business owner believed that the suspect had exited out of the door in the shop. V V
at 30 Mr. Sidge said that he exited the door of the shop into the yard and looked around and
didn’t see any other signs of entry to the building. V V at 30 At the time there was no indication

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

that he should expand his search to any other area of the building or its surroundings (V V at
30-31) and he did not walk around the entire perimeter of the building. V V at 152 He did not
suspect foul play on that day and there was no indication that anyone was missing. V V at 32
He contacted Officer Jim Worthington, an evidence technician (V V at 31, 34) and
pointed out the areas that he thought were of importance. V V at 34 James Worthington also
testified that the resources devoted to a low priority breaking and entering were less than if a
murder had been discovered that day. V V at 192 He said for a break-in he would normally take
photographs and process some of the areas for prints. In 1993, he would not have taken blood
samples. V V at 192
He testified that he met Officer Sidge in the back of the building near the point of entry.
V V at 194 He then walked up to the first floor and walked through the vestibule and saw a
smear of blood on the vestibule door. V V at 195 He said that as he was coming from the lower
level and walking down the hall, the smear would have been on the inside of the left door
[before the door to the office of the roofing company]. V V at 195 Near the blood smear was a
partial palm print which he lifted as well as three fingerprint lifts. V V at 196 He took a palm

11

APP_173

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2243

Page 78 of

print from the door and a fingerprint lift from the rear door around the door knob which was a
potential point of exit. V V at 196-197, 206
After he went through the doors with the blood smear, Mr. Worthington also noted pry
marks on the office door. V V at 198 There was also a chip missing out of the door laying on
the floor. V V at 198
He said that on the 23rd even if he had seen the hairs at the point of entry, he wouldn’t
have collected them. V VI at 55-56

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Karen McPherson testified that in June of 1993 she was living across the street from the
old school building (V IV at 246-248) and worked at the party store across the street three or
four days of the week. She said she saw the victim every time she worked when he came in to
buy beer. V IV at 246-248, 257 She knew he worked down at the old school building (V IV at
254-255) and drove a brown beat-up old van (V IV at 255) which he ordinarily parked in the
parking lot of the old school building. V IV at 256
She testified she owned a mastiff at the time (V IV at 246, 250) who was very
protective. V IV at 251 She talked about an instance, two weeks before the victim’s body was
found, when her dog was in the backyard exceedingly agitated when a homeless man had been
seen leaving a broken-down shed on her property. V IV at 252 Ms. McPherson testified that
there was another incident where her dog went crazy. V IV at 258 Her dog was inside and
wanted to get outside. He kept looking through the window across the street and to the right
[which was the direction of the school building] and was tearing the curtains up in his agitation.
V IV at 258 She had to lock him in the bathroom. V IV at 260 She was so nervous that she
paged her boyfriend to come home. She thought the homeless man may have come back and
was coming around the house. Her boyfriend arrived home between 1:00 and 4:00 a.m. on June
12

APP_174

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2244

Page 79 of

23rd and took out the chain to take the dog outside to check the perimeter. V IV at 260, 263-264
The dog was concerned about what was happening across the street. V IV at 262 She said that
on the 23rd she heard that there had been a break-in at the old school building and saw police
cars at that location.5 V IV at 264, 271
Ms. Bell testified that in June of 1993 she was occasionally helping her father with
payroll (V I at 238-239) and on June 23, she started getting worried because she hadn’t heard
from her father. She had been thinking he would need her help that week, but he hadn’t called.

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

V I at 256
Mr. Bartosik testified that he could have driven by the victim’s office on June 23rd and,
seeing the victim’s van parked outside, stopped, but found no one there though the lights were
on and door locked. V II at 164 Mr. Bartosik also could have, as he told the police, gone to
lunch with Joe on June 23rd and the victim failed to show up. V II at 165
Mr. Stenrose testified that on June 23, he remembered going over to the victim’s office
around 6:00 p.m. after seeing the victim’s van in the parking lot, knocking on the door of the
office but no one responded. V II at 185, 187, 194, 197 He said that that was unusual. V II at
185 He said that the victim would typically park his van close to his office (V II at 186) and that
sometimes the victim would spend the night at the office. V II at 190
Mr. Pinkleton testified that in the morning hours of June 24 around 9:00 or 10:00 a.m.,
he was asked to check out the victim’s office because the victim hadn’t been seen for awhile
though the victim’s van was parked outside. V II at 212-213; V III at 13 Mr. Pinkleton testified

5

Mr. McIntyre said that the day the victim’s body was found he had a conversation with Karen
McPherson, who was a friend of his, about her dog barking the morning before the break-in had
been reported. V IV at 188-189
13

APP_175

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2245

Page 80 of

that the van was the victim’s only means of transportation. V II at 213 Mr. Pinkleton thought
that the victim may have had a heart attack and so he unlocked his office door and went inside.
However, everything looked normal, though the door was locked and the lights were on. V II at
213 Mr. Pinkleton testified that he then went outside and looked inside the van and didn’t see
anything. V II at 214 Mr. Pinkleton then turned around and saw the victim’s body in the bushes
about five feet away. V II at 214, 215 Mr. Pinkleton then went back to Mike Huff’s office and
called 911. V II at 216 At one point, Mr. Pinkleton saw his partner, Charlie Ganz go and look at

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

the victim’s body. V II at 216
Mr. Huff remembered seeing the victim’s van parked outside the day his body was
found (V IV at 38, 43) but couldn’t recall whether he saw the victim on either June 22 or June
23. However, he had seen his van parked outside on both those days. V IV at 42 Mr. Huff
hadn’t seen the victim on June 24th, the day his body was discovered. V IV at 42 Mr. Huff
testified that the morning of June 24, when the victim’s body was found, he was in his office. V
IV at 44 Mike Pinkleton came into his office saying that he had found the victim and he then
used Mr. Huff’s phone. V IV at 46
Ms. Huff said that the victim routinely parked his van in the parking lot and she believed
that she saw his van parked in the lot in the days before his body was found. V IV at 127 Karen
McPherson also testified that she remembered that the victim’s van had been parked in the
parking lot from June 22nd until June 24th and had not moved. V IV at 265
Mr. Stoecklin testified that he was also at the office after the victim’s body was found
after the police had responded. V III at 63, 64
Ms. Bell testified that she hadn’t heard from the victim on June 24th. V I at 257
However, she saw his van on the news and she eventually went to the police department and
14

APP_176

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2246

Page 81 of

they told her they had found her father’s body. V I at 259 She said that her father usually carried
a wallet and keys with him. V I at 263 She said that the police did not find either his wallet,
keys, or his glasses which he wore all the time. V I at 263
Mr. Stoecklin testified that the defendant was not at the office the morning that the
victim’s body was found (V III at 66) and did not work that day. V III at 96 Mr. McIntyre also
said that he was picked up by Mr. Stoecklin on June 24th, the day the victim’s body was found
and defendant never showed up for work. V IV at 178 Mr. Stoecklin testified that on the day the

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

victim’s body was discovered, most likely he had attempted to get ahold of the defendant
without success. V III at 96-97 That evening, however, the defendant came over to Mr.
Stoecklin’s residence to borrow money. V III at 66-67 Mr. Stoecklin gave him seven or eight
dollars. V III at 69 Mr. Stoecklin testified that the defendant had borrowed money from him on
about eight prior occasions. V III at 68 Mr. Stoecklin testified that he didn’t notice any injuries
on the defendant but wasn’t really looking for any. V III at 150 Though Mr. Stoecklin brought
up the fact that the victim’s body had been found that day, the defendant did not seem
interested. V III at 68 He didn’t ask any questions about the murder and never talked about it
after that date. V III at 105, 154
While the defendant was still at his home, a detective from the Farmington Hills Police
Department showed up. V III at 98 He asked Mr. Stoecklin if they could question him and he
said they could. Both he and the defendant went down to the police station. The defendant was
acting “real nice” to the detective which Mr. Stoecklin thought was unusual. V III at 98-99 The
defendant was interviewed first and both were driven back by a police officer. V III at 104
Mr. Stoecklin, who painted his tools with orange paint so he could identify his tools (V
III at 94), testified that the handle of the hammer which was later discovered by the victim’s
15

APP_177

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2247

Page 82 of

body was kept in his tool box in the work room in June of 1993. V III at 89, 90, 93, 94 Mr.
McIntyre also identified the handle from Robert Stoecklin’s hammer [which had been found
near the victim’s body.] V IV at 189-190 Mr. McIntyre also testified that Robert Stoecklin
sprayed all his tools orange so he could identify them and the handle was sprayed with orange
paint. 6 V IV at 190-191
Mr. McIntyre testified that a few days later the defendant called Mr. McIntyre and was
asking about the murder. V IV at 182 When talking about the evening of June 22, the defendant

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

said, “Hey, we were at Jamie’s right?” V IV at 182
Mr. Bartosik said that he may also have told the police when he was interviewed a
couple years later that the victim would sometimes go outside to urinate in the bushes which
was where the body was eventually found and was where the victim typically parked his van. V
II at 168, 169
The Investigation
Mr. Sidge testified that he was the first officer to respond the next day, June 24 (V V at
32) at little after 8:00 a.m.. He believed he spoke to Charlie Ganz [Mike Pinkleton’s partner] (V
V at 150, 151) who pointed out where the victim’s body had been discovered. V V at 46 The
victim was obviously deceased (V V at 46) and it looked like there had been branches
deliberately placed over the victim. V V at 47 There was a brown van parked in the area of the
body. V V at 47 Both a wall and a fence separated the point of entry which Mr. Sidge had
investigated the day before, and the place where the victim’s body had been found. V V at 33

6

Mr. Stoecklin testified that he believed that the defendant kept working in the crew at least
throughout the summer. V III at 109-110 However, he didn’t have a firm recollection that that
was the case. V III at 152
16

APP_178

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2248

Page 83 of

Mr. Sidge testified that the day before he had not walked in the area of the building where the
victim’s body was subsequently located. V V at 152
When he walked through the doors by the office of the roofing company on June 24, the
blood was gone. V V at 35-36
Mr. Sidge testified that on June 24 he was assigned the duties of an evidence technician,
particularly scene photography. V V at 48-49 He photographed the window that had been
pushed in that he had observed on the previous day (V V at 58, 59) and observed pieces of

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

broken glass inside the window frame. V V at 66 He also photographed a shovel handle which
had the name Sullivan Widmer on it as well as a cardboard sign which had been found outside
the window. V V at 58-59, 66, 67
He also photographed two long hairs which were hanging from the point of entry to the
building, the window which had been pushed in (V V at 62, 68, 70), the blood on the tin of the
workbench (V V at 62, 100, 101), and the blood on the wall of the workroom. V V at 103
He also photographed an area outside where it appeared there had been an altercation
and then the location a short distance away where the victim’s body had been hidden. The
victim’s body was face-down and was in the area of the van but in the bushes covered by some
branches. V V at 60, 78 Also the victim’s bloody shirt was bunched up partially covering his
head and there were footwear impressions on the shirt. V V at 63, 80, 107 There was mud on
the front of the victim. V V at 60-61
A short distance away there was a disturbed bush (V V at 61, 84, 85), a long wooden
[hammer] handle with orange spray paint and blood (V V at 61, 84, 85), and a mechanical
pencil. Near the bush there was a concrete curb which had a blood smear on it. V V at 61 Mr.

17

APP_179

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2249

Page 84 of

Sidge indicated that it appeared that an altercation occurred by this bush which was outside of
the victim’s office. V V at 90
Mr. Worthington also returned to the building the next day, June 24. V V at 193 He
didn’t recall seeing the blood smear on the glass door that day. V V at 198 He said that on the
previous day, he didn’t believe he had gone in the area where the victim’s body was
subsequently found. V V at 200, 201
Mr. Worthington testified that on June 24th, he returned to the original point of entry and

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

found two hairs on the duct tape which was on the inside of the window and had originally
secured the tin to the window. V V at 211, 214 (People’s 55, 89) [Appendix B] The day before
he had just been looking for fingerprints and hadn’t noticed the hairs. V V at 215 He testified
that there were pieces of broken glass inside the window. V V at 212
He also located blood on the workbench (V V at 212 (People’s Exhibits 90-92))
[Appendix C] as well as blood by the light switch on the wall. V V at 216-217 (People’s Exhibit
93) [Appendix C] He also located a pry bar in the tool area. V VI at 32
He collected some buttons [which were back by the bush where Mr. Sidge indicated it
looked like an altercation had occurred] (V V at 228) as well as a handle to a hammer. He
collected blood samples on the grass as well as from the concrete curb in the same area. V V at
229
He collected the hair and blood samples (V V at 219) which were transported to the
Michigan State Police Crime Lab (V V at 221, 223) and also collected the mechanical pencil,
the victim’s clothing (V V at 230), the shovel and cardboard sign by the point of entry, the sheet
metal from the point of entry, and the door knob and plate which was considered the point of
exit. V V at 234
18

APP_180

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2250

Page 85 of

Mr. Worthington testified that he found a partial footwear impression on the metal that
was covering the point of entry as well as on the shovel. V VI at 8-9 There were also footwear
impressions on the victim’s shirt. V VI at 14 Mr. Worthington testified that there were
similarities between the footwear impressions around the victim’s body and on the point of
entry. V VI at 45
Sergeant Gregory Hughes testified that he had worked with the Farmington Hills Police
Department since 1997. V VIII at 21 He testified that he was assigned as officer-in-charge of

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

this case in June of 2011 as part of a periodic review of cold cases. V VIII at 22 The case was
eventually presented to the grand jury. V VIII at 23
Sgt. Hughes testified that in 1993, the officers had taken footwear impressions around
the site of the homicide (V VIII at 28) but were not able to match these footwear impressions
with any shoes they recovered in 1993. V VIII at 28 Sgt. Hughes testified that though the shoes
that the defendant was wearing when interviewed did not match the impressions left at the
scene, he did not know whether in 1993, the defendant owned more than one pair of shoes. V
VIII at 185
Sgt. Hughes testified that the circular saw was missing after the break-in and the
victim’s wallet was never found and his glasses never recovered. V IX at 15-16 The victim’s
keys were found in the grass next to the hammer. V IX at 15 Also some returnable cans were
missing. V IX at 16
Sgt. Hughes testified that originally some photographs were taken of the blood on the
glass door on the inner entry of the building and some latent palm prints were lifted off the
glass. In 1993, the palm print and latent fingerprints were compared to the defendant’s known
prints and the defendant was excluded as having provided those prints. V IX at 20-21
19

APP_181

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2251

Page 86 of

Sgt. Hughes testified that in about September of 1993, the case was on inactive status (V
VIII at 25) but in 2009, the DNA profiles taken from some of the evidence at the crime scene
came back as a match in one of the databases. V VIII at 29 In June of 2011, they obtained a new
DNA sample from the defendant and it was sent to the lab and found to match some of the
evidence from the crime scene. V VIII at 35
Dr. Kanu Virani, a forensic pathologist and deputy medical examiner, conducted an
autopsy on the victim, Thomas Gilmore on June 24, 1993. V II at 57, 64 The victim was 5’11”

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

and 175 lbs. and 64 years old at the time of death. V II at 64
Dr. Virani testified that the victim was clothed and had dry blood on his face and neck
area. V II at 82 The victim had lacerations, abrasions, or bruises on his face (V II at 68), head
shoulders, chest (V II at 69), arms, and knees. V II at 70 Dr. Virani also testified that the victim
had incurred several broken bones including the bone under the nose (V II at 69), a partial
fracture of one of the vertebrae in the neck (V II at 71), and five right ribs and five left ribs. V II
at 118 There were also several injuries to the neck including a ligature mark. Above and below
the ligature mark on the neck there were several abrasions. V II at 69 The larynx was also
fractured and there was petechiae, pinpoint bleeding, in both eyes. V II at 71, 72 There was no
presence of alcohol in the blood or urine. V II at 74
Dr. Virani testified that the cause of death was strangulation and the manner of death
homicide. V II at 75 Dr. Virani testified that the victim was strangled with an object due to the
linear marks around his neck. V II at 76 Dr. Virani testified that the injuries could have been
caused if an individual was standing on the victim’s back pulling back on the ligature so the
victim was strangled and his neck broken. V II at 139 Dr. Virani testified that a hammer handle
was found close to the body (V II at 77-78) and that some of the injuries in the face, head, and
20

APP_182

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2252

Page 87 of

shoulder area in particular were consistent with being caused with the hammer handle or other
blunt object. V II at 100-101, 104, 112, 115
Dr. Virani opined that the victim could have been dragged face-down in the dirt. V II at
104 His shirt was in disarray (V II at 82) and there was also dirt on the front of the clothing as
well as on the exposed skin. V II at 92-93, 94-96
Dr. Virani listed the date of death as June 22, 1993 due to the post-mortem changes in
the body (V II at 87) but stated that the date of death could have been in the early morning hours

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

of June 23. V II at 89
Ms. Helton, a forensic biologist employed by the State Police Crime Lab (V VI at 71)
and an administrator of the DNA database (V VI at 75) was qualified as an expert in forensic
serology and DNA analysis. V VI at 81 Dorothy Catella currently worked for the Oakland
County Sheriff’s Department as the supervisor of their DNA laboratory (V VII at 141) and in
the past had worked at the Michigan State Police Department Crime Lab and also testified as a
stipulated expert in DNA analysis. V VII at 142, 144
Ms. Helton testified that in June of 1993, she first became involved in the investigation
into the death of the victim. V VI at 82 She said that at that time it was the very early days of
forensic DNA testing and only one Michigan lab did DNA testing on a very limited basis and
testing had limitations. V VI at 83-84, 88 She testified that over the years the method of DNA
testing changed, however, and presently allowed DNA extraction from very small samples. V
VI at 85 She also testified that in 1993 DNA could not be extracted from hair (V VI at 84) and
that the only testing that could be done at the time was to compare gross physical characteristics
of hair samples. V VI at 84 The DNA technology which allowed hair analysis started

21

APP_183

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2253

Page 88 of

developing around 1998 and the first evidence examinations using this technology began in late
2000 or early 2001. V VI at 106
Ms. Helton testified that in 1993 she received numerous samples from the crime scene.
She detected blood on the hammer handle which had been seized by the police (V VI at 97) as
well as in samples which had been taken from the grass, curb, wall, top of the tool bench, and
on some keys. The hair from the curb was consistent with that of the victim (V VI at 113-114),
the hair from the bush was animal hair (V VI at 114), and the hair found from the point of entry

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

was not consistent with the victim’s hair. V VI at 115 Ms. Helton testified that she could not tell
if the hairs found on the point of entry had been forcibly pulled or naturally shed. V VII at 126
Ms. Helton testified that she also located a footwear impression on the victim’s shirt. V
VI at 121-122
Ms. Catella testified that in 2002 she was asked by the Farmington Hills Police
Department to remove some evidence which had previously been maintained in frozen storage
and to conduct DNA testing if possible on this evidence. V VII at 145 She found roots on both
of the hairs from the entry point (V VII at 35, 37) and one of the hair roots yielded a full DNA
profile, the other yielded a partial DNA profile. V VII at 38, 157 Ms. Catella testified that the
hair from the hammer head and hair from the roofing sign were not suitable for DNA testing
since there was no root material. V VII at 156
Ms. Helton also evaluated a latent lift obtained from the inner door of the building by
Officer Worthington which tested positive for the presence of blood. V VI at 121 Ms. Helton
testified that if a blood stain was already on a door, potentially a third party could put a finger or
palm in the blood when opening the door and leave his or her finger or palm print on top of the

22

APP_184

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2254

Page 89 of

blood. V VII at 33 The blood on the door was insufficient in quantity to conduct blood-typing or
DNA analysis. V VI at 123; V VII at 26-27, 83, 152
Ms. Helton testified that in late 2002 early 2003, a DNA profile also could be extracted
from both the blood on the work bench and the blood on the wall. These DNA profiles as well
as the DNA profile from the hairs from the point of entry were placed on the database. V VII at
39-42, 157
Ultimately in 2009 they received a match from the database to the defendant’s DNA

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

profile. After the match was reported a new DNA sample was taken from the defendant and
compared to the DNA profiles from all the evidence items in the case. V VII at 44 The
defendant’s DNA profile matched the DNA taken from the blood stain on the tool bench and the
blood stain from the wall. V VII at 44-45; V VII at 60-65 It also matched the DNA obtained
from both the hair roots from the point of entry. 7 V VII at 45; V VII at 60-65
Ms. Helton and Ms. Catella testified that the blood from the grass, keys, and blood from
the concrete wall, and the blood from the hammer handle were also identified as the victim’s
blood. V VII at 48, 69, 74-75, 81-82, 86 The victim’s DNA profile was also found in the hair
samples from the victim’s shirt and blood on the shirt and pants. V VII at 48, 69, 77, 79-80, 86
Ms. Helton and Ms. Catella originally examined the victim’s shirt in 1993 and found the shirt to
be heavily blood-stained in numerous areas. Ms. Helton took six representative samples of the
blood stains and they matched the victim’s DNA. V VII at 65, 150, 154 She said that she did not
test every droplet of blood on the shirt, however. V VII at 74 She separately evaluated three

7

The known DNA samples from a man named Clayton Mathis and a man named Mark
Laughlin, were compared to every single evidence item and all individuals were excluded as
donors. V VII at 84, 152 Clayton Mathis and Mark Laughlin were two suspects in a breaking
and entering which were excluded by the police as potential suspects. V VIII at 177-179
23

APP_185

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2255

Page 90 of

other cuttings from the shirt and the blood stains were insufficient for DNA analysis. V VII at
69-70, 72 She said that the DNA could have been consistent with the victim’s DNA profile or
DNA from a third party. V VII at 71-73 The DNA results from two of the beer cans was of such
a low level that it was insufficient for any matching purposes. V VII at 83 She could only
determine that the DNA donor was male. V VII at 83
Interview of the Defendant
Timothy Swanson (since retired from the Farmington Hills Police Department) (V IV at

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

275) interviewed the defendant on June 24, 1993 at the detective bureau. V IV at 279 The police
didn’t have a suspect at that point and the defendant was not in custody. V IV at 280-281
The defendant said that he had worked all day on June 21st with Rob [Stoecklin] on a
roofing job and went home after work. V IV at 283-285 He said that he also worked all day on
Tuesday June 22nd, at the same roofing job. He said he got home around 8:30 p.m.. after Rob
[Stoecklin] and Mike McIntyre had dropped him off. V IV at 286
The defendant said that around 10:00 p.m. on June 22nd he drove his own vehicle over to
Mr. McIntyre’s home. V IV at 286 He said that he, Mike McIntyre, Mike’s mom, Jessica Potas
and another man went to a bar in Livonia called Jamie’s on 7 which was located at 7 Mile and
Middlebelt. V IV at 289 He said that they closed out the bar and left around 2:00 or 2:30 a.m.
on June 23rd. He said that Mike’s mom drove them back to the McIntyre residence and he
drove home. He said that he got home around 3:00 a.m.. V IV at 287
The defendant claimed that he had woken up around 10:00 a.m. but was in no condition
to work the next day due to the amount he drank and stayed home all day. V IV at 287 He
claimed that he went back to work on Thursday, June 24th (V IV at 288) but didn’t go until
around 1:00 p.m. because he had a number of appointments to take care of. V IV at 288 He said
24

APP_186

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2256

Page 91 of

that once he got to work, he discovered the job had been completed and then he went home. V
IV at 289 The defendant said that he would know the victim by sight. V IV at 289
After the interview, Officer Swanson took blood samples, fingerprints, palm prints, hair
samples and photographs of the defendant’s face and the bottom of his work boots. V IV at 289,
291 The officer did not ask him to remove any clothing to determine whether he had any cuts. V
IV at 290
Defendant’s Grand Jury Testimony

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

The defendant was called to testify in front of the grand jury on January 19, 2012. V
VIII at 37 He testified that in the Summer of 1993 he was employed at a roofing company in
Farmington Hills. He believed he originally had been employed in 1992 and stayed for a couple
years. V VIII at 45 However, he was not sure of the dates. V VIII at 46 He said that it was the
first time he had worked roofing. V VIII at 46 He said that at the time he had his own vehicle, a
Monte Carlo. V VIII at 47
The defendant said that he worked at the roofing company for the owner Mike Huff and
worked with Rob [Stoecklin] and Mike [McIntyre]. V VIII at 48, 50 He had gone to high school
with Mike. V VIII at 50 The defendant said that the roofing company was part of an old school
house. It had a yard with a gate and a separate room where the equipment was kept and a
staircase which went to the front doors and the office. V VIII at 51 The defendant said that the
employees parked in the parking lot in front of the building. V VIII at 51
He said at the end of the day, they usually filled up Rob’s truck with debris and dumped
it in the dumpsters back at the shop. V VIII at 52 He said that Sullivan roofing supplied all the
tools. V VIII at 52 He said that good equipment was expensive and knew the price of many of

25

APP_187

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2257

Page 92 of

the tools. V VIII at 53 The defendant said that he remembered that Rob painted his tools a
certain color so they would stand out from other people’s tools. V VIII at 61
The defendant said that there weren’t a lot of roofers who weren’t fit since they picked
up and hauled shingles around all day. V VIII at 60-61
The defendant said that Mike Huff’s wife was in charge of pay-roll (V VIII at 56) and
kept money for pay-roll in her desk. V VIII at 57 Sometimes if the defendant needed money for
lunch, the Huffs would give him money which would eventually be deducted from his pay

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

check. V VIII at 58 He said that sometimes Rob would become angry with Mike Huff because
he believed he wasn’t paying him accurately. V VIII at 62 Also there was an occasion when Mr.
Huff was late in paying them. V VIII at 63
The defendant said that he went to the victim’s office on a number of occasions with
Mike Huff (V VIII at 96) and that he would see the victim around and talked to him a couple of
times. V VIII at 116 He knew that the victim’s office was across from the hall from the office of
Sullivan’s roofing. V VIII at 114
The defendant claimed that he found out the victim was dead when he went to work and
the “whole place was taped off” and Mike Huff indicated that the victim got killed. V VIII at 76
Mike Huff said they weren’t working that day. V VIII at 78 The defendant later testified that he
didn’t remember if they worked that day or not. V VIII at 78 The defendant claimed he had not
heard about the break-in the day before. V VIII at 79 He did not hear who had found the body.
V VIII at 99
The defendant said when he was later interviewed the police took a hair sample. V VIII
at 81 The police did not ask him to remove his clothing (V VIII at 102) and, though they may
have photographed his boots, they didn’t take them. V VIII at 103
26

APP_188

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2258

Page 93 of

The police officer asked him where he was that Tuesday night and the defendant said
that he and Mike McIntyre as well as Mike’s mom went to Jamie’s on 7 which was at
Middlebelt and Seven Mile Road. V VIII at 81-82 The defendant said that at some point he left
the bar, went home and passed out and woke up late for work. V VIII at 84 He said that he was
buzzed when he left the bar. V VIII at 85 He said he didn’t sleep at Mike McIntyre’s that night,
though he had in the past. V VIII at 87, 123 He said that because he woke up in the afternoon,
he didn’t go to work. V VIII at 87 He believed he only failed to show up for one day of work,

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

however. V VIII at 88
The defendant said he did not specifically recall being injured the week the victim’s
body was found. V VIII at 99 The defendant said that he had been cut on previous occasions
while at work (V VIII at 104) and that everyone had been cut at work before. V VIII at 105
The defendant said that he never entered the shop through the window (V VIII at 107)
and said that there would be no reason to enter the shop in that manner. V VIII at 108 The
defendant said that his hair shouldn’t have been in the area where it had been found. He then
claimed that if it was, it might have been because he was walking in and out of the door and was
losing hair. V VIII at 108 The defendant later volunteered that sometimes his hair was hanging
in his face after a job and he would rip his hat off and put his hair in a ponytail. V VIII at 133
The defendant also identified the work bench. He said that he smoked Marlboros at the
time (V VIII at 109) and acknowledged that there were Marlboros found on the work bench. V
VIII at 110 When he saw the blood on the work bench, the defendant merely said, “we cut
ourselves all the time.” V VIII at 111, 139
When shown the broken hammer handle, the defendant said that that looked like Rob’s
due to the spray paint. V VIII at 112 He knew that Rob kept some of his tools in the work room.
27

APP_189

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2259

Page 94 of

V VIII at 113 The defendant said that he routinely handled Rob’s tools when packing and
unpacking them for jobs. V VIII at 140
He said that the doors to access the building would be locked at night. V VIII at 115-116
The defendant denied breaking and entering into Sullivan roofing in the late evening
hours of Tuesday June 22, and early morning hours of Wednesday June 23. V VIII at 130-131
The defendant stated that that summer he might have borrowed money from Rob
Stoecklin, borrowed around $300.00 from his brother (V VIII at 140-141), and might have

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

given his brother his Monte Carlo in repayment of a loan. V VIII at 141 He said that he may
have had contact with the police when he was borrowing money from Rob Stoecklin. V VIII at
142 The defendant then said that he wasn’t there to borrow money, he was just having drinks
with Rob and Mike McIntyre. V VIII at 143
After the conclusion of the evidence and jury deliberation, the jury convicted the
defendant as charged. Additional pertinent facts will be discussed in the body of the argument
section of this brief, Infra, to the extent necessary to fully advise this Honorable Court as to the
issues raised by the defendant.
ARGUMENT
I. WHEN A JUROR COMMITTED A FLAGRANT VIOLATION OF THE
COURT’S INSTRUCTIONS BY HIRING AN ATTORNEY DURING THE
COURSE OF DELIBERATIONS, WHICH THE COURT INDICATED CAST
DOUBT ON THE JUROR’S ABILITY TO FOLLOW INSTRUCTIONS
NECESSARY TO RENDER A JUST AND FAIR VERDICT, THE TRIAL
COURT DID NOT ABUSE ITS DISCRETION IN EXCUSING THE JUROR
AND SELECTING AN ALTERNATE TO BEGIN DELIBERATIONS ANEW.
Standard of Review and Issue Preservation:
A trial court's decision whether to dismiss a juror following an allegation of misconduct
is reviewed for an abuse of discretion. People v Tate, 244 Mich App 553, 559; 624 NW2d 524
28

APP_190

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2260

Page 95 of

(2001). Also, trial court's decision to declare a mistrial is entitled to a high degree of deference.
People v Lett, 466 Mich 206, 220 n 12; 644 NW2d 743 (2002). The court abuses its discretion
when it chooses an outcome falling outside the range of reasonable and principled outcomes.
People v Unger, 278 Mich App 210, 259-260; 749 NW2d 272 (2008). The trial court's factual
findings regarding juror misconduct or a juror's qualifications to serve are reviewed for clear
error. People v Miller, 482 Mich 540, 544; 759 NW2d 850 (2008). Clear error occurs when the
reviewing court is left with a definite and firm conviction that a mistake has been made. Id.

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Discussion:
When a juror committed a flagrant violation of the court’s instructions by hiring an
attorney during the course of deliberations, which the court indicated cast doubt on whether the
juror would follow instructions necessary to render a just and fair verdict, the trial court did not
abuse its discretion in excusing the juror and selecting an alternate to begin deliberations anew.
During voir dire, Juror 170, (who was eventually removed from the petit jury), indicated
that she promised to render a verdict based solely on the evidence and the law that she heard in
court. V I at 113 The court also specifically indicated to her if that it was the judge’s duty to
instruct her on the law and her duty to take the law as the judge gave to her. V I at 114 The juror
said that there was no reason that she could think of which would preclude her from sitting on
the jury (V I at 116-117) or sitting as a fair and impartial juror. V I at 118 She, along with the
other jurors, swore she would justly decide the questions submitted to the jury and would render
her verdict only on the evidence introduced in accordance with the instructions of the court. V I
at 164
During introductory instructions, the court instructed the jurors, including Juror 170, that
they had to follow the law the court gave them. V I at 167 The court also instructed, “You must
29

APP_191

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2261

Page 96 of

not discuss the case with anyone including your family and friends.” (emphasis supplied) V I at
172 The court indicated that once the jurors started deliberating they “should discuss the case
among yourselves but only in the jury room and only when all the jurors are there. When the
trial is over you may, if you wish, discuss this case with anyone.” (emphasis supplied) V I at
172 The court also instructed that if anyone attempted to discuss the case with them, they
should report the incident to the judge as soon as possible. Id. The court also instructed the jury,
“The only information that you will receive about this case will come to you in this courtroom.

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Again, you must not consider any information that comes from anywhere else.” V I at 173 The
court again reiterated, “Until your jury service is concluded you are not to discuss the case
with others, including the other jurors, except as otherwise authorized by the court.” (emphasis
supplied) V I at 174 The court also indicated to the jurors to alert the court if they discovered
that a juror had violated these instructions. V I at 174-175 The court also instructed, “It is
important for you to keep an open mind and not make a decision about anything in the case until
you go to the jury room to decide the case.” V I at 176
Sporadically throughout the course of the trial, the court reminded the jurors of these
instructions. V II at 86, 102, 219; V III at 160-161; V IV at 95, 144-145, 243; V V at 123, 183,
245; V VI at 69, 123-124; V VII, 100, 167; V VIII at 144-145; 186; V IX at 190 The court
would routinely admonish the jurors to remember, “[a]ll the cautionary instructions I’ve given
you before, include keeping an open mind, not discussing the case with anyone or let anyone
discuss it with you or in your presence.” (emphasis supplied) V II at 86
During closing instructions, the court indicated to the jury that it would also receive
written copies of the instructions. V IX at 193 The court again reminded the jurors that they had
taken an oath to return a true and just verdict based only on the evidence and the court’s
30

APP_192

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2262

Page 97 of

instructions on the law. V IX at 193 The court again reiterated that the jurors had to follow the
instructions on the law that the judge gave them. V IX at 194 The court instructed that if the
jury had any questions to submit them in writing to the court clerk. V IX at 212, 213-214 When
the court selected the two alternate jurors the court indicated, “[i]t could be that something
happens in the course of deliberations that knocks one of the other twelve out and if that’s the
case, we will bring you back to join the jury and re-start the deliberations. So all the cautionary
instructions I’ve given you, and it’s going to be really hard for the alternates, would continue to

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

apply, so keep an open mind, not discuss the case with anyone else, not communicate about
the case, have no dealings with anybody.” (emphasis supplied) V IX at 215 On that first day
the jury deliberated from 3:39 until 5:00 p.m.. V IX at 217-218
The next day the jury deliberated until 2:21 p.m. when it stated that its vote was 11-1
with no chance of the one moving “their” view. (The court noted that the jury’s revelation of the
vote count violated its instructions.) V X at 11 The court then, upon defense counsel’s request,
gave the dead-locked jury instruction upon request by defense counsel especially since the jury
had deliberated a relatively short time after three weeks of testimony. V X at 12-16 The court
then indicated that the clerk had received a note from an individual juror, not through the
foreperson, which indicated, “One of our jury’s doubts are unreasonable, what do we do?” V X
at 18 The court indicated that it would clarify for the jury the procedure pertaining to questions
for the court and the jury went out and continued to deliberate (V X at 21-22) and the jury asked
for several items of evidence. The jury deliberated until 4:30 p.m. Appendix D (Jury Questions)
The next day at about 3:00 p.m. the court indicated that the jury had sent out a series of
notes. One of the notes was “We, the jury, have a member who is not cooperating and refusing
to deliberate or prove to us her vote. She just wants a hung jury. She also stated she had looked
31

APP_193

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2263

Page 98 of

up the phrase to see what it meant before deliberation even started. Please advise us on
what to do.” (emphasis supplied) V XI at 3 The second note was, “We have a jury member who,
SERIOUSLY doesn’t understand what REASONABLE DOUBT is! We have a hung jury and
we need instructions!!! Help!!!”8 (emphasis original) V XI at 3 The last note was “Can you
explain to us why, if someone commits robbery, why are they considered guilty of murder,
example get-away driver.” V XI at 6 All these notes came within a half hour of each other. V XI
at 4

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Defense counsel did not request a mistrial and the court read the reasonable doubt and
the aiding and abetting instruction and emphasized that the jury should disregard any law other
than that which the court gave them. The court indicated that if someone did look at an outside
resource, the jury must disregard the resource and only consider the instructions that they had
been given. V XI at 13-14 The court also gave another dead-locked jury instruction. V XI at 1415 The jury also asked for several items of evidence. The jury presumably deliberated until 5:00
p.m..
The next day an attorney appeared on the record indicating that a juror [Juror 170] had
hired him. V XII at 3 He said that the juror contacted him between 4:00 and 5:00 p.m. the day
before [presumably while the jury was deliberating]. The juror claimed that she was being
harassed and verbally abused during deliberations. The attorney informed her that she should
communicate with the court through a note to the clerk and to follow the law as instructed by
the court. V XII at 3-4 She said that she instead wanted her attorney to bring her concerns to the
court’s attention. V XII at 4
8

The court, during instructions, had explained the concept of reasonable doubt to the jury. V IX
at 195
32

APP_194

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2264

Page 99 of

The court noted that the juror’s contact with an attorney was a “flagrant violation of the
Court’s instructions, cautionary instructions, which were not to discuss the case at all with
anyone outside of the jury room.” V XII at 6 Defense counsel requested a mistrial. V XII at 7
The prosecution indicated that if the court would declare a mistrial, it had to find manifest
necessity to do so. V XII at 9 The court indicated that it believed that the proper remedy when
there had been a violation of the court’s instructions, to excuse the juror and bring back one of
the alternates. V XII at 9 The court indicated that it did not know how the deliberations stood at

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

that point and didn’t know if the juror was a hold-out or not. V XII at 9 The court indicated that
there was a change in gender between some of the juror notes. V XII at 9-10 The court
indicated, “I’ve got a juror that’s violated the instructions, she—obviously she felt compelled to
do it. She may—who knows what she’ll feel compelled to do with—in the future if I keep her
on the jury.” V XII at 10 The assistant prosecutor indicated that he couldn’t find fault with the
court’s reasoning. V XII at 10 The court indicated that because the juror had retained counsel
and had flagrantly violated the court’s instructions, that conduct constituted good cause to
excuse the juror. V XII at 14 The court randomly selected one of the alternates to be recalled. V
XII at 15 Defense counsel objected to the court’s procedure due to the length of the
deliberations which had already taken place. V XII at 16
The court then excused the juror. V XII at 17 The court re-called the jury and indicated
that the jurors should not be concerned about the reasons why one of the jurors had been
excused. The judge indicated he was going to re-call one of the alternates but the jurors should
stop deliberating until the alternate joined them. V XII at 21-22 The court indicated that when
the alternate was located the jury must start deliberations anew. V XII at 22

33

APP_195

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2265

Page 100 of

After the alternate was recalled, the judge reminded the jury again not to consider the
fact that a juror had been excused and should start their deliberations anew. V XII at 25 The
jurors asked for several items of evidence. Appendix D (Jury Questions) After more
deliberations the jury then returned a verdict of guilty as charged. V XII at 27-29
MCL 768.18 provides, in relevant part: “Should any condition arise during the trial of
the cause which in the opinion of the trial court justifies the excusal of any of the jurors so
impaneled from further service, he [sic] may do so and the trial shall proceed, unless the number

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

of jurors be reduced to less than 12.” MCL 768.18 “is intended to avoid mistrials in cases
where one or more of the original jurors is necessarily discharged during the trial due to
personal disability or legal disqualification.” People v Harvey, 167 Mich App 734, 744; 423
NW2d 335 (1988). Also, the removal of a juror is warranted “if the interests of the public or
individual juror will be materially injured by his attendance.” MCL 600.1335(1); People v
Witherspoon, 171 Mich App 549, 560; 431 NW2d 75 (1988). MCR 2.511(D)(3) indicates that
“[i]t is grounds for a challenge for cause that” a person “shows a state of mind that will prevent
the person from rendering a just verdict, or has formed a positive opinion on the facts of the
case or on what the outcome should be.” This Court has stated, in the context of excusing a
juror under MCL 768.18, that “the trial court is in the best position to investigate and pass upon
a juror's qualifications and the court's decision to remove a juror will be reversed only upon a
finding of clear abuse of discretion.” People v Mason, 96 Mich App 47, 49-50; 292 NW2d 480
(1980). While a defendant has an interest in retaining the composition of the jury as originally
chosen, this interest is balanced with the equally fundamental right to have a fair and impartial
jury made up of persons able and willing to cooperate with the requirements and instructions of
the trial court. Tate, supra at 562 citing People v Dry Land Marina, 175 Mich App 322, 326;
34

APP_196

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2266

Page 101 of

437 NW2d 391 (1989). A trial court may uphold this right be removing a juror unable or
unwilling to cooperate. Id.
In this case, the juror who was removed clearly violated the court’s instructions not to
discuss the case with third parties. See: People v Honeycutt, 20 Cal 3d 150, 157; 141 Cal Rptr
698; 570 P2d 1050 (1977)(indicating, “When, as occurred in the instant case, a juror contacts an
outside attorney for advice during deliberations in a criminal case, he is guilty of egregious
misconduct.”) The juror clearly revealed to her attorney what had transpired during

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

deliberations. Therefore, a condition arose during the course of trial that justified excusal.
Reasonably, as referenced by the trial court, the juror’s inability to follow a simple instruction
not to contact third parties negatively impacted her ability to follow more complex instructions
necessary to render a just and fair verdict. See: MCR 2.511(D)(3). Furthermore, the juror’s
decision not to follow the judge’s instructions but instead contact an attorney (reasonably while
deliberations were in progress9) to complain about the other jurors, revealed that she did not
wish to cooperate with the deliberations. The juror’s comments revealed that she believed that
her interests would be materially injured by remaining on the jury. Also, the public’s interest
would be materially injured by keeping a juror on the jury who clearly wanted off the jury so
much that she did not follow the court’s instructions. MCL 600.1335(1).
Failure to follow the court's instructions is a relevant legal basis for discharging a juror.
MCL 768.18. In People v Bibbs, unpublished per curiam decision of the Court of Appeals dec’d
November 16, 2004 (Docket No. 248374) [Appendix E], this Court found that the court did not
9

The court’s practice was to allow deliberations to continue until 5:00 p.m. unless the jury
requested otherwise (and if the jury wished to return the verdict, the verdict could not be
rendered after 4:30 p.m.). V IX at 217; V XI at 15-16 The attorney said the juror contacted him
between 4:00 and 5:00 p.m. on August 28th. V XII at 3-4
35

APP_197

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2267

Page 102 of

abuse its discretion by excusing a juror who had taken notes in violation of the court’s
instructions. The trial court had expressed its concern that the juror’s inability to follow the
court’s instruction would negatively impact his future ability or willingness to follow more
complex instructions given before deliberations. See also: United States v Edwards, 303 F3d
606, 631 (CA 5, 2002)(affirming the district court's decision to remove a juror based on his
failure to follow the court's instructions); United States v Vega, 72 F3d 507, 512 (CA 7,
1995)(affirming the removal of the juror when the trial court indicated after the juror failed to

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

follow the court’s instructions regarding handling of juror notes, “He has in fact not obeyed
fairly elementary instructions, and I am not confident in his ability to obey the more important
ones that I'm going to give sometime tomorrow.”); United States v Seal, 165 F. App'x 975, 978
(CA 3, 2006) (affirming the district court's decision to dismiss a juror following his failure to
follow the court's instructions); United States v Abbell, 271 F3d 1286, 1302 (CA 11, 2001)
(providing that “just cause exists to dismiss a juror when that juror refuses to apply the law or to
follow the court's instructions”); United States v Augustin, 661 F3d 1105, 1129-1134 (CA 11,
2011)(indicating that even though the dismissed juror had indicated that she felt like she was
personally being attacked by the other jurors, the court’s decision to discharge the juror was
upheld when the court found that the juror was not following the court’s instructions or
applying the law as the court had instructed). If a juror cannot follow simple instructions, there
is no indication that she will follow all the instructions on the law necessary to fairly decide the
case. If the juror was the individual referenced to in the earlier notes in this case, the court’s
concerns were particularly justified since earlier notes revealed that a juror considered

36

APP_198

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2268

Page 103 of

extraneous information and refused to deliberate, further indications that the juror wouldn’t
follow the court’s instructions.10
Specifically a juror’s contact with third parties in violation of the court’s instructions
justifies discharge of that juror. In People v Hubbert, unpublished per curiam decision of the
Court of Appeals dec’d December 3, 2002 (Docket No. 226318), the court excused a juror
because the juror was acquainted with an employee of defense counsel’s law firm and the juror
disregarded the court’s instructions not to speak with anyone while the trial was pending. This

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Court indicated, “by refusing to follow the trial court’s instructions, the juror’s continued
participation in the trial might have adversely affected the case.” [Appendix E] In People v
Betts unpublished per curiam decision of the Court of Appeals, dec’d April 23, 2009 (Docket
No. 282399) [Appendix E] this Court found that the court did not abuse its discretion by
excusing a juror who another juror indicated had spoken with the defendant’s family members
even though the juror denied this contact. See also: People v Ledesma, 39 Cal 4th 641, 742-743;
47 Cal Rptr 326; 140 P3d 657 (2006)(upholding the court’s decision to strike a juror who spoke
about the case with his wife in violation of the court’s instructions- “‘[A] juror's serious and
willful misconduct is good cause to believe that the juror will not be able to perform his or her
duty. . . a judge may reasonably conclude that a juror who has violated instructions to refrain
from discussing the case … cannot be counted on to follow instructions in the future.” (citation
omitted))
10

An honest disagreement about the merits of the case is different from an unwillingness to
deliberate or an unwillingness to apply the law. The latter state of mind justifies discharge of a
juror. See: United States v Abbell, supra at 1302. In United v Thomas, 116 F3d 606, 612 (CA 2,
1997), cited by defense counsel, the Court indicated, “a presiding judge possesses both the
responsibility and the authority to dismiss a juror whose refusal or unwillingness to follow the
applicable law becomes known to the judge during the course of trial.”
37

APP_199

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2269

Page 104 of

The judge’s decision to dismiss the juror did not pertain to the juror’s view of the
evidence because the judge indicated that it did not know what her view was, but solely due to
her decision to contact an attorney in violation of the court’s instructions. Though defense
counsel asserts that the juror was a hold-out and shouldn’t have been dismissed, the court
indicated that it did not know how the voting stood at that point, but was discharging the juror
due to her unauthorized revelations to third parties regarding what had been transpiring in the
jury room. V XII at 9, 10 However, regardless of whether the juror had been a hold-out juror,

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

the juror still committed egregious misconduct and was subject to dismissal. See: Edwards,
supra at 634 (indicating, “Even assuming that Juror 68 was a hold-out juror, we have previously
made clear that hold-out jurors are not immune from dismissal based upon just cause”); Romero
v State, 396 SW3d 136, 146 (Tex App, 2013)(indicating citing Edwards, supra, “Even assuming
that the hearing evidence tended to show that juror 31 had become physically ill because she
was feeling stress from being a holdout juror, as opposed to feeling stress from the deliberations
process itself ‘hold-out jurors are not immune from dismissal based upon just cause.’”)
Defendant asserts that the court instead should have granted a mistrial. Each case
necessarily depends on its own particular facts, and trial courts should refrain from declaring a
mistrial until “a scrupulous exercise of judicial discretion leads to the conclusion that the ends
of public justice would not be served by a continuation of the proceedings." People v Hicks, 447
Mich 819, 829; 528 NW2d 136 (1994). On August 26, defense counsel did not request a
mistrial until but instead requested the dead-locked jury instruction (V X at 13) and on August
27, counsel did not request a mistrial (V XI at 8) and expressed no objection to the court’s
decision to re-read the dead-locked jury instruction. V XI at 14-16 Defense counsel did not
request a mistrial until the court indicated it was thinking of removing the juror. In this case,
38

APP_200

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2270

Page 105 of

trial was lengthy and was conducted over the course of three weeks and the court clearly
believed that the jurors had questions regarding legal concepts such as aiding abetting and
reasonable doubt and should be admonished to disregard any extraneous information that had
been brought into the jury room.11 V XI at 3-15
Moreover, the court’s decision to replace the juror with an alternate was proper. MCR
6.411 indicates, “The court may retain the alternate jurors during deliberations. If the court does
so, it shall instruct the alternate jurors not to discuss the case with any other person until the jury

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

completes its deliberations and is discharged. If an alternate juror replaces a juror after the jury
retires to consider its verdict, the court shall instruct the jury to begin its deliberations anew.”
The trial court also specifically instructed the jury about this procedure during instructions (V
IV at 215) as well as before the jurors again began deliberating (V XII at 22, 25), as it was
required to do under MCR 6.411, to begin its deliberations anew when joined by the alternate
juror. “It is well established that jurors are presumed to follow their instructions.” People v
Graves, 458 Mich 476, 486; 581 NW2d 229 (1998). Aside from defendant’s speculation that the
jury merely continued to deliberate rather than begin its deliberations anew because the jury

11

Merely because the jurors sent out more than one note expressing dead-lock does not mandate
a mistrial. Ultimately it depends on the specific circumstances of the case. See: United States v
Fermin, 32 F3d 674, 679-680 (CA 2, 1994) (upholding charge given after more than four days
of deliberation and three notes indicating dead-lock); United States v Ruggiero, 928 F3d 1289,
1299-1300 (CA 2, 1995)(1991)(upholding decision to give the dead-locked jury instruction
given twice on the sixth day of deliberation) Also, any coercion on the dismissed juror was
irrelevant since the juror ultimately did not render the verdict. See: Ruggiero, supra at 12991300 (indicating, “Most fundamentally, however, it is clear at least with the aid of hindsight that
the single juror who was holding out against a guilty verdict . . . was ultimately dismissed
before the jury returned its verdict. Accordingly any coercive impact of the Allen charges upon
that juror was indisputably rendered irrelevant, and accordingly unprejudicial by his dismissal
from the jury panel.”)
39

APP_201

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2271

Page 106 of

quickly reached a verdict, there is no evidence that the jury disregarded its instructions to begin
its deliberations anew. See: Betts, supra. [Appendix E] The jurors asked for further evidence
after deliberations began anew [Appendix D] and clearly a verdict could more quickly be
reached when all jurors were actually cooperating.
When a juror committed a flagrant violation of the court’s instructions by hiring an
attorney during the course of deliberations, which the court indicated cast doubt on whether the
juror would follow instructions necessary to render a just and fair verdict, the trial court did not

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

abuse its discretion in excusing the juror and selecting an alternate to begin deliberations anew.
ARGUMENT
II. WHEN THE DEFENDANT NOT ONLY LEFT HIS GENETIC
FINGERPRINT AT THE CRIME SCENE BUT HAD THE MEANS, MOTIVE
AND OPPORTUNITY TO COMMIT THE MURDER AND HIS BEHAVIOR
SHOWED CONSCIOUSNESS OF GUILT, THERE WAS SUFFICIENT
EVIDENCE TO PROVE HIS IDENTITY AS THE MURDERER.
Issue Preservation:
Issues regarding sufficiency can be raised for the first time on appeal. People v
Patterson, 428 Mich 502, 514; 410 NW2d 733 (1987). However, defendant’s motion for
directed verdict was denied. The court found that there was sufficient evidence to find, not only
that the defendant was at the scene of the crime, but was also the perpetrator of the murder. V
IX at 59
Standard of Review:
In reviewing such challenges, this Court views the evidence in a light most favorable to
the prosecution to determine whether a rational trier of fact could reasonably conclude that the
essential elements of the offense had been proven beyond a reasonable doubt. People v Jackson,
292 Mich App 583, 587; 808 NW2d 541 (2011).
40

APP_202

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2272

Page 107 of

Discussion:
When the defendant not only left behind his genetic fingerprint at the crime scene but
also had the means, motive, and opportunity to commit the murder and his behavior showed
consciousness of guilt, there was sufficient evidence to prove his identity as the murderer.
The elements of premeditated murder are (1) an intentional killing of a human being (2)
with premeditation and deliberation. MCL 750.316(1)(a). The elements of felony murder are (1)
the killing of a human being, (2) with the intent to kill, to do great bodily harm, or to create a

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

very high risk of death or great bodily harm with knowledge that death or great bodily harm was
the probable result, (3) while committing, attempting to commit, or assisting in the commission
of a larceny. MCL 750.316(1)(b). People v Gayheart, 285 Mich App 202, 210; 776 NW2d 330
(2009).
In this case defendant solely disputes the issue of identity. Identity is an element of
every offense (People v Yost, 278 Mich App 341, 356; 749 NW2d 753 (2008)) and the
prosecution must prove the identity of the defendant as the perpetrator of the charged offense
beyond a reasonable doubt. People v Kearn, 6 Mich App 406, 409-410; 149 NW2d 216 (1967).
Circumstantial evidence and the reasonable inferences that arise from the evidence can
constitute satisfactory proof of the elements of the crime (People v Carines, 460 Mich 750, 757;
597 NW2d 130 (1999)) and identity may be established by circumstantial evidence alone.
People v Sullivan, 290 Mich 414, 418; 287 NW 567 (1939). It is also for the trier of fact to
determine what inferences can be fairly drawn from the evidence and to determine the weight to
be accorded to the inferences. People v Dunigan, 299 Mich App 579, 582; 831 NW2d 243
(2013). This Court will not interfere with the fact finder’s role of determining the weight of

41

APP_203

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2273

Page 108 of

evidence or the credibility of witnesses. People v Eisen, 296 Mich App 326, 331; 820 NW2d
229 (2012).
Reasonable inferences from the evidence revealed that the victim caught the defendant
during the course of his breaking and entering and was killed because he could identify him.
The time of the victim’s death was the late evening or early morning hours of June 22-23 (V II
at 87, 89) when the break-in occurred. Also Karen McPherson’s dog raised the alarm in the late
evening/early morning hours of June 22nd and June 23rd. V IV at 260-264 The break-in was

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

discovered by Michael Huff before 8:30 a.m. the morning of June 23rd (V IV at 21; V V at 24)
and the last time that the victim had been seen was on June 22nd. V I at 155 In fact his van, his
only means of transportation, was parked outside the business from June 22nd until when his
body was found on June 24th. V IV at 42, 127, 265 As Mr. Bartosik indicated, he may well have
missed lunch with his friends on June 23rd (V II at 165) and, when Joe Stenrose stopped by at
around 6:00 p.m. the evening of June 23rd (V II at 185, 187, 194, 197), the victim’s van was
outside and the victim was not in his office. When Mike Pinkleton checked the victim’s office
the morning of June 24 (when his van was still outside), the door was locked and lights still on.
V II at 212-213
Also the victim reasonably encountered the defendant during the break-in. The
perpetrator tried to pry open Sullivan Widmer’s office door (V IV at 40) which was across the
hall from the victim’s office. V I at 242 The victim often stayed late working in his office and
the window from his office looked out on the hallway. V I at 249; V II at 154, 198; V III at 25;
V IV at 43, 51, 180 Also, the perpetrator most likely left by the back office door which was ajar
the next morning. V V at 167 If the perpetrator exited the yard by foot he could have
encountered the victim outside. (People’s Exhibit 5)[Appendix A] The victim also, as Chester
42

APP_204

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2274

Page 109 of

Bartosik agreed he may well have told the police, often went outside by his van to urinate. V II
at 168, 169 There were similarities between the footwear impressions on the victim’s shirt and
on the point of entry.12 V VI at 45 The victim was also familiar with the defendant and could
identify him. V IV at 289; V VIII at 96, 114, 116
At 2:30 a.m. on June 23rd, the defendant was half a mile from the crime scene by his
own admission. V IV at 287 Michael McIntyre also testified that the defendant had left the
McIntyre home at that time saying that he “had something to do.” V IV at 168 Though defense

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

counsel asserts that Mr. McIntyre should not be believed because he had been drinking,
questions concerning credibility are to be determined by the trier of fact (People v Mehall, 454
Mich 1, 6; 557 NW2d 110 (1997)) and all such concerns are to be resolved in favor of the
prosecution.” People v Herbert, 444 Mich 466, 474; 511 NW2d 654 (1993). Even though the
defendant declined Mr. McIntyre’s invitation to sleep at his home, Mr. McIntyre found him
sleeping on the floor of his home (conveniently located half mile from the crime scene) when he
woke up the following morning. V IV at 170 Therefore, the defendant clearly had the
opportunity to commit the murder.
The defendant also had the means to commit the murder. The hammer handle with the
victim’s blood had been taken from Rob Stoecklin’s tool box located in the downstairs shop
where the defendant had been when he first entered. V III at 89, 90, 93, 94 The defendant
identified the hammer handle during his grand jury testimony and said that he knew Rob kept
tools in the shop. V VIII at 112-113 The defendant was also very physically fit from roofing and
a great deal younger than the victim (V 1 at 237; V II at 27; V VIII at 53); the number of broken
12

Though defendant highlights the testimony that the footprints at the scene did not match the
defendant’s work boots, it was highly unlikely that in 1993 the defendant had only one pair of
shoes.
43

APP_205

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2275

Page 110 of

bones reveals that someone with physical strength such as the defendant committed the
murder.13
The defendant also had the motive to commit the crime. The defendant had a need for
money. Rob Stoecklin stated that on the evening of June 24th, the defendant showed up at his
home to borrow money and testified that the defendant had borrowed money seven or eight
times in the past. V III at 66-67 During his grand jury testimony, the defendant first admitted
that he had been at Mr. Stoecklin’s house on June 24 to borrow money, but later denied it (V

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

VIII at 142, 143), admitted that he could have borrowed $300 from his brother that summer, and
acknowledged that he could have given his vehicle to his brother to repay a loan. V VIII at 140141 Mr. McIntyre also testified that the defendant was upset because Michael Huff was behind
in his payments to employees. V IV at 181-182 The defendant during his grand jury testimony
also acknowledged there was an occasion when Mr. Huff wasn’t paying his employees on a
routine basis. V VIII at 63
Theft was also the motivation of the breaking and entering. The circular saw from the
inside of the work room was stolen as well as some returnable cans (V IV at 24; X IX at 16) and
the perpetrator had tried to get into the office where the petty cash and the expensive tools were.
13

Defense counsel asserts that assuredly the defendant would have suffered injuries from the
struggle and had blood on his clothing. However, the defendant could well have been in a
position which spared him from blood spray and due to his superiority in strength he may not
have been injured. The defendant was in his early 20’s and the victim in his early 60’s. The
scene showed that reasonably the victim had fallen and hit his head on the curb and bled on the
curb and in the grass awhile before being dragged back to the bushes. V II at 82, 92-93, 96, 104;
V V at 60-63, 80, 90, 107, 228-229; X IX at 15 As Dr. Virani opined, reasonably the victim
may have died when his assailant was behind him, stepping on his back and pulling up his neck.
V II at 139 Mr. Stoecklin also testified that, though he didn’t notice any injuries on the
defendant, he wasn’t looking for any. V III at 150 Also, if, as defendant asserts, injuries were
not uncommon in roofing, the other employees may not have specifically noticed an injury. Mr.
McIntyre testified that he did not closely inspect the defendant the morning of June 23rd. V IV at
233 Also, Detective Swanson did not ask the defendant to remove his clothing. V IV at 290; V
VIII at 102
44

APP_206

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2276

Page 111 of

V IV at 21, 26, 40, 54, 112-113 At the grand jury, the defendant testified that he knew tools
were expensive and knew the pricing of tools. V VIII at 53 Also the victim’s wallet was never
seen again (V IX at 15-16), and his pants pockets were turned inside out (People’s Exhibit 69; V
V at 64, 81) showing that the defendant also took the opportunity to steal from the victim.
Evidence from the crime scene also showed that only someone with an intimate
knowledge of the roofing company such as the defendant, was the culprit. The defendant would
have known the best means to enter the building and the perpetrator gained access through the

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

most vulnerable part of the building, an out-of-the-way window covered with sheet metal (V III
at 9-10; People’s Exhibit 48) which was located all the way in the back of the building (V II at
208) through the cluttered yard. (People’s Exhibit 5, 56) [Appendix A], 11114; V III at 6; V V at
64, 120 The defendant would have known that the building was not alarmed (V III at 9; V IV at
35) and where tools were located which could effectuate his entry. The perpetrator used the
shovel and the sign which were kept in the shed in the yard. V VI at 48-49 Furthermore, the
defendant would have known that there was broken glass in the window, and there needed to be
something like the sign from the shed that he could kneel on to avoid cutting his knees. V III at
9-10; V IV at 36 The defendant would also have known that there were tools in the shop itself
which would assist him to enter the office. The perpetrator reasonably took a tear-off bar (which
is similar to a pry bar) located in the shop (V III at 59; V VI at 32), to attempt to pry open the
door of the office. The defendant would also have known that there were valuables kept in the
office; the only door which the perpetrator tried to pry open was the office for the roofing
company. V III at 13; V IV at 21, 24; V V at 29 The perpetrator had to go up the stairs and
bypass all the other offices to the office of the roofing company, the office farthest from the
14

A copy of People’s Exhibit 111 (a DVD) is being sent separately to the Court.
45

APP_207

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2277

Page 112 of

shop. (People’s Exhibit 5) [Appendix A] The defendant would have known that the Huffs kept
the unlocked box of petty cash in the office (V III at 61-62; V IV at 34-35, 112, 112-113) as
well as the expensive tools. V IV at 128, 143 The defendant said that he knew Ms. Huff kept
money for payroll in her desk. V VIII at 57-58 Ms. and Mr. Huff testified that the workmen
would secure the expensive tools in the office at the end of the day. V IV at 54, 129
The crime scene also showed that the employee who broke and entered the business was
the defendant. The defendant left his genetic fingerprint at the scene. The blood on the work

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

table near the circular saw which had been stolen matched the defendant. V III at 54, 155; V V
at 28, 144; V VII at 44-45, 60-65 Officer Sidge testified that this blood was fresh on June 23rd.
V V at 158, 161 The hairs on the duct tape which held the metal over the window, which was
the point of entry to the shop, also matched the defendant. V V at 64, 211, 214; V VII at 45, 6065 There was no other debris on the duct tape, only the hairs, and the placement of the hairs was
consistent with someone crawling through the point-of-entry. People’s Exhibit 55, 89
[Appendix B]; V V at 64 The defendant had long hair at the time of the break-in. V III at 137; V
IV at 76, 224 In fact, when first questioned at the grand jury, the defendant acknowledged that
there was no reason his hairs should have been found on the duct tape (though he later during
his testimony gave differing excuses). V VIII at 108, 133 The defendant reasonably cut himself
on the broken glass entering through the broken window and also left blood right by the
doorway of the shop on his way up to the office. Reasonably, though there was insufficient
blood for DNA analysis because employees cleaned it up the day after the break-in, the

46

APP_208

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2278

Page 113 of

defendant also left blood on the doorway just before the roofing company’s office.15 The only
blood at the scene was linked either to the defendant or victim. V VII at 44-45, 65, 150, 154; V
VII at 84, 152
Also the defendant’s conduct showed consciousness of guilt. Michael Huff testified that
the defendant never returned to work after the breaking and entering occurred. V IV at 45 The
defendant didn’t show up for work or call in on June 23rd (the morning after the break-in) and
also failed to appear on June 24th (the day the victim’s body was discovered). V III at 96, 151; V

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

IV at 45, 88, 98
The defendant gave inconsistent statements regarding his whereabouts. See: People v
Unger, 278 Mich App 210, 225-226; 749 NW2d 272 (2008)(indicating that inconsistent
statements can indicate consciousness of guilt.) In his interview with the police, the defendant
said he came in at 1:00 p.m. on June 24th and was sent home because the job had been
completed. V IV at 289 During his grand jury testimony he testified that he found out that the
victim had died on June 24 when he came in and the whole place was taped off and Mr. Huff
said they weren’t working that day. Then he said that he didn’t remember if they worked that
day or not. V VIII at 78
Rob Stoecklin also testified that the defendant’s behavior was odd on the evening of
June 24th. V III at 98-99 He never asked any questions about the murder either when Rob
brought up the murder or after the interview with the police and was acting out-of-character
with Detective Swanson. V III at 68, 98-99, 105, 154 Also the defendant later called Michael
15

Though defense counsel highlights the fact that the palm print on the door by the blood did
not match the defendant, as explained by Lynne Helton, the print reasonably could be left by a
third party who touched an already bloody door, or the blood was placed on top of the palm
print that was already there.
47

APP_209

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2279

Page 114 of

McIntyre reasonably trying to set up an alibi when he emphasized to Mr. McIntyre that they
were both at the bar the night of the break-in. V IV at 182
Reasonable inferences from the evidence revealed that the victim caught the defendant
during the course of his breaking and entering and was killed because he could identify him.
When the defendant not only left behind his genetic fingerprint at the crime scene but also had
the means, motive, and opportunity to commit the murder and his behavior showed

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

consciousness of guilt, there was sufficient evidence to show his identity as the murderer.

48

APP_210

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2280

Page 115 of

RELIEF

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

WHEREFORE, Jessica R. Cooper, Prosecuting Attorney in and for the County of
Oakland, by Danielle Walton, Assistant Prosecuting Attorney, respectfully requests that this
Honorable Court affirm defendant’s convictions in the lower court.

Respectfully Submitted,
JESSICA R. COOPER
PROSECUTING ATTORNEY
OAKLAND COUNTY
THOMAS R. GRDEN
CHIEF, APPELLATE DIVISION

By:

/s/Danielle Walton
(P52042)
Assistant Prosecuting Attorney
Oakland County Prosecutor’s Office
1200 North Telegraph Rd.
Pontiac, MI 48341
(248) 858-0685

DATED: August 29, 2014

49

APP_211

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2281

Page 116 of

APP_212

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2282

Page 117 of

APP_213

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2283

Page 118 of

APP_214

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2284

Page 119 of

APP_215

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2285

Page 120 of

APP_216

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2286

Page 121 of

APP_217

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2287

Page 122 of

APP_218

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2288

Page 123 of

APP_219

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2289

Page 124 of

APP_220

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2290

Page 125 of

APP_221

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2291

Page 126 of

APP_222

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2292

Page 127 of

APP_223

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2293

Page 128 of

APP_224

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2294

Page 129 of

APP_225

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2295

Page 130 of

APP_226

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2296

Page 131 of

APP_227

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2297

Page 132 of

APP_228

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2298

Page 133 of

APP_229

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2299

Page 134 of

APP_230

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2300

Page 135 of

APP_231

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2301

Page 136 of

APP_232

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2302

Page 137 of

APP_233

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2303

Page 138 of

APP_234

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2304

Page 139 of

APP_235

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2305

Page 140 of

APP_236

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2306

Page 141 of

APP_237

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2307

Page 142 of

APP_238

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2308

Page 143 of

APP_239

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2309

Page 144 of

APP_240

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2310

Page 145 of

APP_241

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2311

Page 146 of

APP_242

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2312

Page 147 of

APP_243

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2313

Page 148 of

APP_244

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2314

Page 149 of

APP_245

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2315

Page 150 of

APP_246

RECEIVED by Michigan Court of Appeals 8/29/2014 3:05:12 PM

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2316

Page 151 of

APP_247

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2317

Page 152 of

JESSICA R. C®PER
Prosecutor

Paul T. Walton
Chief Assistant Prosecutor

Clerk of the Court of Appeals
Troy Office
Columbia Center
201 W. Big Beaver Rd. Suite 800
Troy, MI 48084-4127

Re:

August 29, 2014

People v Melvin Wofford (COA No. 318642)

Dear Clerk:
I am including copies of a DVD introduced at the trial. (People's Exhibit 111) (Volume V at
120)
If you need any further information, please feel free to call at (248) 858-0685. A copy of the
DVD is also being sent to defendant's attorney as well as a proof of service.

JESSICA R. COOPER
PROSECUT GATTO

Assistant Prosecuting Attorney
Enclosure
cc:

---

Attorney Neil Leithauser

<?;;;

.,

.

';'./")

:.~-~~:J
,_,

I
(.,.)

---.

""t1

j

·,.

+--·

..

i\J

(,.

1200 N.Telegraph Rd.

West Wing - Bldg. 14-E

Pontiac, MI 48341

p: 248-858-0656

f. 248-858-0660
APP_248

Case 2:16-cv-13083-LJM-RSW ECF No. 9-18 filed 03/02/17
153

PageID.2318

Page 153 of

ST A TE OF MICHIGAN
IN THE COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,
Court of Appeals
No. 318642

Plaintiff-Appellee,

Circuit Court
No. 2012-241569-FC

-vs-

MELVIN WOFFORD,
Defendant-Appellant.

PROOF OF SERVICE
STATE OF MICHIGAN)
)SS
COUNTY OF OAKLAND)
Michelle Leismer, being duly sworn, deposes and says that on the 29th day of August, 2014,
she served a copy of People's Exhibit #111 (DVD copy of Scene) from previously e-filed brief on
appeal, regarding the above mentioned case, upon Neil Leithauser, attorney for Defendant, at 101 W.
Big Beaver Rd., 14th Floor, Troy, MI 48084, by depositing same in an envelope with the Oakland
County mailing pick-up service.
Further deponent saith not.

'~~~
MICHELLE LEISMER,

Depon~nt

,.

Subscribed and sworn to before me,
this 29th day of August, 2014.

EL '.A.BETH BARNETTE, Notary Public
Oakland County, Michigan
Acting in County of: Oakland
My Commission Expires: 01/29/2020

APP_249

A-8

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2074

Page 1 of 23

APP_250

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2075

Page 2 of 23

APP_251

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2076

Page 3 of 23

APP_252

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2077

Page 4 of 23

APP_253

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2078

Page 5 of 23

APP_254

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2079

Page 6 of 23

APP_255

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2080

Page 7 of 23

APP_256

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2081

Page 8 of 23

APP_257

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2082

Page 9 of 23

APP_258

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2083

Page 10 of 23

APP_259

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2084

Page 11 of 23

APP_260

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2085

Page 12 of 23

APP_261

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2086

Page 13 of 23

APP_262

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2087

Page 14 of 23

APP_263

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2088

Page 15 of 23

APP_264

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2089

Page 16 of 23

APP_265

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2090

Page 17 of 23

APP_266

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2091

Page 18 of 23

APP_267

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2092

Page 19 of 23

APP_268

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2093

Page 20 of 23

APP_269

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2094

Page 21 of 23

APP_270

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2095

Page 22 of 23

APP_271

Case 2:16-cv-13083-LJM-RSW ECF No. 9-14 filed 03/02/17

PageID.2096

Page 23 of 23

APP_272

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2097

Page 1 of 17

APP_273

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2098

Page 2 of 17

APP_274

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2099

Page 3 of 17

APP_275

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2100

Page 4 of 17

APP_276

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2101

Page 5 of 17

APP_277

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2102

Page 6 of 17

APP_278

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2103

Page 7 of 17

APP_279

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2104

Page 8 of 17

APP_280

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2105

Page 9 of 17

APP_281

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2106

Page 10 of 17

APP_282

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2107

Page 11 of 17

APP_283

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2108

Page 12 of 17

APP_284

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2109

Page 13 of 17

APP_285

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2110

Page 14 of 17

APP_286

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2111

Page 15 of 17

APP_287

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2112

Page 16 of 17

APP_288

Case 2:16-cv-13083-LJM-RSW ECF No. 9-15 filed 03/02/17

PageID.2113

Page 17 of 17

APP_289

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2114

Page 1 of 32

APP_290

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2115

Page 2 of 32

APP_291

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2116

Page 3 of 32

APP_292

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2117

Page 4 of 32

APP_293

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2118

Page 5 of 32

APP_294

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2119

Page 6 of 32

APP_295

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2120

Page 7 of 32

APP_296

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2121

Page 8 of 32

APP_297

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2122

Page 9 of 32

APP_298

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2123

Page 10 of 32

APP_299

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2124

Page 11 of 32

APP_300

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2125

Page 12 of 32

APP_301

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2126

Page 13 of 32

APP_302

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2127

Page 14 of 32

APP_303

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2128

Page 15 of 32

APP_304

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2129

Page 16 of 32

APP_305

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2130

Page 17 of 32

APP_306

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2131

Page 18 of 32

APP_307

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2132

Page 19 of 32

APP_308

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2133

Page 20 of 32

APP_309

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2134

Page 21 of 32

APP_310

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2135

Page 22 of 32

APP_311

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2136

Page 23 of 32

APP_312

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2137

Page 24 of 32

APP_313

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2138

Page 25 of 32

APP_314

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2139

Page 26 of 32

APP_315

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2140

Page 27 of 32

APP_316

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2141

Page 28 of 32

APP_317

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2142

Page 29 of 32

APP_318

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2143

Page 30 of 32

APP_319

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2144

Page 31 of 32

APP_320

Case 2:16-cv-13083-LJM-RSW ECF No. 9-16 filed 03/02/17

PageID.2145

Page 32 of 32

APP_321

